<html>
<title> - RAIL PASSENGER SERVICE IN THE STATE OF GEORGIA</title>
<body><pre>[Senate Hearing 106-1134]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1134

             RAIL PASSENGER SERVICE IN THE STATE OF GEORGIA

=======================================================================

                             FIELD HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 6, 2000

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


87-176              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
SLADE GORTON, Washington             JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
OLYMPIA J. SNOWE, Maine              JOHN B. BREAUX, Louisiana
JOHN ASHCROFT, Missouri              RICHARD H. BRYAN, Nevada
BILL FRIST, Tennessee                BYRON L. DORGAN, North Dakota
SPENCER ABRAHAM, Michigan            RON WYDEN, Oregon
SAM BROWNBACK, Kansas                MAX CLELAND, Georgia
                  Mark Buse, Republican Staff Director
               Ann Choiniere, Republican General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 6, 2000.................................     1
Statement of Senator Cleland.....................................     1

                               Witnesses

Barnes, Hon. Roy, Governor, State of Georgia.....................    35
    Prepared statement...........................................    37
Campbell, Hon. Bill, Mayor, City of Atlanta, Georgia.............    41
    Prepared statement...........................................    43
Crosby, Stephen A., President, CSX Real Property, Inc............    55
    Prepared statement...........................................    57
Elder, Hon. Eddie, Chairman, Barrow County Board of Commissioners    44
Ellis, Hon. Jack C., Mayor, City of Macon, Georgia...............    27
    Prepared statement...........................................    29
Lewis, H. Craig, Vice President of Corporate Affairs, Norfolk 
  Southern Corporation...........................................    60
    Prepared statement...........................................    62
Molitoris, Hon. Jolene, Administrator, Federal Railroad 
  Administration.................................................     7
    Prepared statement...........................................     9
Pruett, Hon. Cecil, Mayor, City of Canton, Georgia...............    40
Rhodenizer, Hon. Carl, Vice Chair, Georgia Rail Passenger Program 
  Management Team................................................    48
    Prepared statement...........................................    50
Roberts, Steve, Program Manager, Georgia Rail Consultants........    52
    Prepared statement...........................................    53
Slater, Hon. Rodney E. , Secretary, U.S. Department of 
  Transportation.................................................     3
    Prepared statement...........................................     5
Warrington, George, President, National Railroad Passenger 
  Corporation....................................................    17
    Prepared statement...........................................    21

                                Appendix

Response to written questions submitted by Hon. Max Cleland to:
    Rodney E. Slater.............................................    67
    Jolene Molitoris.............................................    71
    George Warrington............................................    72
    Bill Campbell................................................    75
    Eddie Elder..................................................    76
    Jack C. Ellis................................................    77
    Steve Roberts................................................    78
    Stephen A. Crosby............................................    80
    H. Craig Lewis...............................................    82
Atlanta Regional Commission, Atlanta, GA, prepared statement.....    83

 
             RAIL PASSENGER SERVICE IN THE STATE OF GEORGIA

                              ----------                              


                      WEDNESDAY, DECEMBER 6, 2000

                                       U.S. Senate,
         Committee on Commerce, Science and Transportation,
                                                       Atlanta, GA.
    The Committee met, pursuant to notice, at 2:10 p.m., at the 
Georgia Capitol Education Center, 180 Central Avenue, Atlanta, 
Georgia, Hon. Max Cleland, presiding.

            OPENING STATEMENT OF HON. MAX CLELAND, 
                   U.S. SENATOR FROM GEORGIA

    Senator Cleland. Ladies and gentlemen, I will call the 
hearing to order. Thank you very much for coming.
    We have a very exciting agenda ahead of us today and only a 
couple of hours to get it all in, so we will proceed.
    I would like to start with an opening statement. We would 
like to thank all of you for coming to today's field hearing of 
the U.S. Commerce Committee. The full Committee's name is U.S. 
Senate Committee on Commerce, Science and Transportation. So 
transportation is a key focus of the Senate Commerce Committee. 
I happen to be on the Subcommittee on Surface Transportation 
and Merchant Marine, as well as the Aviation Subcommittee, so I 
get involved in transportation issues all the time. And we are 
delighted to have all of you here.
    Gathered in this one room today, we have some of the best 
and brightest minds in transportation in America. We will focus 
today on Georgia's commuter congestion--a dilemma mirrored in 
countless highways across the country--and on creative 
solutions to one of the 21st century's most challenging and 
frustrating problems--gridlock.
    Now we are fortunate to have with us the head of the U.S. 
Department of Transportation. Secretary Slater, your department 
has given us very sobering statistics about the status of our 
transportation, particularly here in Georgia. We appreciate you 
being here and the work of your staff. According to the U.S. 
DOT, traffic congestion in America will increase 400 percent on 
our urban freeways and more than 200 percent on other roads in 
just the next two decades. Ask anyone from Atlanta and they 
will swear to you that the lion's share of that congestion is 
bound to be right here in our own neighborhood. Just consider: 
Metro Atlanta is the most traffic-congested city in the south. 
Atlanta motorists drive more miles per day than drivers from 
any other metro area in America. Total the number of miles 
Atlantans drive in a single day and they will stretch from the 
earth to the sun.
    Our traffic-clogged roads have taken a toll on our 
environment. Due in large part to the exhaust from nearly three 
million vehicles, Atlanta's skies are in violation of national 
clean air standards. The boom fell in 1998, when the region 
lost federal funds for new road projects and became the 
nation's poster child, unfortunately, for urban sprawl. Now 
other Georgia cities are in danger of following in Atlanta's 
footsteps.
    But, as the song says, ``the times, they are a--changing.'' 
This past summer, the federal government approved a 
transportation plan submitted by the Atlanta region which, for 
the first time ever, devotes half its funds to transit. The 
state stands ready to flex hundreds of millions of dollars from 
highway projects to transit projects. Georgians are looking at 
the future possibility of constructing a magnetic levitation 
high-speed train system from Atlanta to Chattanooga. The 
Georgia Regional Transportation Authority is expected to launch 
a system of express bus service operating along HOV lanes. 
Georgia transportation planners are considering the potential 
of intercity bullet trains, of light rail and commuter rail 
lines serving downtown Atlanta from corridors extending to 
Athens, Bremen, Griffin and Senoia. Given the fact that two 
railroad tracks will carry the equivalent of 20 lanes of 
highway traffic in rush hour, it is little wonder that there is 
a great potential for the rebirth of rail in Georgia.
    These are some of the transportation options we will be 
examining today. We all know these transportation challenges 
will not be easy, and they will not be quick. And we all know 
these options come with questions. Will drivers leave their 
cars for trains? Will trains reduce commuter traffic time? Will 
rail ridership justify costs? How are communities reacting to 
the possibility of rail expansion? What federal assistance is 
out there to help us? Is there sufficient local commitment to 
meet federal match requirements?
    We truly have a blue-ribbon panel today--the head of the 
U.S. Department of Transportation, the head of the Federal 
Railroad Administration, the President of Amtrak, Governor 
Barnes, Mayor Campbell, Mayor Ellis, the Chairman of the Barrow 
County Board of Commissioners, the Vice Chair of the Georgia 
Rail Passenger Program Management Team, representatives from 
both CSX and Norfolk Southern, and the point person who 
engineered the successful state of Virginia--Virginia Rail 
Express partnership. I am looking forward to hearing from the 
panelists on how we can address Georgia's problems in terms of 
transportation in the 21st century.
    And now ladies and gentlemen, let me just introduce our 
panelists here. The Honorable Rodney Slater, Secretary, U.S. 
Department of Transportation; The Honorable Jolene Molitoris, 
Administrator, Federal Railroad Administration; and Mr. George 
Warrington, President, National Railroad Passenger Corporation, 
better known as Amtrak.
    The rules of the game are you can talk as long as you want 
to, but we will cut you off after 5 minutes.
    [Laughter.]
    Senator Cleland. Now, we would appreciate you introducing 
your statement into the record and summarizing and we would 
like to ask Secretary Slater to go first. Mr. Secretary, 
welcome to Georgia--welcome back to Georgia.

              STATEMENT OF HON. RODNEY E. SLATER, 
          SECRETARY, U.S. DEPARTMENT OF TRANSPORTATION

    Secretary Slater. Thank you, Senator Cleland, and thanks to 
all who have gathered. I am delighted to join you for this 
important hearing on the future of transportation in the 
southeast, and especially the role that Georgia and Atlanta 
will play in that regard.
    Aided by Senator Cleland's effective advocacy in Washington 
and the work of Governor Barnes here in Georgia and Mayor 
Campbell and other officials here in the region, Georgia has 
already become an emerging hub for the global economy in the 
21st century. Atlanta and this important region are staking out 
an early claim as a premier global city and global metropolitan 
region in this, a new century and a new millennium.
    Senator, I am also pleased, as you have noted, to be here 
with Administrator Jolene Molitoris and also Amtrak President 
George Warrington, because this could not be a better time to 
talk about rail transportation. The two of them have truly led 
a renaissance in this arena and we are excited about not only 
what is going on now as relates to Amtrak service and rail 
service across the country, but also the bright future for this 
service especially as we recall the celebration of the 
unveiling of the high-speed rail service in the Northeast 
Corridor just a few weeks ago.
    This region's economic and technological assets for the 
competitive global environment ahead are all impressive. The 
key to realizing the full potential of this region in this new 
century and new millennium, however, will require more than 
assets.
    Senator if I may, I would like to talk about what I think 
is the first and foremost requirement for meeting the 
challenges of our time and ensuring that we have the kind of 
transportation system necessary to meet those challenges. I 
believe that first and foremost, the requirement will be 
visionary and vigilant leadership committed to seizing the 
opportunity of our times. This will give birth to the kinds of 
public and private partnerships with all stakeholders, ranging 
from governments to neighborhoods, to the business community, 
all who have an important role in ensuring that economic 
security and social progress for the people of the region is 
truly realized. It will also take this unified, intermodal 
transportation focus to come into play to make these lines that 
are on the map, that Jolene and George will talk about in 
greater detail, a reality when it comes to providing quality 
passenger rail service. For only through forging a shared 
vision and a vigilant daily near-term focus on the kinds of 
initiatives and strategies and change efforts necessary to 
bring that into being can we master the challenges ahead and 
create the transportation system of our dream.
    The next 25 years will be challenging and exciting for all 
aspects of the transportation enterprise, especially rail. I 
mentioned Acela service, but also the vision for high-speed 
rail that I am sure President Warrington will get into, where 
we will touch some 10 regions of the country and give 150 
million Americans access to high-speed rail, and where we will 
touch 75 percent of the top 100 metropolitan regions in the 
country. And you should know that Atlanta will be one of those 
rail hubs, as it has always been a rail and transportation 
leader in years past.
    Our understanding of transportation, though, to bring this 
into being--our understanding must change. We must move beyond 
the traditional and sort of narrow public works definition of 
transportation, Senator, as you have noted that we must, to 
view transportation in a much broader and more comprehensive 
light. We must see how it impacts our safety, how it impacts 
mobility and access, how it undergirds our economy and aids us 
in the international trade environment, how you can invest in 
transportation and actually enhance the environment, and its 
importance as it relates to national security.
    In order to bring this into being, there is the need for a 
new policy architecture for transportation decisionmaking in 
the 21st century, a transportation policy architecture that 
will bring all parties to the table, that will allow us to take 
advantage of the extraordinarily wide range of economic, 
social, political, and environmental factors that have to be 
taken into account if we are to make our vision real. That is 
really the reason, Senator, that you have caused us to come to 
this place to talk about that unified approach.
    And I want to say to all who are here gathered that we are 
willing as a department to establish an intermodal 
transportation team that will work with you, Senator, and the 
people that you have gathered to deal with all aspects of the 
transportation challenges that you are facing in this region. 
The reason we commit ourselves to do that is because of the 
importance of this region to the overall health and well-being 
of the nation's economy, not just yours.
    When you look at all that you have done, clearly you are 
paving the way here to be remembered not just as the poster 
child of the gridlock of years past, but to be viewed as the 
poster child of those who have answers through visionary and 
vigilant leadership to provide the quality response to the 
challenges of the present and the future.
    Here, if I may, Senator, let me cite the work that you and 
Governor Barnes and others engaged in, as you worked to bring 
into creation the Georgia Regional Transportation Authority. 
This Authority is working in partnership with all other 
interested parties in the region, to bring a new focus and a 
new vision to the importance of transportation in the region. 
As we do so, we are moving beyond the belief that added road 
miles are the only answer to every transportation challenge and 
we are beginning to see the important role that rail and 
transit can play in that regard.
    Senator, as I close, let me say that as the home of such 
international heavyweights as CNN and Coca-Cola and IBM and MCI 
WorldCom along with premier transportation leaders recognized 
worldwide, Delta and UPS, Atlanta is already rightly claiming 
its place as a world city. In order to truly develop, though, 
and to realize your full potential, you will have to have the 
kind of transportation system of the future that gives you the 
ability to exercise all options and realize your full 
potential. You deserve particular credit for your integrated 
approach to planning that is now underway, that includes a 
focus on high-speed rail corridors, transit, and commuter and 
intercity passenger rail, and intercity and express bus 
service, as you have noted, as well as highways and air 
transport.
    We stand ready to work with you in this regard. All of the 
great work that we did as we prepared for the Olympics stands 
as a prime example of the wonderful work that we can do as we 
plan to win the gold medal when it comes to the transportation 
system of the 21st century.
    This can be done. Some of the resources are there, but if 
we produce the vision, we can get the additional resources we 
need, Senator, to make this dream a reality.
    Again, thank you for the opportunity to be a part of this 
panel, to be here with you, and I am looking forward to joining 
my colleagues as we respond to questions from you and members 
of the audience about how we proceed to make this dream a 
reality.
    [The prepared statement of Secretary Slater follows:]

        Prepared Statement of Hon. Rodney E. Slater, Secretary, 
                   U.S. Department of Transportation

    Senator Cleland, I appreciate the opportunity to testify before you 
today on the potential for rail to improve transportation in the 
Southeast, specifically in Georgia. High-speed rail corridors, transit, 
commuter and intercity passenger rail, as well as intercity and express 
bus service, and intelligent transportation systems offer great promise 
for addressing the transportation challenges in metropolitan Atlanta. 
The Atlanta region is well positioned to showcase the positive effects 
of transportation on mobility and the environment and to show what is 
possible with an integrated approach to transportation planning and 
strong financial commitments at the local, state and federal level.
    Atlanta is facing some particularly daunting challenges. The 
metropolitan Atlanta region, which is growing very rapidly, already has 
a high dependence on the automobile and the highest vehicle mileage per 
capita in the Nation. It has undertaken major air quality planning to 
meet the requirements of the Clean Air Act. And, it has developed a 
transportation plan that helps the region meet its mobility and clean 
air goals.
    Another challenge facing Atlanta is the transportation concerns of 
civil rights, environmental justice, and low-income groups. Many 
minority and low-income residents do not own cars. In response to their 
concerns, the U.S. Department of Transportation, with the Georgia 
Department of Transportation (GADOT), the Atlanta Regional Commission 
(ARC) and a coalition of environmental justice and community groups are 
conducting an assessment of environmental justice issues relating to 
Atlanta's transportation planning process. We anticipate that this 
process will help regional transportation planners adjust their 
strategies to meet transportation needs more equitably, and also serve 
as model for other metropolitan areas around the country.
    State and local leaders are to be commended for their efforts to 
get critical elements in place. The Georgia Regional Transportation 
Authority (GRTA), created in 1999, has broad powers to manage 
transportation and air quality projects and land use in nonattainment 
areas. And, most important, it has the support of the public and 
private sectors, including the business community. ARC and GRTA are 
committed to ``smart growth'' and are looking at ways to encourage 
local governments to work toward development that supports that 
objective. Steps are being taken to assure that all communities in the 
Atlanta region are involved in the transportation planning process.
    Providing a broad range of transportation options and choices is an 
essential component of livability and ``smart growth.'' I understand 
that Georgia has taken good advantage of the flexible provisions of the 
Transportation Equity Act for the 21st Century (TEA-21) by directing 
close to 55 percent of the transportation funds for Atlanta for transit 
purposes. The recently adopted transportation plan for the Atlanta 
metropolitan area emphasizes both transit and commuter rail as a part 
of the metropolitan transportation system. Encouraging land use that 
supports and sustains transit is a key feature of the metropolitan 
plan. Such linkages are essential to the long-term effectiveness of 
transit and to achieving a balanced surface transportation system.
    Across the Nation, communities have demonstrated a strong interest 
in pursuing ``smart growth''--an approach that ensures a high quality 
of life and strong, sustainable economic growth. The Department has 
strengthened its role as a partner with states and local communities by 
providing the tools and resources, in concert with our partners, to 
preserve green space, ease traffic congestion, and pursue regional 
``smart growth'' strategies. We are showing that collaboration works.
    Partnerships are emerging across sectors, as businesses, state and 
local governments, environmentalists, community groups and others 
recognize the common ground they share. These regional approaches 
produce benefits for all.
    Atlanta is one of the four cities nationwide in the Clinton-Gore 
Administration's new program, The Partnership for Regional Livability 
(PRL). One of the primary goals of this program is to identify a role 
for the federal government in support of regional initiatives. Mayor 
Campbell and Governor Barnes, both of whom are here today, have been 
strong supporters and catalysts for the Chattahoochee Riverway Project. 
That project is part of a broader state and regional initiative to 
support livable communities and combat sprawl throughout northwest 
Georgia. This is just one example of what can be accomplished when 
partners work together.
    Georgia has been a leader in forging partnerships at the state and 
local levels. The partnership of the Georgia Department of 
Transportation, GRTA, and the Georgia Rail Passenger Authority (GRPA) 
is a case in point. These three bodies want to revive rail passenger 
service in Georgia with links serving the Macon-Atlanta corridor and 
the Athens-Atlanta corridor. They are looking at other options as well, 
including bus service in these corridors. You'll be hearing more about 
these from other witnesses today. This is part of a vision for better 
passenger service throughout the Southeast.
    Under the Clinton-Gore Administration, a record amount of money has 
been available for transportation--including $58.8 billion for fiscal 
year 2001, of which $43 billion is for transportation infrastructure, 
more than double the average amount provided in fiscal years 1990-1993. 
TEA-21 not only provided more funding than we have ever had before, it 
provided unprecedented flexibility to use the funds for a wide range of 
transportation solutions. The Department's surface transportation 
programs include formula and discretionary grants as well as programs 
that provide direct loans, loan guarantees and lines of credit. These 
varied and unique approaches to funding give communities a broad range 
of incentives to expand transportation choices. As I noted at the 
outset, Georgia has capitalized on this flexibility.
    TEA-21 programs supporting high-speed rail include the Next 
Generation High-Speed Rail Technology program, that develops technology 
to improve the effectiveness of high-speed rail in partnership with 
states and industry, and the Grade Crossing Hazard Elimination Program 
that includes support for states with designated high-speed rail 
corridors. In addition, TEA-21's Maglev Deployment Program is assisting 
state planning for seven maglev projects including the one proposed 
here in Atlanta that would provide for the first 31 miles of a 110-mile 
maglev project linking Atlanta Hartsfield Airport to Atlanta and 
Chattanooga's Lovell Airfield along Interstate Highway Route I-75. The 
legislation specifies that one project will be selected for federal 
funding and construction, subject to the appropriation of funds. The 
Department has cooperated with Amtrak and the states to implement 
Amtrak's Acela Express high-speed rail in the Northeast Corridor and to 
plan for high-speed rail service in ten other corridors, including a 
new route between Birmingham, Alabama and Atlanta, Georgia and a new 
route from Atlanta and Macon to Savannah, Georgia and Jacksonville, 
Florida.
    TEA-21 authorized two innovative financing programs for major 
transportation projects. The Transportation Infrastructure Finance and 
Innovation Act (TIFIA) program provides loans, loan guarantees, and 
lines of credit to fund major transportation investments of critical 
national importance. The Railroad Rehabilitation and Improvement 
Financing (RRIF) Program provides direct loans and loan guarantees for 
terms up to 25 years to acquire, improve, or rehabilitate intermodal or 
rail equipment and facilities. There is a statutory maximum of $3.5 
billion in principal. A unique feature of the RRIF Program is the use 
of a Credit Risk Premium instead of appropriated funds. The premium is 
a cash payment provided by a non-federal entity to cover the estimated 
long-term cost to the federal government of a loan or loan guarantee.
    High-speed rail offers an attractive transportation alternative to 
congested highways and airports in certain intercity corridors, such as 
the corridors under study in Georgia and between Atlanta and other 
southeast cities. The Clinton-Gore Administration has supported 
increased funding for Amtrak, both through capital budgets and our 
proposed Expanded Passenger Rail Fund. The Administration also strongly 
supports enactment of the proposed High-Speed Rail Investment Act 
currently under consideration by Congress. It would provide up to $10 
billion in funding over a ten-year period for capital investment in 
high-speed rail, which could include the Atlanta high-speed rail 
corridor. States would be required to put up a match of at least 20 
percent. The additional funding provided could reduce traffic 
congestion and air pollution, enhance smart growth, protect open space 
and contribute to the economic development of communities served by 
passenger rail. We hope that Congress will pass this important 
legislation before the end of the current session.
    Primary federal funding sources for transit projects include the 
Federal Transit Administration's Formula Grants program and Capital 
Investment Grants program. The Formula program may be used for either 
operating or capital costs, including bus and rail vehicle 
replacements. The Capital Investment program provides funding for new 
and extended fixed guideway systems, fixed guideway modernization, and 
bus and bus related facilities.
    Many transit projects also are eligible for the surface 
transportation flexible funding programs including the Surface 
Transportation Program (STP) and the Congestion Mitigation and Air 
Quality Improvement Program (CMAQ), and also, in some circumstances, 
the National Highway System (NHS) program. CMAQ, for example, can help 
communities create high occupancy vehicle lanes, provide incentives for 
ridesharing, improve transit facilities, and select from a number of 
other options for more livable transportation systems. Georgia has made 
great strides, but as with any state, it must continue to look closely 
at its own sources of funding, both at the state level and locally, as 
all of these federal programs require a significant local commitment of 
funds.
    We recognize that the Atlanta area is making real progress in 
addressing its transportation and environmental challenges while 
continuing to support a growing economy. Transit and rail clearly are a 
major part of the picture, along with highways. No one approach can 
meet the varied and complex transportation needs and environmental 
demands. We look forward to continuing to work with Georgia's state and 
local officials and other interested parties as they work toward a 
viable solution for the Atlanta region, a solution that includes a 
strong financial commitment by them. With a strong local commitment and 
continued creative leadership, Atlanta is becoming a showcase for the 
Nation.
    This concludes my prepared statement, Senator Cleland, and I would 
be happy to answer any questions you might have.

    Senator Cleland. Thank you very much, Mr. Secretary. I 
would just note that a winning team needs a winning coach. You 
are our coach, and we thank you very much for coaching us in 
the right regard, in the right direction.
    Secretary Slater. Thank you.
    Senator Cleland. I could not help but think when you 
mentioned UPS, UPS has just won six new routes to China. We are 
still trying to get to Jesup.
    [Laughter.]
    Secretary Slater. Well, let us get you to Jesup.
    Senator Cleland. At that point, we will turn it over to Ms. 
Jolene Molitoris, Administrator of the Federal Railroad 
Administration. Thank you very much for coming, ma'am.

              STATEMENT OF HON. JOLENE MOLITORIS, 
         ADMINISTRATOR, FEDERAL RAILROAD ADMINISTRATION

    Ms. Molitoris. Thank you very much, Senator, Mr. Chairman. 
It is a delight to be here. I am always glad to be in Georgia 
and in Atlanta because I know that is where the transportation 
action is.
    Following up on the Secretary's leadership and statements, 
I wanted to point out the four areas that seem to be keys to 
success in other parts of the country and then maybe we can go 
into more detail with questions. But those four key elements 
are leadership, partnership, planning, and adequate funding.
    As I observe--and I go all over the country and literally 
all over the world--there is no place more poised to take 
advantage of leadership in transportation than Georgia and the 
Atlanta region. Because of your championing balanced 
transportation and recognizing the role of rail, your 
championship of the High-Speed Rail Investment Act, which we 
still hope will pass this year, with Governor Barnes, Mayor 
Campbell, the mayors from the other towns, Macon and Athens and 
so on. In addition to the elected officials, the leadership of 
the organizations like the Georgia Regional Transporation 
Authority (GRTA) and the Georgia Rail Passenger Authority 
(GRPA) and all of them, you have a team that is really 
unbeatable.
    We have seen it in New York, and the states of Washington, 
California, Illinois. It could not have happened there without 
that kind of top leadership. We know that you have it here and 
we are so glad for your state and we want to work with that.
    Second is the partnership aspect. These kinds of projects 
cannot happen without everybody pulling together and what we 
have found is that in some sense more partners are better. I 
always say develop them better and nurture them often because 
you need everyone. It seems to us that when people, even though 
they have different interests, different agendas on what is 
important to them, when you get everybody around that table 
with people of good will and with success in transportation at 
the top, win-wins happen and common ground is reached. I 
believe that the Secretary's proposal of an action team is 
really important. I am here representing not only the Federal 
Railroad Administration, but also the Federal Transit 
Administration, the Federal Highway Administration, and we all 
work together under the challenge of one DOT that the Secretary 
has set out. We are a team. We want to come and help make your 
team successful.
    A couple of other across-the-country examples that may 
pique some of your interest. For example, in Charlotte, North 
Carolina, perhaps an unlikely partner, the Bank of America, 
from its headquarters there, has assumed a leading role in 
assembling the private sector business advocates for the 
development of the southeast high-speed rail corridor which, as 
you can tell, we see going all the way to Atlanta. Those 
private sector partners are key for this effort.
    And then let me just mention planning. A lot of people see 
planning as some kind of necessary evil, somehow they see it as 
taking too long and being too complex. That is where we come 
in, because we want to show you that planning is (a) a very 
good investment and (b) something that we can help straighten 
out the curves and the twists and help you do it in a timely 
fashion. Good planning will save you money and will help you 
reach success. I can tell you there are other parts of the 
country that have come to us at the end of the process after 
they have spent a lot of money, and they had to spend a lot 
more to get into compliance. We think that we can help you 
avoid any pitfalls there.
    You know we have been very involved in the Washington, D.C. 
to Richmond planning for the beginning of this southeast 
corridor. We have a lot of experience at FRA and we are willing 
to share that. Other people have made mistakes; you do not have 
to make those any more because we have already figured them 
out. So the more experience we have, the more we know that this 
can happen.
    In Virginia, for example, after we did the work--we 
completed the planning work in May of 1999--in the State's 2000 
budget request was a request for $67 million to begin 
implementing the plan. So there is a line, we set the stage, 
the leadership in the state takes over and sets the stage on 
the investment that they are going to make.
    Let us just remember there are many sources of funding 
because funding is always an issue. As you heard today in the 
press conference, everyone wants to know about that. But in 
addition to the kinds of funds you can determine to use at the 
state level, there are transit and CMAQ funds where the 
eligibility permits. There are investments related to freight 
that will help with the freight railroads' participation. We 
have a new loan program, the Railroad Rehabilitation and 
Improvement Financing (RRIF) program, with $3.5 billion 
available for loans for these kinds of things (of which $1 
billion is reserved for shortline and regional railroads.) I 
think that what the Clinton-Gore Administration has really done 
is helped set out a menu of opportunities. As we said in the 
news conference, we believe you know best how to invest. We 
hope that additional flexibility provisions come along in the 
next reauthorization and at the earliest possible time.
    So on behalf of Administrator Wykle, Administrator 
Fernandez and myself, we stand with our team here and with our 
partner George Warrington, I might say who has been a terrific 
partner. We believe in your success and we want to support and 
facilitate it.
    Thank you.
    [The prepared statement of Ms. Molitoris follows:]

      Prepared Statement of Hon. Jolene Molitoris, Administrator, 
                    Federal Railroad Administration

Introduction
    Mr. Chairman and members of the Committee, I appreciate the 
opportunity to be here today to testify about the potential of rail 
passenger transportation in the Southeast, with particular attention to 
the State of Georgia. I am particularly gratified and honored to appear 
before you in company with Transportation Secretary Rodney Slater, who 
has done so much to advance the cause of intermodal transportation, and 
Amtrak President George Warrington, who has overseen his company's 
transformation into the dynamic, expanding embodiment of the intermodal 
ideal. Our joint appearance today symbolizes our long-term partnership 
in progress.

Role of FRA
    The Federal Railroad Administration, which I head, plays a crucial 
role in rail transportation of all kinds, and fulfills unique and 
longstanding functions in rail passenger transportation. Of course, our 
first priority is safety for all railroad operations, freight, 
intercity passenger, and commuter. Consequently, most of our people are 
involved in safety assurance. Regarding the freight railroads, we 
provide advice to the Secretary on regulatory issues and other matters 
of national significance, conduct focused research and development, and 
manage financial assistance programs.
    With respect to passenger railroads, we initiated and worked 
closely with Amtrak to implement the Northeast Corridor Improvement 
Project, making possible the Metroliners and the Acela Express, and 
introducing true high-speed rail service to America. We also represent 
the Secretary on Amtrak's board of directors and we provide financial 
assistance to Amtrak.
    Today, the Federal Railroad Administration not only serves as the 
Secretary's principal advisor on Amtrak matters, but also catalyzes 
partnerships among the states, Amtrak, and the freight railroads for 
improved passenger service. One of our many roles in this process is 
that of designating corridors for high-speed rail development. 
Technically, these designations merely make rail lines eligible for 
some very limited special funding for highway-rail grade crossing 
elimination; but practically, the designation process has energized the 
states and Amtrak to pursue far-reaching programs for corridor 
upgrading. In support of such programs, we are also developing safe, 
low-cost technologies (like non-electric locomotives and positive train 
control) that will make high-speed rail investments more affordable and 
marketable than ever. Recently, the designation of high-speed rail 
corridors has increased in importance because of pending legislation 
which would make such corridors eligible for up to $10 billion in bond 
funding for capital investments.

Importance of Rail Options for Large Metro Areas
    Passenger trains are essential elements of intermodal 
transportation within and between our large metropolitan areas. Let me 
give you just a few reasons for this:
    In the last two decades of the 20th Century, the Nation's 
population grew by one-fifth, but intercity travel more than doubled. 
Over that same period, lane miles increased by only three percent. 
Capacity has not kept up with the growing demand. The result? Americans 
are driving more than ever, but bottlenecks in heavily trafficked urban 
areas--where delays have increased by as much as 50 percent--often 
detract from the travel experience.
    Air travel, too, has grown rapidly, at times posing challenges to 
individual passengers. First, worsening highway congestion has hampered 
airport access by motor vehicles. Second, since the 1980's, airlines 
have raised the number of flights by one third and concentrated those 
flights in the Nation's top airports. This dramatic leap forward in 
flight availability and convenience has led to lengthier gate-to-gate 
travel times on most of the routes serving America's busiest air hubs. 
Finally, as the deregulated airlines have become more adept at setting 
fares and scheduling services, full flights have become the rule rather 
than the exception. Consumer complaints about airlines have increased 
in recent years--even as more consumers than ever before have availed 
themselves of the world's finest air transport system.
    In brief, the Nation's mobility challenge reflects the 
extraordinary success of its highways, its airlines, and their 
supporting industries in bringing transportation options to an ever-
broader market.
    These mobility issues will directly affect the Nation's future 
livability. President Clinton was correct when he recently said:

    ``To make our communities more livable . . . This is a big issue. 
What does that mean? You ask anybody that lives in an unlivable 
community, and they'll tell you. They want their kids to grow up next 
to parks, not parking lots; the parents don't have to spend all their 
time stalled in traffic when they could be home with their children.''

    To safeguard mobility and livability in the new millennium, 
Americans need a lasting solution in the form of a balanced 
transportation network. Offering an exciting, innovative transport 
option for the future, rail passenger service brings to bear several 
inherent advantages as part of such a seamless intermodal network.

  <bullet> Railroads are largely independent of the traffic gridlock of 
        highways and airports. Of all travel options, only Amtrak's 
        high-speed Northeast Corridor has unencumbered access to the 
        heart of Manhattan. Trains can whisk passengers into the hearts 
        of other large cities, like Los Angeles, Chicago, and of course 
        Atlanta (once the intermodal terminal is built), without 
        succumbing to highway traffic jams or most types of bad 
        weather. In brief, passenger trains eliminate the traffic jams 
        that are one of the major sources of unreliability in the 
        overall transportation system.

  <bullet> With stations in downtowns, suburbs, and outlying population 
        centers, rail has its own pick-up and delivery system, giving 
        passengers the freedom to choose where to get on and off the 
        train. Passenger convenience can further benefit from rail 
        stations at airports and transit stops. For example, in Boston, 
        Amtrak stops at Route 128, Back Bay, and South Station. At the 
        last two stops, passengers have direct access to three rapid 
        transit lines, as well as to commuter rail routes to Boston's 
        southern and western suburbs. Such convenience could be 
        replicated in other regions of the country.

  <bullet> Railroad stations can anchor the revitalization of city 
        centers. Washington's Union Station redevelopment, for 
        instance, has turned a former white elephant into a vibrant, 
        high-traffic shopping and recreation center that is sparking 
        the rebirth of Washington's North Capitol Street corridor.

  <bullet> With rail, it's not just the speed that is important; it is 
        the total passenger experience. Passenger comfort on Amtrak is, 
        indeed, outstanding and constantly improving. With spacious, 
        reclining seats, plenty of room to walk around, snack bars and 
        even dining cars on board, rail travelers have mobility within 
        their mobility. The public reacts well to this: new train 
        equipment in the Pacific Northwest with European-style decor 
        and taste-tempting local meals on the menu has sparked a 50 
        percent increase in ridership since 1993. Amtrak's Acela 
        Express on the Northeast Corridor which was just inaugurated 
        for revenue service to rave press reviews will offer world-
        class comfort and amenities.

  <bullet> Improved rail passenger service operates so cleanly that it 
        actually reduces total transportation emissions as it attracts 
        riders from planes and cars. A recent Federal Railroad 
        Administration study estimated that the introduction of high-
        speed rail in seven corridors would create pollutant emissions 
        reductions valued at almost half a billion dollars, just by 
        diverting travelers from airlines and automobiles. Rail 
        passenger service is also compact and sparing in its use of 
        resources, usually making use of existing rail rights-of-way--
        in contrast with other modes, which often require new highway 
        lanes or runways.

    With inherent advantages like these, passenger trains clearly 
deserve a prominent role in America's 21st Century intermodal 
transportation system.

Intercity and Commuter Rail--Integrated and Intermodal
    Today, we speak of ``intercity'' and ``commuter'' rail as separate 
modes. This is an artificial distinction, reflecting the funding 
mechanisms and the institutions that have arisen since the mid-20th 
Century. It is true that the Federal Transit Administration (FTA) 
partially funds commuter rail projects, using the transit share of 
federal fuel taxes and that whatever federal funds are made available 
to intercity rail come from general funds through the Federal Railroad 
Administration (FRA). It is also true that different entities, the 
commuter agencies and Amtrak, are responsible for the two types of 
service.
    But in reality, just as the FTA and the FRA are really part of One 
DOT, so are commuter and intercity services two facets of a larger 
transportation offering. Commuter and intercity trains use the same 
tracks, the same signals, and the same stations. Improvements that 
benefit intercity trains usually benefit commuters, and vice versa. The 
potential for interconnections between the two services, and with 
transit, are legion. Anyone who has ever left an Amtrak train at 
Newark, crossed the platform, and taken the PATH train direct to the 
World Trade Center; or ever changed at Penn Station, New York to the 
Long Island Rail Road for direct service to the east would know what I 
mean. It is no accident that all the services I have just mentioned 
were owned and operated for many years by a single company, the 
Pennsylvania Railroad. With engineering foresight and a dedication to 
public service, that company built integrated facilities and 
coordinated its train schedules, providing interconnections both in 
space and time for maximum passenger convenience.
    The days when commuter and intercity trains were operated as one 
service by large private firms like the Pennsylvania Railroad have 
gone. Today, the participants in rail transport are as numerous and 
varied as the sources and uses of the funds that support them. Yet, the 
actual physical interdependence, and the potential for connectivity, of 
these two types of services remain strong. That more agencies are 
involved simply means we have to work harder to fulfill the growing 
potential of rail passenger transportation.
    For example, the FRA recently prepared a study of the Washington-
Richmond corridor. We worked with the freight railroads, the commuter 
agencies, and Amtrak, as well as state and local governments. What 
resulted was a plan that would improve all services by addressing their 
common needs and intelligently allocating improvements to their common 
facilities. We have a similar study underway in the Philadelphia-
Harrisburg corridor, and--closer to Atlanta--on the Richmond-Charlotte 
route. The principle is always the same--careful attention to the needs 
of all users--and the outcome is not surprising: where there's a will, 
there's a way to design cost-effective improvements that will result in 
better-integrated transportation.
    All rail services form part of an even larger transportation 
network. I have already mentioned examples where commuter and intercity 
trains intersect with local transit services. Although intermodal 
terminals are scattered throughout the country, the most prominent 
examples of seamless passenger service remain in the Northeast, the 
Great Lakes region, and California. Georgia generally, and the Atlanta 
region in particular, is a prime location given its status as the hub 
of transportation in the South, for this kind of intermodalism. Indeed, 
I salute Georgia for its efforts to join other prominent metropolitan 
areas in moving to a higher plateau of passenger transport.

Role of Amtrak
    I am particularly excited to have Mr. Warrington on this panel 
because Amtrak fulfills multiple roles in today's world of intermodal 
passenger transportation. Increasingly, the states and Amtrak are 
creating successful partnerships to make the service and facility 
improvements that move the Nation toward high-speed rail. This has 
already taken place in the Pacific Northwest, in California, in the 
Chicago hub region, in New York State, in Pennsylvania, and in 
Virginia. Further service expansions are occurring elsewhere under 
Amtrak's Network Growth Strategy, which moves our national rail 
passenger system out of the ``retreat and retrench'' mode into the 
realm of dynamic growth. Amtrak's experience in intermodal transport 
goes far beyond the state high-speed rail partnerships and includes 
Amtrak's ownership and operation of the Northeast Corridor, which is 
host to thousands of daily commuter trains operated by local agencies. 
Moreover, nothing speaks to the synergies of commuter and intercity 
services better than Amtrak's success in directly operating both 
intercity trains on its own account and commuter services under 
contract to many local agencies. So, Amtrak is both a ``landlord'' and 
a ``tenant''; both a commuter operator and a facility provider for 
other agencies. In addition, Amtrak has been a key player in the 
development of mixed-use intermodal terminals, for example in 
Washington, D.C. and in Philadelphia. For all these reasons, the 
sponsors of commuter and high-speed rail are increasingly Amtrak's 
partners and customers.

High-Speed Corridor Designations
    One of FRA's principal roles in rail passenger service is in the 
designation of routes for development as high-speed rail corridors. Our 
current map of designated corridors positions Atlanta as a possible hub 
for the high-speed corridors in the South. The map shows lines 
radiating from Atlanta to Charlotte and Richmond, to Macon, Savannah, 
and Jacksonville, and to Birmingham, Meridian, and New Orleans. While 
it may be some years before ``high-speed'' service can be implemented, 
there is no reason why ``high-quality'' and ``higher-frequency'' 
service could not be quickly realized on some or all of these routes. 
Uncertainties remain regarding the precise long-term route between 
Atlanta and Birmingham and congestion on the Norfolk Southern route may 
make restoration of the old Seaboard Air Line (SAL) route, if 
available, more economic. A similar situation may exist on the 
Savannah-Jacksonville run, where the former SAL line may provide a 
realistic option. These alternatives would affect the routes from 
Atlanta/Macon to Savannah and Jacksonville. Also of interest are the 
potential impacts of these designations, and their future options and 
service patterns, on the design of Atlanta's proposed intermodal 
terminal.
    Beyond the current map, many possibilities are in play: direct 
service between Atlanta, Birmingham, Meridian, Shreveport, and Dallas/
Fort Worth, in keeping with Amtrak's Network Growth Strategy and 
connecting the existing Gulf Coast and South Central Corridors; and 
service between Atlanta and Chattanooga, or between Atlanta and 
Birmingham, thence north to Nashville, Louisville, and the Midwestern 
states, possibly as part of a restored connection between the Midwest 
and Florida. The possibilities are endless, all would redound to the 
ultimate benefit of Georgia and the Atlanta region, and all would 
exhibit synergy with plans for commuter rail service, in keeping with 
the essential unity of the two types of passenger trains.

Rail Success Stories
    All these prospects for rail service are realistic if there is a 
consensus among all the agencies and entities involved in rail 
passenger service in Georgia and the Southeast, and if an effective 
partnership is forged with Amtrak and the freight railroads that own 
the tracks.
    FRA's experience with similar projects in other parts of the 
country underlines the realism of these possibilities. The shared theme 
of all these success stories is local involvement.

Northeast Corridor
    Alone among the high-speed rail projects in the Nation, the 
Northeast Corridor (NEC) was primarily a federal project from its 
modest origins in the 1960s until its substantial completion this past 
year. Still, there was substantial state and local involvement: in 
securing the original federal funding in the mid 1970s; in providing 
matching funds and local planning participation for the station 
program, which transformed the passenger experience at every important 
station on the entire 456-mile corridor; and in progressing the 
electrification of the last non-electrified segment from New Haven to 
Boston. At every step of the way, in the planning, the environmental 
process, the construction, and now the operation, states and localities 
partnered with the FRA and Amtrak. All these efforts have paid off as 
the NEC hosts continually improving commuter and intercity services, 
ranging from new, direct service from northern New Jersey to Manhattan, 
to an intercity passenger service so good that it now carries as many 
passengers as the airlines do between New York and Washington. Over the 
long term, from Amtrak's first full year of operations in 1972 through 
1999, intercity passenger traffic on the NEC more than doubled--the 
surest indicator of the program's success.
    The partnership continues as Amtrak, the states, the metropolitan 
planning organizations, FRA, and the commuter authorities continue to 
plan additional improvements to fulfill expanding demand for passenger 
service in the new century. Projects in other parts of the country will 
require even more intensive state and local involvement.

California
    Of all the states, California has invested most heavily in 
intercity rail passenger services--over a billion dollars in direct 
state funding of capital improvements alone, for track, signals, 
equipment, and support facilities. The localities, Amtrak, and the 
freight railroads have contributed another $600 million in a remarkable 
partnership. As a result, California has an outstanding frequency and 
quality of intercity rail service in many of its corridors, although 
much remains to be done in that vast and topographically difficult 
state. The result is obvious: passenger-miles more than tripled on 
Amtrak's main line in California's Central Valley, and have scored 
impressive gains elsewhere, since the early 1980s.

Pacific Northwest
    The states of Washington and Oregon have conclusively demonstrated 
that new equipment, higher frequencies, and a winning attitude can 
score impressive gains for rail passenger service even in the absence 
of heavy fixed plant investments. The new Cascades services, making use 
of modern Talgo equipment, have created traffic volumes almost ten 
times those of the early 1980s. These phenomenal gains have occurred 
with state and local contributions totaling $130 million, which 
leveraged additional funds from Amtrak and the freight railroads. The 
success of the Cascades services testifies both to the value of 
partnerships and to the public's hunger for attractive rail passenger 
services--even if major speed increases are slow in coming.

Midwest (Chicago Hub)
    In the Midwest, nine states have joined together to develop a 
comprehensive plan for service centered on the Chicago hub. They call 
it the ``Midwest Regional Rail Initiative.'' Although major service 
improvements have yet to be realized, progress is underway in a number 
of partnerships: positive train control demonstrations in Michigan and 
Illinois; creative grade crossing barrier systems in Illinois, where 
some track reconfigurations and reroutings are in process; and most 
recently, a joint equipment request for proposals by Amtrak, and the 
States of Illinois, Michigan, and Wisconsin. This request involves 13 
trainsets that will provide upgraded service over the Chicago Hub 
network.

Lessons Learned
    What do these success stories teach us that we can apply to a 
potential Atlanta hub system for intercity and commuter rail service? 
Let me sum up the basic principles.

  <bullet> Local commitment. Where there is intense state and local 
        commitment, there will be progress in rail passenger service. 
        We see this most clearly in California, which has made the 
        heaviest investment, but even in states that have committed 
        more modest resources a strong dedication and focused attention 
        to specific, perceptible service improvements can overcome a 
        lack of funds.

  <bullet> Partnership. Time and again we see that it is possible to 
        bring Amtrak and the freight railroads into mutually beneficial 
        agreements. Our state-by-state estimates show that Amtrak and 
        the freight railroads pumped almost a billion dollars into 
        intercity passenger improvements in the 1990s, with the freight 
        carriers contributing almost 40 percent of that amount. While 
        no one can foresee the future ability of either Amtrak or its 
        freight colleagues to replicate that investment in the coming 
        decade, the precedent exists; and we have ongoing programs in 
        Pennsylvania, New York, Virginia, and elsewhere to back up our 
        hopes.

  <bullet> Incremental progress. We would all like to see high-speed 
        rail right away, in its full glory. The fact is, it takes time; 
        the Northeast Corridor, well-funded though it has been, has 
        taken over 35 years from concept to realization. Part of that 
        delay reflects the complexity of the Northeastern rail 
        operations, with their thousands of commuter and hundreds of 
        intercity trains each day, as well as the sheer number of 
        different state and local governments involved. Simpler 
        corridors, with more straightforward operations and fewer 
        actors, can take much less time. The phenomenal success of the 
        Pacific Northwest corridor, still at top speeds of 79 mph, 
        further confirms the lesson that modest improvements can 
        produce major increases in service quality and ridership.

  <bullet> Equipment pays. Often, it is easier to finance and acquire 
        attractive equipment than to make the fixed plant improvements 
        for high-speed service. Equipment can often be privately 
        financed; it is not a sunk cost, but rather has a market value 
        that can be used to secure a loan. It can also be used at a 
        variety of speeds--conventional speeds where necessary, higher 
        speeds when investments and safety considerations permit. Just 
        as Amtrak and the Midwest states are proceeding with equipment 
        in advance of major fixed facility investments, so can other 
        states do so. As long as the equipment meets FRA safety 
        standards, provides the marketability that rail passenger 
        service needs, and (in the case of the Southeast Corridor) is 
        well-suited for through operation over the Northeast Corridor 
        and its high-level platforms, it can be used to good effect.

  <bullet> Detailed planning; freight and commuter needs. Our 
        enthusiasm must always be tempered with the realities of rail 
        transportation today. Specifically, just because the tracks are 
        there, and even empty, does not necessarily make them suitable 
        for passenger service. The proper connections must be in place 
        at the right places; the needs of freight service--so vital to 
        the Nation's economy--must always be protected; and future 
        commuter services must be allowed for. Even our remaining, 
        disused passenger stations are of no benefit if the tracks that 
        lead to them are gone, or if huge skyscrapers are blocking 
        their former approaches. The bottom line is: detailed 
        engineering investigations must be the prerequisite to 
        significant rail passenger investment. I know that you have 
        done, and are doing this in Georgia, but there is always the 
        danger that enthusiasm can outpace realism. So, I advise all 
        advocates of rail passenger improvements, wherever they may be, 
        to get the facts before leaping into visionary projects. This 
        does not mean that we cannot make big plans--just that the big 
        plans must take into account the engineering realities.

Sources of Funds
    Time and again, this testimony has emphasized state, local, Amtrak, 
and freight railroad funds. This emphasis reflects the limited 
availability of direct federal funding for intercity rail passenger 
improvements.
    Some limited programs are available. The FY 2001 Transportation 
appropriation includes $200,000 for planning, earmarked for the 
Charlotte-to-Macon segment of the Southeast Corridor. In recent years 
such planning funds have been scarce, and only available for earmarked 
routes. We also have a total of $5.25 million in grade crossing 
improvement funds, also for high-speed lines, and also completely 
earmarked.
    For larger federal investments, the most promising options right 
now are the Railroad Rehabilitation and Improvement Financing Program 
(RRIF), managed by the FRA, and the Transportation Infrastructure 
Finance and Innovation Act (TIFIA), which is a DOT-wide program. Let me 
summarize for you these two creative financing approaches, both of 
which originated in the Transportation Equity Act for the 21st Century, 
or TEA-21. In addition, there are some other opportunities for 
intercity rail funding under TEA-21 as well as a pending proposal in 
Congress that should be of considerable interest.

RRIF
    The RRIF program provides for direct loans and loan guarantees for 
terms up to 25 years. There is a statutory maximum amount of 
outstanding principal of $3.5 billion. Of this, $1 billion is reserved 
for projects primarily benefitting short line and regional railroads.
    Statutory priority projects are those that:

  <bullet> Enhance safety;

  <bullet> Enhance the environment;

  <bullet> Promote economic development;
  <bullet> Are included in state transportation plans;

  <bullet> Promote U.S. competitiveness; and

  <bullet> Preserve and enhance rail or intermodal service to small 
        communities and rural areas.

    Eligible applicants for RRIF funding include state and local 
governments, government-sponsored authorities and corporations, 
railroads, and joint ventures that include at least one railroad.
    Financing can be used--

  <bullet> To acquire, improve, or rehabilitate intermodal or rail 
        equipment or facilities, including track, track components, 
        bridges, yards, buildings, and shops;

  <bullet> To refinance existing debt incurred for the previous 
        purposes; and

  <bullet> To develop and establish new intermodal or railroad 
        facilities.

    RRIF funding is not restricted to freight, and could be applied to 
passenger railroads.
    The unique feature of the RRIF Program is the payment of a Credit 
Risk Premium in lieu of an appropriation of funds. The Credit Risk 
Premium is a cash payment provided by a non-federal entity. The Credit 
Risk Premium must cover the estimated long-term cost to the federal 
government of a loan or loan guarantee. The amount of Credit Risk 
Premium required is determined by the specifics of the transaction. It 
is based on an applicant's creditworthiness as well as the impact of 
the project on an applicant's financial strength. The pledging of 
collateral will reduce the amount of the Credit Risk Premium since the 
greater the value of the collateral, the higher the recovery in the 
event of default. The credit risk premium must be paid to the FRA 
before funds are disbursed.
    FRA issued final procedures for applying for RRIF financing (49 
C.F.R. Part 260) this past summer.

TIFIA
    The Transportation Infrastructure Finance and Innovation Act 
(TIFIA) is a new program created in Section 1501 of TEA-21 that 
provides federal assistance in the form of credit (e.g., direct loans, 
loan guarantees, and standby lines of credit) to help fund major 
transportation investments of critical national importance. The TIFIA 
credit program is designed to fill market gaps and to leverage 
substantial private co-investment by providing supplemental and 
subordinate capital.
    The TIFIA credit program consists of three different types of 
financial assistance designed to address projects' varying requirements 
throughout their life cycles:

  <bullet> Secured loans are direct federal loans to project sponsors. 
        These loans provide combined construction and permanent 
        financing of capital costs. The interest rate is ``not less 
        than'' the yield on marketable Treasury securities of similar 
        maturity on the date of execution of the loan agreement.

  <bullet> Loan guarantees ensure a federal government full-faith-and-
        credit guarantee to institutional investors making a loan to a 
        project.

  <bullet> Standby lines of credit represent secondary sources of 
        funding in the form of contingent federal loans that may be 
        drawn upon to supplement project resources if needed during the 
        first ten years of project operations.

    Funds to implement the project may be provided by a corporation, a 
joint venture, a partnership, or a governmental entity. The amount of 
federal credit assistance may not exceed 33 percent of total project 
costs.
    Projects eligible for federal financial assistance through regular 
surface transportation programs (Title 23 or chapter 53 of Title 49) 
are eligible for the TIFIA program. In addition, regionally or 
nationally significant projects such as intercity passenger rail 
facilities and vehicles (including Amtrak and magnetic levitation 
systems), publicly owned intermodal freight facilities on the National 
Highway System, border crossing infrastructure, and other large 
infrastructure projects such as the Penn Station Redevelopment project 
in New York are examples which could fit under the TIFIA umbrella.
    To qualify, projects must cost at least $100 million or at least 50 
percent of a state's annual apportionment of federal-aid funds, 
whichever is less. Also, the project must be supported in whole or in 
part from user fees or other non-federal dedicated funding sources 
(e.g., tolls) and must be included in the state's transportation plan. 
For Intelligent Transportation System projects, the minimum cost must 
be $30 million; these might include a regional train control project or 
a significant advanced train propulsion control system covering a major 
metropolitan area.
    Qualified projects meeting the above threshold eligibility would 
then be evaluated by the Secretary based on the extent to which they 
generate economic benefits, leverage private capital, and promote 
innovative technologies. The senior debt for each project must possess 
an investment grade rating (BBB minus or higher) in order to receive 
federal credit assistance under TIFIA.
    Under TEA-21, a total of $530 million of contract authority was 
provided to pay the subsidy cost of supporting federal credit under 
TIFIA (to cover anticipated losses). The maximum amount of credit that 
may be provided is capped at $10.6 billion over the 6-year 
authorization period.

Other TEA-21 Sources
    Although TEA-21 did not provide the expanded flexibility for states 
to apply highway trust fund moneys to intercity rail passenger 
investments that the Clinton/Gore Administration sought, there are some 
limited opportunities for states to do so. For example, feasibility 
studies of a broad range of alternative transportation investments 
(including rail investments) in a corridor might be included in FHWA-
funded planning activities. Also, the FHWA's grade crossing safety 
funds may be applied to high-speed rail corridors as long as FHWA 
mandates are followed. Similarly, the Congestion Mitigation and Air 
Quality (CMAQ) Improvement Program can be (and has been) used for rail 
passenger and freight purposes in nonattainment and maintenance areas 
under TEA-21. All these applications of funds to rail passenger 
purposes of course require the concurrence of the FHWA division 
offices. Finally, as Secretary Slater has discussed in his testimony, 
federal funding is available from the Federal Transit Administration 
for commuter rail improvements. Improvements benefitting commuter rail 
also frequently provide a benefit for intercity rail passenger services 
operating over the same rail lines.

Pending Proposal in Congress
    Congress is currently considering legislation, the ``High-Speed 
Rail Investment Act,'' that would finance Amtrak/State partnerships to 
build high-speed rail systems. This legislation has the endorsement of 
the Clinton/Gore Administration. The proposal's basics, furnished by 
the bill's sponsors, are as follows (note that the legislation is 
changing as Congress continues to refine it).

  <bullet> Amtrak is authorized to sell $10 billion in high-speed rail 
        bonds between FY 2001 and FY 2010.

  <bullet> This money may be invested in designated high-speed rail 
        corridors to upgrade existing routes to high-speed rail, 
        construct new dedicated high-speed rail tracks, and to purchase 
        high-speed rail equipment.

  <bullet> No more than $3 billion of the bonds will support any one 
        corridor.

  <bullet> Up to ten percent of the funds would be available to improve 
        non-high-speed rail service nationwide.

  <bullet> States are required to match at least 20 percent of Amtrak's 
        share. These funds would be managed by an independent trustee 
        and used to redeem the bonds. The repayment of bond principal 
        by the trust would be assured by a separate non-federal 
        guaranteed investment contract.

  <bullet> State funds contributed in excess of the 20 percent minimum 
        may go directly towards funding projects. The state matching 
        requirement ensures that Amtrak will work in partnership with 
        the states and invest these funds in only the most economically 
        viable projects.

  <bullet> A preference will be given to projects with a state share 
        greater than 20 percent.

  <bullet> Provisions are included which would prevent the use of both 
        bond money and Highway Trust Funds.

  <bullet> Bondholders receive tax credits in lieu of interest 
        payments, which decreases federal revenues by $762 million over 
        five years and $3.3 billion over ten years.

    The states have already spent a significant amount to get started--
about $1.5 billion in the last decade-mostly on incremental 
improvements, and they plan to spend another $1.3 billion in the next 5 
years, even without recognizing the full effects of the proposed High-
Speed Rail Investment Act. Thus, improved intercity rail passenger 
service will expand somewhat in any case, but the High-Speed Rail 
Investment Act would make a dramatic difference.

Future Vision
    Incremental high-speed rail systems are likely to emerge in a 
number of corridors in this decade. Construction will probably begin on 
a new high-speed rail or maglev system between major cities somewhere 
in this country, probably on the West or East Coast. All these systems 
will demonstrate growing synergy with commuter rail, transit, and motor 
vehicle transportation, thus fulfilling Secretary Slater's vision of a 
seamless transportation network.
    Beyond that, I envision a constant improvement in the quality and 
consistency of Amtrak's service on all its routes, as well as an 
expansion of intercity rail passenger service to new markets (like 
Atlanta--Birmingham--Dallas/Fort Worth). To achieve these improvements, 
we need to apply the lessons learned from our recent work on developing 
improved passenger rail service. We need to combine a local commitment 
in partnership with cooperation from freight railroads and federal 
support. We need to take advantage of opportunities to improve track 
and equipment gradually, as our resources permit, so that improved 
service and ridership generates support for further improvements in the 
future. And we need to make sure that our enhancements improve service 
quality for all rail users-intercity passenger, commuter and freight. 
The demographics of the United States are changing with unprecedented 
growth occurring in regions like Atlanta and the State of Georgia. The 
rail system of the future needs to reflect the residential, commercial, 
and travel patterns of the future, not those of the past. That's why I 
expect great things to happen in Georgia and the Southeast as 
population increases, congestion poses challenges, and opportunities 
for improved rail service converge to make this region a world-class 
hub for intermodal transportation. Thank you.

    Senator Cleland. Thank you very much.
    [Applause.]
    Senator Cleland. When you partner with a state, is the 
federal match percentage predetermined or is that flexible or 
does it depend on what type of program the state wants and 
therefore they can buy a Ford or a Cadillac or what--tell us 
about that partnership and the matching funds.
    Ms. Molitoris. Well, I can just mention a success story and 
that would be the Alameda corridor. I recall at the beginning 
of the Clinton-Gore administration, the people from that area 
came in and they had a concept of how much money they wanted, 
and it was a lot, and we knew we could not afford it. So what 
we did was help them create a model that worked for everybody. 
In other words, they started off, I think, with a goal of 
something like $800 million that they thought they needed from 
the federal government. I think at the end of the day, it was 
around $400 million, but we had helped them bring partners 
together. The private freight railroads did a wonderful job, 
the people of the community did a wonderful job. We were able 
to find different places to find funding and so we really 
created a financial plan. That has been one of the hallmarks of 
the Secretary's leadership is this innovative financing where 
you try to match it. Because really the truth is, Senator, 
every corridor and every region is a little bit different, 
different kinds of freight needs, different kinds of right-of-
way issues--curvy, hills, flat. And so the challenges are 
different. But we feel, with the experience we have had, we can 
help you create a successful plan. We get some of your 
financial institutions and private sector people who have done 
it there, they can help too.
    Senator Cleland. Thank you. That's Alameda, California?
    Ms. Molitoris. Yes, Alameda corridor.
    Senator Cleland. Thank you.
    Mr. George Warrington, thank you very much for being here 
today.

          STATEMENT OF GEORGE WARRINGTON, PRESIDENT, 
            NATIONAL RAILROAD PASSENGER CORPORATION

    Mr. Warrington. It really is an honor for me to be here 
today, Senator. It is also great to get out of Washington every 
once in awhile.
    Senator Cleland. Yes, sir.
    Mr. Warrington. I would like to begin by thanking you, 
Senator Cleland, and Governor Barnes, Mayor Campbell, Secretary 
Slater and Jolene, Administrator Molitoris, and others here 
today for all of your consistent and very strong support for 
Amtrak.
    Your advocacy really has been instrumental, in particular 
over the past year or two, in building support for the critical 
High-Speed Rail Investment Act and I just want everyone to know 
that we at Amtrak deeply appreciate all your efforts and 
consistent leadership and support on this vital question, 
because in the end, this is really all about money and do we 
have the will and the ability to deliver the kind of investment 
that can really make a difference and build a system across 
this country that we can all be proud of, including right here 
in Georgia and in Atlanta.
    I also want to share a little bit of our vision about 
Georgia and Atlanta. Atlanta clearly lies at the heart of our 
own vision for high-speed service along the entire Atlantic 
coast. As the region's leading business and transportation 
center, Atlanta really is poised to become as important a rail 
passenger hub as Washington, D.C. and New York today are on the 
Northeast Corridor. Atlanta is the key to the ability of the 
southeast high-speed rail corridor to successfully connect with 
our very successful Northeast Corridor to the Gulf coast and 
Texas, providing fast, reliable service to Birmingham, 
Greenville, Charlotte as well as Macon, Jacksonville, and 
Florida's future high-speed rail network, which is a clear 
vision as well.
    Our vision is a string of pearls, the major business 
centers of the southeast tied together with an integrated fleet 
of 110-mile-an-hour tilting trains that provide business as 
well as discretionary and leisure travelers with productive, 
comfortable, attractive, and competitive service, a service we 
can all really be proud of in this country and in this economy.
    The challenge that Georgia, Amtrak, and all of our freight 
railroad partners face is two-fold, and we need to be frank and 
we need to be honest about this. We need to upgrade the 
region's rail lines to accommodate both the significant 
increase in high-speed rail service planned by Georgia and the 
projected growth, which is equally important, in regional rail 
freight service as well--very important to local economies and 
to important shippers which Secretary Slater mentioned earlier 
today. We need to do it together and as Jolene said, this 
really is about honest partnership.
    High-speed rail has already proven to be an economic engine 
for development throughout the entire Northeast Corridor. 
Indeed, for many of the cities Amtrak serves in the northeast, 
the focus for commercial development at this point is new 
hotels, convention centers, offices, retail centers entirely, 
almost exclusively, around developing train stations. And in 
fact, a launch of our Acela Service in the northeast has 
promoted and stimulated significant additional both public and 
private investment as engines in communities between Boston and 
Washington. That is because the road system is already at 
capacity, cannot deliver more people to urban centers and only 
trains, when invested in incrementally and wisely, can bring 
the additional workers and customers to our cities across 
America.
    But of course high-speed is not just--and what this hearing 
is about--is not just the northeast, it is about urban centers 
all across America, including the southeast. And Amtrak can and 
will help--I commit to you, Amtrak can and will help this 
entire region make the most of those precious rail resources 
which exist here today.
    We are ready to initiate an association with the State 
Department of Transportation and the Georgia Passenger Rail 
Authority to plan a study for a new Atlanta-Macon-Jesup-
Jacksonville service, and we are also working with Georgia on 
the Atlanta capacity study and planning for the new very 
important multi-modal passenger station in downtown Atlanta, a 
very important facility, both substantively and symbolically to 
our vision about building Atlanta as a very important hub in 
America.
    Thanks to you, Senator Cleland, and other members of the 
Georgia delegation, the new fiscal year 2001 transportation 
appropriations bill provided $200,000 to Jolene and Secretary 
Slater in order to extend the Boston-Washington-Richmond-
Charlotte transportation plan, very important planning work, to 
Atlanta and to Macon. Frankly what has happened is that has 
jump-started and led to a remarkable planning process, bringing 
together, probably for the first time, all of the interests--
freight railroads, the federal and state governments, and 
Amtrak--to really jointly develop, as Jolene said, in 
partnership, real partnership, a high-speed rail plan that 
could effectively accommodate both passenger as well as freight 
growth.
    We look forward to working with South Carolina, Georgia, 
CSX, Norfolk Southern, and the Federal Railroad Administration 
on the important study, and I want to personally thank you, 
Senator Cleland, for your efforts to secure the funding to 
jump-start this initiative.
    I should also mention we are right now literally at this 
moment in the process of procuring new 110-mile-an-hour tilting 
non-electric high-speed trains for use on corridors throughout 
the midwest, in particular Chicago, Milwaukee, Minneapolis, 
Chicago-Detroit, and Chicago-St.Louis. These trains, the costs 
of which are being shared with our midwest state partners, 
would be ideal for use in Georgia and the southeast high-speed 
rail corridor and we will very much look forward to working 
with the state on both an equipment strategy over the next 
several years as well as an equipment plan.
    Mr. Chairman, this country has reached a crossroads with 
respect to transportation policy--and this really is about 
national transportation policy. As the saying goes, it is time 
to put up or shut up. We can either go on pretending that the 
chaos that is engulfing our highways and airports will somehow 
magically disappear--it is a phenomenon that used to occur only 
in the northeast, it is now occurring in metropolitan centers 
all across this country--or we can resolve to actually do 
something about it. And as I often say, this is all about 
money. And doing something means investing in passenger rail, 
not at the expense of highways or aviation, but to simply 
provide the development of the third leg of the stool to 
provide better choices and better alternatives for Americans.
    There are two reasons why solving this crisis requires a 
substantial investment in rail. First, there is the cost issue. 
As we are increasingly finding out--you referenced earlier 
today in our press conference--the incremental cost of building 
new highways and airports are climbing and the costs of adding 
to our rail capacity are comparatively attractive, in a 
relative sense. And the throughput, the bang you get for that 
buck, the capacity that you build and the ability to move 
people with that incremental dollar at this point in the 
evolution of the transportation, points in the direction of a 
wise rail investment.
    Second, there is the balance issue. Our national 
transportation system might be compared to a three-legged 
stool. For the stool to be balanced, all three legs--highways, 
airports and rail--have to be strong and they have to be 
sturdy. If you remove the rail leg and try to balance the 
transportation stool on highways and airports alone, the entire 
structure, as we are beginning to see, begins to wobble and 
totter and eventually collapse altogether. That is what we are 
facing today, a transportation system that is wobbling and 
tottering and in danger of collapse on many metropolitan 
regions all across this country.
    We are investing more--as Secretary Slater said earlier 
today, more than $40 billion a year--in our highway network and 
I support that investment. It is important and it has done a 
terrific job for this nation and its economy. We are investing 
$14 billion a year, almost $15 billion a year, in federal money 
in our aviation system annually and we support that investment 
as well. Yet we invested about $500 million in America's 22,000 
mile national passenger railroad system last year and to get 
it, we had to fight like dogs for table scraps. This shockingly 
low level of investment not only places the future of passenger 
rail in doubt, it jeopardizes the viability of the entire 
transportation system, given its evolution over the last 
several decades.
    To restore the balance to this system--and this really is 
about money and it is about balance--the country has to stand 
up and make a commitment to invest in rail and the Europeans 
did it decades ago. We are frankly tired of folks coming back 
from Europe and say why can we not do it here? We have 
demonstrated in the past several weeks that we are able to do 
it on the Northeast Corridor with an outstanding Acela service 
and we want to be able to transport that opportunity all across 
this land. It can be extraordinarily powerful not only for 
Amtrak's bottom line, but for the American economy and 
communities all across this nation.
    As you well know, Congress still has before it this year, 
thanks to your support as a co-sponsor, as you mentioned 
earlier, the High-Speed Rail Investment Act, which would 
provide $10 billion in bonding authority for Amtrak to partner, 
genuinely partner with states and freight railroads in 
developing high-speed corridors like the Northeast Corridor 
across this country, including right here in Georgia. I 
appreciate your leadership, Senator Cleland, in pushing this 
vital legislation so hard, and I want to reiterate to you in 
the strongest terms possible the need to see this legislation, 
for all of us, enacted this year.
    In conclusion, I really want to thank you, Senator Cleland, 
as well as Governor Barnes, Secretary Slater, Administrator 
Molitoris, for your strong, consistent, and unambiguous support 
for Amtrak and in particular for the High-Speed Rail Investment 
Act. You have all been leaders of this effort and I am 
convinced that the future of high-speed rail in the southeast 
depends upon successful implementation here in Georgia. It is 
why we are so proud to be a partner with you and with the State 
of Georgia in a common effort to improve the quality of life 
and the economy for the people of Georgia and this region. And 
in the end, it is all about money. And I want to thank you for 
your leadership and for pushing this vital agenda, which is 
really long overdue in this country.
    Thanks so much, Senator.
    [Applause.]
    [The prepared statement of Mr. Warrington follows:]

          Prepared Statement of George Warrington, President, 
                National Railroad Passenger Corporation

    Mr. Chairman.
    It's an honor for me to testify here today. I'd like to begin by 
thanking Senator Cleland, Governor Barnes, Secretary Slater and others 
here today for their strong and effective support of Amtrak and 
passenger rail. Their advocacy has been instrumental in building 
support for the High-Speed Rail Investment Act, and I deeply appreciate 
their efforts.
    I also want to congratulate the Members of this Subcommittee for 
stepping outside the beltway and holding this hearing in what I think 
of as the ``real'' America. Georgia epitomizes the potential role that 
high-speed rail and commuter rail can play in addressing regional 
transportation gridlock. Few cities in America face the huge 
transportation challenges that confront Atlanta every day: the busiest 
airport in the world; serious air quality concerns; gridlock on the 
highways; and the need to enhance access to the city in order to 
maintain economic growth.
    Atlanta lies at the heart of Amtrak's vision for high-speed rail 
along the Atlantic Coast. As the region's leading business and 
transportation center, Atlanta is bound to become as important a rail 
passenger hub as Washington and New York are today. Atlanta is the key 
to the ability of the Southeast High-Speed Rail Corridor to 
successfully connect the vibrant Northeast Corridor to the Gulf Coast 
and Texas--providing fast, reliable service to Birmingham, Greenville, 
and Charlotte, as well as to Macon, Jacksonville, and Florida's future 
high-speed rail network. Our vision is a string of pearls--the major 
business centers of the southeast--tied together with an integrated 
fleet of 110 mph tilting trains that provide business and discretionary 
travelers with productive, comfortable, stress-free rides.
    The challenge that Georgia, Amtrak, and our freight railroad 
partners all face is twofold. We need to upgrade the region's rail 
lines to accommodate both the significant increase in high-speed and 
commuter rail planned by Georgia, and the projected growth in regional 
freight rail service. We must work together toward our common goal of 
making the most of a remarkable resource--the old rail line--to relieve 
regional congestion and enhance the regional economy.
    High-speed rail has already proven to be an economic engine for 
development throughout the Northeast Corridor. Indeed, for many of the 
cities Amtrak serves in the Northeast, the focus for commercial 
development--new hotels, convention centers, offices, retail centers--
is around the train station. That's because the road system is already 
at capacity and simply can't deliver more people to the city center. 
Only trains can bring in the additional workers and customers.
    Examples of commercial development in the Northeast Corridor 
include:

  <bullet> Boston--where nearly $2 billion in commercial development is 
        planned around South Station due to high-speed rail and MBTA 
        commuter service;

  <bullet> Providence--where a major shopping mall was built adjacent 
        to the station and a convention center was also built near the 
        station;

  <bullet> New London--where Pfizer world headquarters and major city 
        redevelopment projects are adjacent to the station;

  <bullet> And Philadelphia, Wilmington and Baltimore, all of which 
        have major hotels, conference centers and office buildings 
        built adjacent to their train stations, in order to benefit 
        from the commercial opportunities.

    But, of course, high-speed rail isn't just for the Northeast. 
Nowhere are the potential benefits of high-speed rail greater than here 
in the Southeast. Amtrak can and will help this entire region make the 
most of its rail resources. We are ready to initiate, in association 
with the State Department of Transportation and the Georgia Passenger 
Rail Authority, the planned study for a new Atlanta-Macon-Jesup-
Jacksonville service. We are also working with Georgia on the Atlanta 
capacity study and planning for the new multi-modal passenger station 
in Atlanta.
    As you know, thanks to Senator Cleland and other members of the 
Georgia delegation, in the new FY 2001 transportation appropriations 
bill, $200,000 was provided to the Federal Railroad Administration to 
extend the Boston-Washington-Richmond-Charlotte transportation plan 
south to Atlanta and Macon. This has led to a remarkable planning 
process, bringing together the freight railroads, the federal and state 
governments, and Amtrak to jointly develop a high-speed rail plan that 
can accommodate passenger and freight rail growth. We look forward to 
working with South Carolina, Georgia, CSX, Norfolk Southern and the FRA 
on this important study, and we thank Senator Cleland for his efforts 
to secure this funding.
    Amtrak has considerable experience in partnering with states to 
develop high-speed rail. We are working closely with Virginia and North 
Carolina on the upgrade of the Charlotte-Richmond-Washington segment of 
the Southeast High-Speed Rail Corridor and expect to jointly fund the 
acquisition of new trains that will be used on the Southeast Corridor. 
In Pennsylvania and New York, we have partnered with the states on 
funding the upgrades necessary to implement new high-speed service. And 
in Washington State, Amtrak, the freight railroad and the state have 
partnered to upgrade the rail line and procure new trains to 
significantly reduce travel time and increase ridership.
    Amtrak is also experienced in partnering with communities to help 
address local needs and concerns. For example, we established TEMPO--
the Texas Eagle Marketing Performance Organization--as a partnership 
between Amtrak and local communities served by our Texas Eagle train. 
It involves local businesses, chambers of commerce, sports and 
entertainment franchises and venues, travel agencies, mayors and every 
other segment of the business community. TEMPO is responsible for many 
successful marketing efforts to support the Texas Eagle, and also plays 
a role in promoting station improvements along the route. The Crescent 
Coalition is another example of a successful partnership between Amtrak 
and local communities--this one focused around Amtrak's Crescent 
service. These efforts are being duplicated around the country and we 
would promote such a partnership down here.
    I should also mention to the distinguished Members of this 
Committee that Amtrak is in the process of procuring new 110 mph 
tilting non-electric high-speed trains for use on corridors in the 
Midwest. These trains, the costs of which are being shared with our 
Midwest state partners, would be ideal for use in Georgia and the 
Southeast High-Speed Rail Corridor. We very much look forward to 
working with the state on an equipment strategy and plan.
    Mr. Chairman with all due respect, this country has reached a 
crossroads with respect to transportation policy. As the saying goes, 
it's time to ``put up or shut up.'' We can either go on pretending that 
the chaos that's engulfing our highways and airports will somehow 
magically disappear, or we can resolve to do something about it. And 
doing something means investing in passenger rail.
    There are two reasons why solving America's transportation crisis 
requires a substantial investment in passenger rail. First, there's the 
cost issue. As I'm sure everyone on your Committee knows, the costs of 
building new highways and airports are climbing way up; the costs of 
adding to our rail capacity are falling way down. As the marginal cost 
of highway and airport construction rises, while the marginal cost of 
increasing our passenger rail capacity falls, rail becomes cost-
effective relative to other transportation modes. In plain English, you 
get more ``bang for your buck'' by investing your transportation dollar 
in passenger rail than by investing that same dollar in new highway or 
airport construction.
    Second, there's the balance issue. Our national transportation 
system might be compared to a three-legged stool. For the stool to be 
balanced, all three legs--highways, airports and rail--must be strong 
and sturdy. But if you remove the rail leg and try to balance the 
transportation stool on highways and airports alone, the whole 
structure will wobble and totter and--eventually--collapse altogether.
    That's what we're facing today--a transportation system that's 
wobbling and tottering and in danger of total collapse. We're investing 
more than $40 billion a year in our highways annually--and I support 
that investment. We're investing more than $14 billion in our aviation 
system annually--and I support that investment as well. Yet, we only 
invested about $500 million last year in our passenger rail system. 
This shockingly low level of investment not only places the future of 
passenger rail in doubt; it jeopardizes the viability of our entire 
transportation system. Because, to repeat, ours needs to be a balanced 
system. If you remove passenger rail from the balance, the other parts 
of the system just don't work right. But if you've got a strong 
railroad system that takes some of the pressure off of our highways and 
airports, then you enable them to fulfill their potential, as well.
    To restore balance to our national transportation system, and to 
turn the corner into the new century with a modern passenger rail 
system made up of high-speed corridors linked together by longer 
distance train service, this country must stand up and make a 
commitment to invest in rail. None of the terrific projects here in the 
Southeast Corridor that I have mentioned today will be realized unless 
the federal government puts rail on the list with highways and airports 
for capital investment funding. As you well know, Congress still has 
before it this year an opportunity to enact the High-Speed Rail 
Investment Act, which would provide $10 billion in bond authority for 
Amtrak to partner with states in developing high-speed corridors. I 
appreciate your leadership, Senator Cleland, in pushing this critical 
legislation so hard, and I want to reiterate to you, in the strongest 
possible terms, the need to see this legislation enacted this year.
    In conclusion, I would just like to once again thank you, Senator 
Cleland, as well as Governor Barnes, Secretary Slater, and the many 
others here for their strong, unambiguous support for Amtrak and high-
speed rail. You have all been leaders in this effort and I am convinced 
that the future of high-speed rail in the Southeast depends on its 
successful implementation here in Georgia. That is why Amtrak is so 
very proud to be a partner with Georgia in a common effort to improve 
the quality of life for the people of Georgia and the entire Southeast.

    Senator Cleland. Thank you very much for those kind words.
    May I just ask you to share with all of us how important it 
is that you have a source or sources for extra bonding 
capacity, in this case, or it might be other resources, to 
begin to invest in the kind of expansion that you would want. I 
am a co-sponsor of the High-Speed Rail Investment Act, but it 
focuses on bonding capacity. Are you limited in your ability to 
invest in new trains, new equipment, new road beds and 
maintenance and so forth? Are you limited in that right now?
    Mr. Warrington. Yes. We do not have a dedicated capital 
source of funds, unlike all of the other competing modes--
commuter rail, maritime, aviation, and highway. Amtrak needs to 
beg, scrape and scrap on an annual basis for what ends up being 
a significantly lesser amount of money than is necessary to 
build a system across this country that we can be proud of. And 
the High-Speed Rail Investment Act enables us to jump-start and 
begin to initiate the kind of service that we have recently 
launched on the Northeast Corridor all across this country, in 
partnership. As a practical matter, what is occurring is states 
like Georgia, states like California, states all across this 
land, North Carolina, Virginia are taking a leadership role 
around figuring out methods to raise resources in order to 
partner with Amtrak and what Amtrak desperately needs is the 
kind of flexibility and dedicated commitment of capital to be 
able to really partner with states and partner with freight 
railroads to make this vision a reality. We have never had it 
in 30 years and the time is right right now to enable us to use 
the tools of today's existing railroad system across this 
country to build an attractive and competitive and powerful 
railroad. It is about capital and it is about money. The Act 
gives us the opportunity to make that happen and make it happen 
relatively quickly across this land.
    Senator Cleland. Count on me for continued support. Whether 
we get it this year or not, I am there for the duration.
    I might say, is it your understanding that given some 
access to capital and the ability to invest in the 
infrastructure that you want, that you could begin to find, 
shall we say, willing partners, both in the public sector and 
the private sector that would facilitate you coming south in 
the next few years and fleshing out this system that you have 
before us?
    Mr. Warrington. Absolutely. The most successful operation 
that Amtrak runs today is the Northeast Corridor and the single 
most important vision that we have and we have had for a number 
of years is moving that Northeast Corridor as far south as 
rapidly as possible to top into the development that has been 
occurring in this region, the southeast, over the past 10 to 20 
years. As a practical matter, from a business point of view, it 
is very important to Amtrak to connect to reliably and 
frequently and with faster trains to the entire southeast 
market, to Atlanta and ultimately to Jacksonville.
    We very much want to be there, it is a tremendous 
opportunity and it is simply a matter of money and commitment 
and will to make it happen.
    Senator Cleland. Well, again, count on me for doing my part 
for the money and the will to make that happen.
    Mr. Secretary, I noticed that you recently designated 
extensions of the Gulf Coast and Southeast High-Speed Rail 
Corridors which do impact Georgians directly. Specially, you 
announced a new route between Birmingham and Atlanta that links 
the Gulf Coast and Southeast Corridors and another route from 
Atlanta and Macon to Savannah and Jacksonville.
    In terms of federal funding, what do you think these 
designations mean to our state here?
    Secretary Slater. Well, first of all, Senator, let me say 
that I think that clearly it takes the money, but I think to 
start there and not acknowledge the leadership that George and 
his team have provided over the last few years would be missing 
a point here, because it is going to take that same kind of 
leadership to carry us forward.
    And if I may, in 1997, Amtrak could not even get along with 
its workers. Service was declining and there were not the 
resources, and we did not have the commitment from the 
Congress. At that point, the leadership stepped forward, we put 
our heads together, we resolved the issues with the labor 
unions. George and his team have moved forward and they have 
not only met the challenge of the moment of providing quality 
service with the system we currently have, but with the 
credibility that they have built up through the partnerships 
with others, they have been able to come forward with this kind 
of vision that is out there now to be seized upon, to be 
enjoyed. That brings us to the point that you just mentioned.
    There are some funding opportunities that are out there. 
Clearly, where you have situations where commuter service is 
there and it is sharing the same track with the high-speed rail 
corridors, then that investment could actually bring about 
improvements to that physical stock. We have a number of new 
start projects that we are looking at for this region, commuter 
projects, and we want to be supportive of your efforts and the 
efforts of this region in bringing those into being.
    Let me just say that the FTA new start initiative involves 
the Macon-Griffin up to Atlanta stretch, and then from Atlanta 
over to Athens. So it includes all of that. Right now, our new 
start resources are stretched, but we believe that, because of 
the tremendous benefits that we have seen through investments 
in transit, that any administration that comes after this one 
will continue to be a wonderful partner with you and with the 
citizens of the region to invest in this initiative.
    Also, as has been said, we have some flexibility within 
current law where you can actually flex some highway dollars to 
transit projects that especially help you to deal with air 
quality issues and the like through the CMAQ program, and 
through the surface transportation program. And so we would 
work with you to put together those kinds of financing packages 
as well.
    Administrator Molitoris also mentioned the RRIF program and 
we also have a TIFIA program that deal with using federal 
dollars to actually leverage private sector dollars. Those 
kinds of funds could be made available as well.
    Senator Cleland. Leverage private sector dollars?
    Secretary Slater. Exactly. And with the fact that you have 
brought together not only the governmental representatives but 
also representatives from CSX and Norfolk Southern, you have 
the kind of leadership team that is developing here to tap all 
of those sources. I also know that the business community is 
represented through representatives of the Chamber as well, 
from the region, and that kind of presence is also quite 
important and significant.
    Ms. Molitoris. Senator.
    Senator Cleland. Yes, ma'am.
    Ms. Molitoris. May I just add one point? I always agree 
with everything the Secretary says----
    [Laughter.]
    Ms. Molitoris.--but I do want to just raise one cautionary 
note. In any transition, there are a lot of new people and we 
have spent the last almost 8 years now developing these 
relationships and doing an education process, and as George 
says, and I think appropriately, scrapping and scraping to make 
sure that the right kinds of funds, to the best of our ability, 
are there. I would say to you that the kind of relationships we 
have had, for example, with Catherine Ross and Stan and Mather 
and the Governor. I would hope that you would become that 
facilitator during the transition so that there is no time 
lost, so that there is a consistency and a connection through 
this period of transition.
    Senator Cleland. We would hope this hearing would serve 
that purpose.
    We thank the panel. Unlike Congressional hearings in 
Washington, I would like to take the opportunity of the chair 
and just open it up for a question or two from the audience 
here. We have great participation from the audience.
    Yes, sir. Would you like to stand up and give us your name 
and maybe an agency that you represent?
    Voice. I am here as a member of AARP. I would like to ask 
Mr. Warrington if the Postal Service is indicating that it is a 
willing partner in any of your routes like going from Atlanta 
to Fort Worth through Meridian as you are proposing to do.
    Mr. Warrington. Yes, we have a very successful business 
commercial relationship with the United States Postal Service 
and that relationship has grown substantially over the last 
several years and we focus internally around premium quality 
service for our express customers like the Postal Service, as 
much as for our passenger services. That business has grown to 
be about $120 million or $130 million. We have a vision around 
increasing both the volume of business and our gross and net 
revenue yield from that business over the next several years. 
And in fact, it is one of the contributors to the performance 
and the rationale for extending or presence from Meridian to 
Fort Worth-Dallas, and much of that traffic rests between 
Atlanta and Dallas-Fort Worth.
    Secretary Slater. Mr. Chairman, before we leave, I might 
want to say a little about maglev as well.
    Senator Cleland. Please.
    Secretary Slater. We are currently reviewing seven projects 
in that regard and you have got a very promising project that 
is in the mix that would provide maglev, at least the beginning 
of that process, I think about 32 miles or so of the 100 or so 
mile stretch from Atlanta to Chattanooga. The staff has readied 
for me their assessment analysis of the seven projects and we 
hope to soon make a decision about how we proceed. But I 
mention that because again, as we talk about Atlanta, we are 
talking about the future of transportation. You have really 
positioned yourself well, not only when it comes to highway and 
transit transportation investments but also now with the 
potential for high-speed rail, and then with the potential to 
move from that to maglev service in this region as well.
    So we want to be supportive of you and again, I reiterate 
my commitment to put together a DOT team that can begin right 
now working with you, Senator, and your colleagues. You have 
got representatives from--Senator Hollings and also from 
Chairman McCain. And this Committee through your collective 
leadership has done such a tremendous job. We would look 
forward to working with you and the others to continue this 
process, not only for Atlanta and Georgia, but for the benefit 
of the nation as a whole.
    Senator Cleland. Thank you very much, Mr. Secretary, for 
taking that positive initiative.
    Let me just say for those who are not familiar with the 
technology, my understanding--and when you talk about the 
future, my understanding is that commuter rail runs at an 
average speed of about 79 miles an hour, something like that, 
the passenger service that Mr. Warrington runs in the Northeast 
Corridor with the new technology is somewhere around 110, 120 
miles an hour; is that correct? Magnetic levitation trains run 
at some 220 miles an hour. It is something that we learned from 
the Japanese, the bullet train. But I was just in Japan and 
they are testing out a new magnetic levitation technology that 
goes up to 330 miles an hour. So we just want everyone to know 
that we are not talking about just the old Nancy Hanks, bless 
her heart. But we are talking about the future of Georgia.
    I have one more question. Ms. Molitoris, I worked to get 
funding in the transportation bill this year to extend the 
Southeast High-Speed Rail Corridor study from Charlotte to 
Atlanta and Macon. We did include some $200,000 to the Federal 
Railroad Administration for this purpose. What kinds of 
information can we expect from this study and, in addition, I 
would like to know if there is a 50/50 match requirement for 
this earmark. The study will benefit, of course, Georgia, South 
Carolina and North Carolina. Am I correct that Georgia will be 
required to contribute only a part of the match?
    Ms. Molitoris. Senator, and thank you very much for your 
initiative on getting that money because I think as George has 
pointed out, it has really been the jump-start point for 
getting people together.
    The kinds of information that will come out of the study 
will be an analysis of the existing rail operations, a 
projection of future rail operations, the kind of 
infrastructure necessary to meet all of these future needs and 
then the priorities for investment and what the costs and the 
benefits will be. Considering that all the people have to be at 
the table and there is a lot to look at, that will probably be 
about a year to get that done.
    In terms of the match, what we have seen work successfully 
is that the parties in question get together and have this 
discussion because there are different kinds of benefits. 
Sometimes the discussion is a little lively but in the end, it 
has worked out in every other coalition like the midwest and so 
on. So I am sure that you can certainly facilitate that and we 
would be supportive in whatever way we could.
    Senator Cleland. Glad to help.
    Well, ladies and gentlemen, let us thank our panelists 
today for this enlightening discussion. Thank you all.
    [Applause.]
    Senator Cleland. We will take about a 5-minute break while 
the second panel convenes. The second panel will include 
Governor Barnes and Mayor Campbell and Eddie Elder, Chairman of 
the Barrow County Commissioners, and Jack Ellis, Mayor of 
Macon. I would like to also ask Cecil Pruett, the Mayor of the 
City of Canton, to join our panelists here.
    Five minute break. Thank you.
    [Recess.]
    Senator Cleland. If it is okay with everyone, we will now 
begin with our second series of panelists here. We have three 
mayors and a wonderful chairman of a county commission. We will 
just start off with Mayor Jack Ellis. Mr. Ellis, we are glad to 
have you and thank you for joining us today.

               STATEMENT OF HON. JACK C. ELLIS, 
                 MAYOR, CITY OF MACON, GEORGIA

    Mayor Ellis. Thank you very much Senator and good 
afternoon. Let me again, as the other panelists, thank you for 
your leadership and what you have meant to high-speed rail and 
transportation throughout the state of Georgia. And of course, 
to the assembled people here, I am Jack Ellis, Mayor of the 
City of Macon and of course a proud member of Amtrak's Mayors 
Advisory Council.
    Macon, if you do not know, is located in central Georgia 
approximately 80 miles south of Atlanta on Interstate Highway 
75, and indeed is the last stop on the Southeast High-Speed 
Rail Corridor. So as you can see, I have more than a passing 
interest in commuter rail and rail passenger services.
    I appreciate the opportunity to present testimony this 
afternoon in support of high-speed rail in Georgia and 
generally between the City of Atlanta and the City of Macon in 
particular. There are many reasons I believe a high-speed rail 
system would be good for our state. First, every day, hundreds 
of Maconites and residents of middle Georgia and the Macon 
region, make the approximately 180 mile drive round trip to 
Atlanta to take advantage of the many employment opportunities 
in the metro Atlanta area. Many other residents in the middle 
Georgia region make the same trip at least during the week to 
conduct business in the Atlanta area or to enjoy Atlanta's 
culture, entertainment venues, see doctors, attend classes, or 
engage in other activities.
    While not in the same volume yet, residents of the metro 
Atlanta area are increasingly traveling to Macon and the middle 
Georgia region for some of the same reasons. For example, until 
recently I had an employee of our city government who commuted 
from the Atlanta metro area to Macon on a daily basis. And my 
own wife commuted from Macon to Atlanta to work for the last 7 
years.
    So high-speed rail would provide a more efficient, reliable 
and safer mode of transportation than is currently available to 
those who must travel between these two centers of our state. 
And it would do so in a manner that would be more 
environmentally friendly.
    Second, I support high-speed rail because it would help 
make us, as a nation, less dependent on foreign oil supplies. 
We all know the story of the high price of gasoline in the last 
few months and what it has meant to the family budget.
    Therefore, I encourage Congress to pass Senate Bill 1900, 
which of course I am singing to the choir when I talk to you 
about that, Senator, and that is the $10 billion in bonds over 
the next 10 years, to enable development of the high-speed rail 
corridor.
    Third, high-speed rail will improve Georgia's ability to 
compete in the global marketplace. Through connecting the 
state's metropolitan regions, high-speed rail would allow 
Georgia to be viewed as one seamless market by companies 
desiring to do business in our state.
    High-speed rail connecting Atlanta and Macon also has the 
potential to serve another important strategic national 
objective and that is relieving the congestion at the nation's 
busiest airport.
    In the City of Macon, we are in the process of updating our 
airport master plan at this time, thanks to you and the grant 
that we were able to get from the FAA to make this possible, 
Senator. We have undertaken an approximately $3.2 million 
renovation of the airport terminal at this time. And of course, 
the passage and funding of AIR 21, which you worked so hard on, 
made this possible. As we expand this airport, of course, we 
will look for some other opportunities.
    High-speed rail between Atlanta and Macon would enable the 
state to optimize the use of an underutilized existing resource 
to help solve the air traffic congestion at Hartsfield, which 
is of a local, regional, and national interest.
    Fourth, and extremely important to us in Macon and middle 
Georgia, high-speed rail supports Governor Barnes' one Georgia 
initiative. High-speed rail has the potential to make Governor 
Barnes' vision of making economic opportunity accessible to all 
of Georgia a reality.
    Macon is a shopping, medical, banking, educational, and 
cultural center of the middle Georgia region. In addition, 
Macon is the second largest rail hub in the southeast and we 
are the last stop on the proposed Amtrak Southeast High-Speed 
Rail Corridor, as mentioned earlier.
    Senator Macon is blessed to have the only Union Station in 
the state of Georgia. This station has been recommended as the 
location for passenger rail service and to be designated as a 
multi-modal facility for Macon and middle Georgia. This 
recommendation, of course, was made by local leaders in Macon, 
including myself.
    The City of Macon is currently negotiating with the Georgia 
Power Company to acquire this historic and most significant 
asset to help facilitate the return of passenger rail service 
to Macon and middle Georgia. We have applied for state and 
federal funding to assist in the acquisition and restoration of 
our Union Station.
    Macon was once a major passenger rail hub. With your 
assistance and leadership, it will once again take its rightful 
place in the future of passenger rail service.
    Mr. Chairman, I lived in Europe for 3 years, both in France 
and Germany, and I have seen first-hand the efficiency and 
value of passenger rail service. On a recent trip to England, I 
was amazed to discover how many workers in London live over an 
hour away via commuter passenger rail.
    So Mr. Chairman, the same thing is possible in Georgia and 
throughout our country with a tremendous positive impact on our 
economy, environment and quality of life, if only we would make 
the necessary investment to make it happen now. In the City of 
Macon, we have a strong public/private partnership and rail is 
at the centerpiece of our entire downtown revitalization, which 
you have heard so much about, NewTown Macon and of course, the 
City of Macon and the County of Bibb working together to make 
this happen, and with rail being the centerpiece, it will 
happen; and with your support, we know it will happen.
    Thank you very much for this opportunity.
    [Applause.]
    [The prepared statement of Hon. Ellis follows:]

  Prepared Statement Hon. Jack C. Ellis, Mayor, City of Macon, Georgia

    Senator Cleland, Governor Barnes, Secretary Slater and my fellow 
mayors, I am C. Jack Ellis, Mayor of the City of Macon, Ga. I 
appreciate the opportunity to present testimony this afternoon in 
support of high-speed rail in Georgia in general and between the City 
of Atlanta and the City of Macon, in particular.

Needs and Opportunities
    There are many reasons that I believe that a high-speed rail system 
would be good for our state. First, everyday hundreds of Maconites and 
residents of the Middle Georgia region make the approximate 180-mile 
drive round trip to Atlanta to take advantage of the many employment 
opportunities in the metro Atlanta area. Many other residents in the 
middle Georgia region make the same trip at least once during the week 
to conduct business in the Atlanta area; enjoy Atlanta's cultural, 
entertainment venues; see doctors; attend classes or engage in other 
activities. While not in the same volume, yet, residents of the metro 
Atlanta area are increasingly travelling to Macon and the middle 
Georgia region for some of the same reasons.
    High-speed rail would provide a more efficient, reliable and safer 
mode of transportation than is currently available to those who must 
travel between these two centers of our state; and it would do so in a 
manner that would be more environmental friendly. In addition, high-
speed rail would provide increased mobility for students, senior 
citizens, disabled persons and other non-driving populations in these 
areas of our state. The result would be improved mobility and access to 
the Atlanta for thousands of the state's citizens who currently spend 
countless hours in their automobiles to get to their destination, which 
causes traffic congestion and degrades our air quality.
    Second, I support high-speed rail because it will help make us as a 
nation less dependent on foreign oil supplies. The increased gasoline 
prices several months ago because of supply cut backs by OPEC was a 
rude awakening to us of our vulnerability in this regard and made us 
aware once again (as we were made aware in the 1970's) of the adverse 
impact that such dependency can have on us economically. For example, 
the average price of a gallon of regular gas before the price hikes was 
approximately $0.90.
    Currently, it is approximately $1.40. For the Macon or middle 
Georgia resident that must drive between Macon and Atlanta, as well as 
other Americans who lack alternative forms of effective and efficient 
transportation, this represents a reduction in their standard of living 
that many can least afford. An Editorial in the Monday's edition of the 
Atlanta Constitution makes the point that as the cost of transportation 
increases, less is left to spend on ``health care, food, entertainment 
and personal care products and services--quality of life 
expenditures.''
    Third, high-speed rail would improve Georgia's ability to compete 
in the global market place. Through connecting the state's metropolitan 
regions, high-speed rail would allow Georgia to be viewed as one 
seamless market by companies desiring to do business in the state. 
After flying into Hartsfield Atlanta International Airport, businesses 
would have efficient and effective transportation via high-speed rail 
(a mode of Transportation that is quite common throughout Europe) to 
the other commercial centers of the state.
    High-speed rail connecting Atlanta and Macon also has the potential 
to serve another important strategic national objective--relieving the 
congestion at the nation's busiest airports. In the state of Georgia, 
we are blessed with the busiest airport in the World--the Hartsfield 
Atlanta International Airport. However, like many airports around the 
country, in order for Hartsfield to continue to accommodate growth in 
passenger air transportation, it must expand. Such expansion is 
expensive and it can be disruptive to surrounding neighborhoods and 
communities. In addition, the expansion will take several years to 
complete. For example, Atlanta is about to undertake the construction 
of the Fifth Runway project to relieve some of the congestion 
Hartsfield is experiencing. However, it will be five to six years 
before this project is completed and the relief can be provided. The 
congestion cries out for a solution today. I believe that the City of 
Macon can be a major part of the solution to Hartsfield's growing pains 
in the short-term. In the City of Macon, we are in the process updating 
our airport master plan and undertaking an approximately two million 
renovation of our airport terminal building. Currently, we have 
sufficient runway capacity to accommodate smaller jet traffic and we 
will be seeking funding to expand the capacity of our runways to handle 
larger jets. High-speed rail between Atlanta and Macon would enable the 
state to optimize the use of an underutilized existing resource to help 
solve the air traffic congestion at Hartsfield, which is of local, 
regional and national interest.
    Fourth, and extremely important to us in the Macon and middle 
Georgia region, high-speed rail supports Governor Barnes' One Georgia 
Initiative. High-speed rail has the potential to make Governor Barnes 
vision of making economic opportunity accessible to all of Georgia a 
reality. Because of its central location in our state, I believe that 
the City of Macon is uniquely and strategically positioned to be the 
conduit through which economic growth and development can be generated 
and made accessible to the far reaches of the middle and southern part 
of our state. Macon is the shopping, medical, banking, educational and 
cultural center of the Middle Georgia region. In addition, Macon is the 
second largest rail hub in the Southeast; and we are the last stop on 
the proposed Southeast Corridor.
    As part of the One Georgia Initiative, the state has already begun 
to build a foundation for this growth and development in this region 
the state. These include the Secretary of State Office building, the 
Georgia Sports and Music halls of fame, the State's Agricultural Center 
in Perry, Georgia. We in Macon and Middle Georgia appreciate these 
developments and we applaud our State officials for their commitment to 
the One Georgia Initiative. High-speed rail will ensure that the 
returns on these investments by the State are maximized; and it will 
make more palpable the transfer of additional state offices and 
institutions to the Macon and the Middle Georgia region. As future 
decisions are made regarding the location of government offices and 
institutions, we encourage the State, as well as the Federal 
government, to give favorable consideration to Macon and the Middle 
Georgia region.

Challenges
    As with all opportunities, there are challenges that must be 
overcome for the opportunities to be realized. Some of the challenges 
that I believe must be overcome to make high-speed rail in Georgia a 
reality are as follows:

  <bullet> The system must be designed and built in a manner that makes 
        it an attractive alternative to the automobile commute. In this 
        regard, the system of high-speed rail must have the following 
        elements:

        --Competitive fares
        --Travel time that is comparable to the commute via automobile
        --Connection to a seamless inter-modal system on each end of 
        the Atlanta-Macon high-speed corridor. To the extent feasible, 
        the objective should be to have a one-fare system so that a 
        passenger may go from one mode of transportation to another 
        without the inconvenience of multiple ticketing.

  <bullet> Consummating an agreement with Norfolk Southern to share use 
        of their existing rail.

  <bullet> Upgrading rail crossings in a timely manner.
Funding Concerns
    As regards funding, I would ask that the following concerns be 
considered:

  <bullet> In the City of Macon/Bibb County and the State of Georgia 
        are working together to create a waterfront in the Downtown 
        Macon that will include the Ocmulgee Heritage Greenway (a seven 
        mile riverwalk) and a multi-million mixed used development. The 
        Norfolk Southern H line that runs between downtown and the 
        water's edge blocks effective access to the Ocmulgee River's 
        southern riverfront and poses as a barrier to this development. 
        The waterfront development is seen as an opportunity to create 
        significant economic catalysts in the revitalization of the 
        historical, cultural and economic Center City of the region.

    Fortunately, an unprecedented window of opportunity has opened. FTA 
and G-DOT propose to redevelop and expand the I-16/I-75 interchange and 
widen I-16. At the same time, the Program Management Team is 
considering this part of the Norfolk Southern `H' Line as an 
entranceway for inter-city passenger rail from Atlanta to Macon. The 
late Frank Pinkston requested that G-DOT prepare an alternative concept 
of the I-75/I-16 expansion that would include the relocation of these 
two miles of railroad. Senator Cleland has been appraised of the 
initiative and even the late Senator Coverdale expressed support for 
the relocation in one of his last letters written to us. Chairman 
Justice and I have requested of Harry Dixon his support of a relocation 
feasibility study. Roy Fickling has requested that GRPA consult with G-
DOT about the mutual benefits of relocation, and recently Tommy 
Olmstead, our new Chairman of the County Commission, has pledged his 
support and will use his influence for support from the State. 
Moreover, very importantly, Norfolk Southern has described itself as 
open to the possibility.
    G-DOT through Moreland-Altobelli did suggest a futuristic concept 
that would reroute the rail 26 miles around Macon but would be many 
years in development with significant expense. The two-mile relocation 
across the river was never in G-DOT's scope of work or budget; 
therefore, feasibility and expense were not quantified. Hence, our 
request of the State for the study. The feasibility and cost estimates 
will include both rail relocation and road modifications to accommodate 
the rail. At Senator Cleland's recent ``Smart Growth Task Force,'' 
Governor Barnes ably described the importance of ``synthesis'' in 
transportation and land use planning. The Macon community, through 
NewTown Macon, has asked the Governor to consider a detailed study by 
Moreland-Altobelli to estimate the feasibility and cost to relocate two 
miles of Norfolk Southern `H' line railroad that blocks effective 
access to the Ocmulgee River's southern riverfront in the heart of our 
city. This proposal requests a detailed study of the relocation of the 
rail line to the opposite or north side of the river, integrating the 
new rail line with G-DOT and FTA's planned expansion of the I-16 
interstate. By quantifying the cost, the study will provide guidance to 
evaluate the cost/benefits of the relocation and effectively weigh the 
financing alternatives. This smart growth strategy will allow those 
given the responsibilities of improving both transportation and land 
use in our city, county, region, state and nation the opportunity to 
pool resources and expertise to insure wise development along Macon and 
Middle Georgia's birth canal, the Ocmulgee River.
    If this two miles of rail were relocated, the result would do 
nothing less than transform our city forever. The expense and 
complications should be seen from the perspective of Middle Georgians 
today and the many future generations whose quality of life and 
economic opportunities will be improved. The relocation of the active 
rail allows a ``rails to trails'' for the Ocmulgee Heritage Greenway, 
our 7 mile river-walk, spurs economic development for our public-
private partnerships' $25 Million mixed-use Riverside Development, and 
improves access to one of Georgia's greatest natural resources, the 
Ocmulgee River. In addition, there are other benefits of relocation, 
such as improved freight and possible passenger rail efficiency.

  <bullet> Extend the high-speed line from Macon the Macon Regional 
        Airport. The extension will support initiatives underway to 
        attract a major air carrier to the airport and enhance its 
        viability as a reliever airport for Hartsfield Atlanta 
        International Airport. Initially, the extension was included, 
        but then deleted. The extension should be re-instated.

  <bullet> Rethink the use of the gas tax exclusively for road 
        improvement. It is time we reconsidered earmarking the gas tax 
        for a particular mode of transportation and used it to support 
        a comprehensive transportation system that would include mass 
        transportation, high-speed rail, as well as, road improvements. 
        I believe that this is justified on the basis that high-speed 
        rail will generate positive externalities that will accrue to 
        all of our citizens. I further believe that this new 
        perspective would be consistent with G-DOT commitment to ``take 
        a fresh look at how to best to meet the transportation needs of 
        the State of Georgia for the new millennium by updating the 
        Statewide Transportation Plan.''

  <bullet> Provide additional funding for mass transportation at the 
        federal level. In the City of Macon, we provide an annual 
        subsidy to our public bus system of approximately $1.2 million. 
        However, this is insufficient to enable our bus system to 
        expand into the areas of our county where many of the jobs are. 
        Public transportation to these areas is of vital importance if 
        we are to implement successfully the Work Force Investment 
        Initiative and Welfare-to Work.

    Again, thank you for allowing me to speak today, and share with you 
the growing excitement Middle Georgians are developing as the 
opportunities of passenger rail and the related transportation oriented 
development are described. The Macon and Middle Georgia community plan 
to work together with federal, state, and regional partners, both 
public and private, to promote and enhance economic opportunities 
through passenger and freight rail, mitigate environmental emissions by 
implementing a viable and more efficient means of transportation, and 
relieve automobile congestion and actually enhance our road systems' 
viability by supporting alternative forms of transportation.
    I look forward to your consideration and guidance in these matters 
to which the continued growth and development of our state and region 
are intricately bound.

                                 ______
                                 
                         Supplemental Material

Macon Rail Station Location Study
Views of Downtown Macon Development Opportunities (To be provided at 
        hearing)

                   Macon Rail Station Location Study

Criteria Discussion and Site Recommendation Draft
    The Site Selection Committee was selected by the Commission on 
Macon to Atlanta Rail (COMAR) to study a recommended site to the 
Program Management Team. The committee met over a period of months as 
an ad-hoc group appointed by COMAR without standing except that it 
represented a cross section of the Macon community. The Program 
Management Team and their Rail Consultants have stated that community 
input will be a strong determinant in the site selection process.
    The deliberations followed the criteria below which included 
questions of both feasibility and usefulness of the different sites. 1-
7 were suggested by Parsons Brinkerhoff (see work sheet) and others 
were added by the committee from research from other communities with 
passenger rail. There were certain assumptions made to expedite the 
process e.g. the use of the `Old Central of Georgia' Line, Macon's 
Station would be a hub vs. an end line, and the understanding that even 
though the committee included many development professionals and 
engineers, the discussions lacked certain technical expertise due to 
the Rail Consultants having just begun their work. The mission of the 
Site Selection Committee was to compare different sites, develop 
consensus on a particular site and make a recommendation to COMAR.

        1. High Quality Rail Connections: The fact that the Macon 
        station would serve as a hub limited discussion to the existing 
        Terminal Station site and a site ten blocks south due to the 
        various tines converging from several directions (see attached 
        existing rail map). The Terminal Station having served 100 
        arrivals a day at its peak was easily the most feasible even 
        though some track that had been either abandoned or taken up 
        would need redevelopment.
        2. Room for Multiple Train Storage: Similar to the discussion 
        above the Terminal Station provides historic multiple train 
        storage with opportunity in the Industrial Rail Park room for a 
        Passenger Rail Maintenance Yard in addition to the state's 
        largest freight yard in Brosnan Yards. An argument could be 
        made for the site ten blocks south due to its proximity to 
        Terminal Station.
        3. Parking: For discussion an assumption was made that 
        adequate parking could be provided at all sites including 
        Terminal Station in the many acres of available `brown-field' 
        redevelopment area behind the Station and parking opportunities 
        associated with a proposed multi-modal station near the 
        Terminal.
        4. Access to both Automobile and Other Transportation Modes: 
        If automobiles were the only consideration obviously 1-75 and 
        1-475 is most desirable with site at the end of the Proposed 
        Fall Line also well positioned. Terminal Station and the 
        Airport are adequate with the extension of Fall Line Freeway 
        enhancing the Terminal's position. Considering access to other 
        forms of transportation Terminal Station is the only qualifier 
        with existing bus, Greyhound, and Taxi's; and proposed downtown 
        shuttle and Multi-modal station as part of Terminal Station 
        (see Macon-Bibb County Bus Routes attached).
        5. Ownership of Entire Site and Environmental Issues: For 
        discussion sake, assumptions were made that all sites were 
        feasible.
        6. Support Services far Layovers: The Terminal Station and 
        Downtown Macon has significant advantages with this criteria.
        7. Existing Train Station: Available Again in discussions of 
        advantages and disadvantages of the different sites sometimes 
        the most obvious is overlooked. The Terminal Station is a 
        historical and cultural icon in downtown Macon; the Station is 
        one of the most architecturally significant buildings in the 
        region. It is also the last of the great `Union stations' in 
        the State of Georgia. Other sites would require the building a 
        station:
        8. Existing Statewide Rail Linkages: Similar to the first 
        criteria of connections, this criteria speaks to the need of 
        existing rail that converges in a particular location which 
        again eliminates all sites except the Terminal Station with the 
        possible exception often blocks south which would need some 
        redevelopment (see Existing Rail Lines).
        9. Transportation Oriented Development and Supports Economy: 
        This is a question of synergism. Which location for a 
        transportation hub would have the greatest impact on existing 
        and future commercial and residential development? 
        Transportation Oriented Development (TOD) is a buzzword in 
        economic development with many examples and viable models 
        demonstrated around the country. Even though all locations 
        would benefit from TOO, the most significant development and 
        redevelopment would be in and around the Terminal Station and 
        its support of existing and future development in downtown 
        Macon. It has been said that Terminal Station's revival as a 
        rail hub will have the single greatest impact on the 
        revitalization of downtown Macon, the center of the Middle 
        Georgia Region.
        10. Attraction of Federal Support: This question considers 
        opportunity for the Macon community to leverage Federal dollars 
        for redevelopment. A case could be made for all locations but 
        the Rail Station Foundation describes significant Federal 
        support when involving historic train stations, multi-modal 
        transportation facilities, and urban revitalization. The 
        Terminal Station is the only location that would meet this 
        criteria with the possible exception of an airport location.
        11. Historical and Cultural Significance: This criteria deals 
        with part of the `place making' opportunities or as sometimes 
        described `creating places worthy of our affection'. Terminal 
        Station obviously is superior with this criteria. Return of 
        passenger rail to this site will help resurrect Georgians love 
        affair with passenger rail while restoring a significant part 
        of Georgia's history and culture. Middle Georgian memories 
        alone is a powerful marketing tool in the decision to return 
        passenger rail to the Terminal Station.
        12. Supports `Livable Community' and/or `Smart Growth' 
        Concepts: Literature on the subject provides support for all 
        locations in degrees of priority. The important components of 
        `reuse of existing facilities and infrastructure', support of 
        mixed-use development, `density by design' by supporting urban 
        centers, and the use of multi-modal and alternative 
        transportation (other than car) gave the Terminal Station the 
        strongest position among the locations.
        13. Benefits the Greatest Number of People: This criteria was 
        used to discuss locations that would have the greatest appeal 
        to the broadest market of rider-ship. Each location had 
        advantages to certain areas of Middle Georgians and to certain 
        demographic and economic strata but the central location of the 
        Terminal Station with the multi-modal opportunities provides 
        the strongest support using this criteria.
        14. High Commercial Density and/or Job Clusters: This criteria 
        was used to distinguish locations that provided existing 
        employment base in close proximity to the station location. 
        Passenger rail's strongest support has come from travel 
        associated with work and employment related travel. The 
        downtown Terminal Station location was the obvious choice using 
        this criteria if concentration of employment is used.
        15. Marketable Location: All the locations enjoyed marketing 
        ploys that could be used in the promotion of particular 
        attributes. But the historic Terminal Station as has been seen 
        in other redeveloped stations that included a mix of retail, 
        urban entertainment, access to other urban venues of hotels, 
        shopping, museums, office, residential, medical complexes, 
        university etc. eclipsed all other possible location 
        alternatives.
        16. Land Use and Zoning Prerequisites: For these discussions 
        it was assumed all locations would meet all land use and zoning 
        criteria.
        17. Maintain Green-space: This speaks to the redevelopment of 
        obsolete buildings and infrastructure that would avoid new 
        construction in green-fields. Depending on the particulars all 
        sites might qualify with the downtown sites definitely meeting 
        this criteria.
        18. Hotel and Motel Rooms in Vicinity: The Terminal Station 
        would have the best position on this criteria with more rooms 
        planned in the future.
        19. Physical Constraints: This criteria might be summarized by 
        several of the preceding criteria. All sites depending on the 
        particulars would meet this criteria. Concerns of fast trains 
        would in an urban setting could be mitigated at all sites with 
        proper development
        20. Established Communications: This would refer to access to 
        as simple a communication link as telephone to wide band and 
        fiber optic connections. It was agreed that these were 
        available at the Terminal Station and possibly the airport 
        while other locations would need development.

    The Site Selection Committee having met several times over a period 
of months in fall of 1999 and Winter of 2000 came to a unanimous 
decision to recommend to COMAR the Terminal Station based on their 
deliberations. On March 9, 2000 after hearing the report from the 
Committee moved unanimously to recommend to the Program Management Team 
at an upcoming `Rail Summit' the use of the historic Terminal Station 
as Middle Georgia `s `Union Station'. C/eve Cunningham, Chair of COMAR 
Site Selection Committee

    Senator Cleland: Thank you very much, Mr. Mayor.
    As a career military man yourself, I was going to ask you 
had you not seen and visited in other countries in western 
Europe, particularly Germany. I was just in Japan and in these 
countries. Is it not your understanding that rail--high-speed 
rail, high-speed rail corridors link major cities and help grow 
the entire economy of these nations? For instance, in Japan, I 
was just there and high-speed rail links not only Tokyo, but 
other major cities in that country. Is it not your experience 
in visiting these other countries that is true?
    Mayor Ellis. No question, Mr. Chairman. I was stationed at 
NATO headquarters in the early 1960's and at that time NATO 
headquarters was located in Paris and I had the occasion, of 
course, to travel to Germany quite often. In order to get from 
Paris to Frankfurt, I mean it was more efficient to take the 
train than to drive a car or even to take a plane at that time. 
So if we are going to compete with these countries, and indeed 
we are in competition with them this being a global economy, I 
think it behooves us to compete in every aspect, and of course 
rail transportation is a big part of their economy.
    Senator Cleland. Yes, it is. Well, thank you very much for 
that testimony.
    We are delighted to have Governor Roy Barnes with us today, 
a leader in transportation issues, an acknowledged leader in 
our nation in smart growth and the ability of our state to 
respond to the challenges of the 21st century, particularly in 
terms of transportation.
    And without further ado, it is my pleasure to recognize the 
Governor of Georgia, Governor Roy Barnes.
    [Applause.]

                 STATEMENT OF HON. ROY BARNES, 
                   GOVERNOR, STATE OF GEORGIA

    Governor Barnes. First, I would like to thank Senator 
Cleland for bringing this hearing to Georgia. It is always 
difficult for us sometimes to appear in other places and your 
effort in doing this and bringing this hearing today here to 
Georgia is something that I want to personally thank you for. 
It is important that you are here, because our state faces 
several major environmental challenges as we attempt to improve 
transportation.
    And so I commend Senator Cleland on his hard work on behalf 
of Georgia's citizens to earmark the funds that we will need to 
bring our transportation program to fruition. Without your help 
and the help of many of our Congressional delegation, including 
our late, great friend, Paul Coverdell, we would not be as far 
along as we are. And I want to thank Secretary Slater and all 
of the others for their help and assistance in extending high-
speed routes in our state.
    It is our hope that the southeast will be able to link 
together through transportation initiatives and that Georgia, 
as it always has historically, will play a significant part in 
that system.
    Right now, however, we need your help in freeing up the 
financial resources that have been appropriated so that we can 
begin our system of transportation needs, particularly in 
commuter and intercity passenger rail program moving forward.
    When I became Governor in early 1999, the EPA directed that 
federal dollars could not be spent on our roads or highways. We 
all remember this, it was a crisis that we confronted. We 
arrived--I arrived and our administration arrived at this state 
of affairs because the local governments in the region had not 
been successful in working together and coming up with a common 
transportation plan. In the 18-county metropolitan region that 
really is Atlanta, there are over 80 separate governmental 
jurisdictions. Each one has its own needs and its own views and 
it is completely confident, each of them is completely 
confident in its own course of action and somewhat suspicious 
sometimes of anyone else and their agenda.
    The Atlanta Regional Commission, one of the first 
metropolitan planning organizations in the country, is in 
charge of helping these metro counties come up with a regional 
transportation plan. Unfortunately, it had no power to carry 
out its mission. That is what brought about, with the Atlanta 
Chamber of Commerce and their MATI initiative, the creation of 
the Georgia Regional Transportation Authority. Primarily, we 
designed GRTA to implement the ARC's plan to give it the power 
it must have to actually make a difference.
    Now the lack of cooperation that we saw among the local 
government was also apparent among the departments of state 
government, especially in dealing with our passenger rail 
program. As a result, we formed what is called the Program 
Management Team, PMT--you know, everything in government has to 
have an acronym--to coordinate and direct our passenger rail 
effort. Sonny Deriso of Albany, who is also vice chairman of 
GRTA, heads up this team.
    From all of that, what have we learned? Well, we have 
learned that commuter rail is a part of solving our 
transportation needs. It is not the sole answer, we have to 
make sure that it is part of a recognized effort, a coordinated 
recognized effort, and as the Mayor, as Jack has pointed out, 
the connection also of the mid part of our state and the rest 
of our state in one transportation system is imperative.
    I think that we have made tremendous progress in our state 
agencies of trying to work together and our federal partners, 
particularly under Secretary Slater, has been very supportive 
of us, as you have, in assisting us in this regard.
    I guess I will leave you with this thought. This is a new 
effort on a statewide basis, it is a new effort in trying to 
blend together an integrated transportation plan, one that not 
only has high-speed rail as part of it, as the Northeast 
Corridor has, and provides a commuting basis for those who live 
and work apart, but also we know that we have to get--we have 
to change some attitudes, we have to have folks that, for 
example, have access to expanded bus service and HOV high-speed 
bus lanes so that the routes are connected and we are not too 
far away from home.
    So as we encourage our state agencies and require our state 
agencies to work together, I want to tell you that this is 
broader than just the federal government, it is broader than 
the state government, it is broader than just local 
governments. It is a collaboration among us all because what we 
are dealing with is not only improving transportation, 
improving mobility, but also--and probably most importantly--
improving air quality, which helps us to establish a quality of 
life that allows us to continue to grow.
    There is much more that we need to accomplish if we want to 
see passenger rail operating in Georgia. But the efforts and 
the hearing such as you have sponsored today I believe will put 
us far down the road.
    Thank you, Mr. Chairman.
    [Applause.]
    [The prepared statement of Governor Barnes follows:]

   Prepared Statement of Hon. Roy Barnes, Governor, State of Georgia

    I would like to thank Senator Cleland for bringing this hearing to 
Georgia. It is important that you are here, because our state faces 
several major environmental challenges as we attempt to improve 
transportation.
    I commend Senator Cleland on his hard work on behalf of Georgia 
citizens to earmark the funds we will need to bring our transportation 
program to fruition. Without his help, and the help of many of our 
Congressional delegation--including our late, great friend, Senator 
Paul Coverdell--we would not be as far along as we are. I also want to 
thank Secretary Slater and Administrator Molitoris for their help and 
assistance in extending the high-speed routes in our state.
    It is our hope that the Southeast will be able to link together 
through transportation initiatives and that Georgia will play a 
significant part in that system.
    But right now we need your help in freeing up the financial 
resources that have been appropriated so that we can get our commuter 
and intercity passenger rail program moving forward.
    In 1998, at the beginning of my administration, the EPA directed 
that federal dollars could not be spent on our roads or highways. We 
arrived at this state of affairs because the local governments in the 
region would not work with each other. In the 18-county metropolitan 
region that is ``Atlanta,'' there are over 80 separate governmental 
jurisdictions. Each one is completely confident in its own course of 
action, and somewhat suspicious of anyone else.
    The Atlanta Regional Commission, one of the first Metropolitan 
Planning Organizations in the country, is in charge of helping these 
metro counties come up with a regional transportation plan. 
Unfortunately, it had no power to carry out its mission. We needed an 
agency that had the power to create and enforce a regional air quality 
plan.
    At the time, The Atlanta Chamber of Commerce had just completed a 
months-long study of the region's transportation challenges, and from 
their report came the Georgia Regional Transportation Authority. 
Primarily, we designed GRTA to implement the ARC's plan, to give it the 
power it must have to actually make a difference.
    The lack of cooperation that we saw among the local governments was 
also apparent among the departments of state government especially in 
dealing with our passenger rail program. As a result, we formed the 
Program Management Team (PMT) to coordinate and direct our passenger 
rail effort. Sonny Deriso of Albany, who is vice-chairman of the GRTA 
board, heads up this team.
    I encourage our state agencies, federal partners and elected 
officials to continue to support our efforts in Georgia to improve 
transportation and most importantly air quality. There is much more 
that we need to accomplish if we intend to see passenger rail operating 
in Georgia.

    Senator Cleland. Thank you very much, Governor.
    One of the lessons we learned from the first panel is that 
we are all in this boat together, we all have to grab an oar 
and pull. There is no one particular agency, no one particular 
horse we ride, no one particular silver bullet that is going to 
solve all of this, that we are in a situation where we have to 
work together. Is that your understanding, that this level of 
partnership, public, private, federal, state, all of us pulling 
together is the key?
    Governor Barnes. It is, it is a partnership and a 
collaboration, but it is also an education effort. One of the 
things that amazes me is the misconception by even editorial 
writers, and I cannot believe that they ever make mistakes----
    [Laughter.]
    Governor Barnes.--but the misconception that there is 
really one form of shared transportation instead of mass 
transportation, as I like to call it, that is going to be 
dominant. This is a mixture of all. And it makes it very 
difficult for us new in this effort--and that is what we are, 
we are new. The only mass transit we had in the Atlanta region 
or anywhere in the state was MARTA, of course, and some 
isolated bus systems. But the idea is there are going to be 
choices for people and you have to make those choices.
    If they make the choices to continue to say I do not want 
any shared transportation, they pay a price for that--time, 
congestion, and otherwise. And that the choices that are made, 
when you allow people to make free choices, they will choose 
the time.
    One of the things that--and I do not mean to dominate this, 
but one of the things that was most interesting to me in the 
last few months is that CNN did a program--I do not know how 
many of you saw this, but CNN did a program in which it talked 
about sprawl and travel time and congestion and all these other 
things, and it took a family out of Woodstock, Georgia, and 
interviewed this family. The mother and father, both who 
commuted and worked, said well, you know, we used to leave at 7 
in the morning to get to work. Now we are leaving at 6:30 and 
if traffic gets any worse, we will be leaving at 6. And of 
course, the same story in the afternoon returning. And then the 
reporter said well why do you do this? And they said well, we 
do it because of the quality of life for our children. We want 
our children to have a better quality of life.
    Then they interviewed the kids separately from the parents.
    [Laughter.]
    Governor Barnes. You know what the kids said? We hate it. 
They get home, they are grumpy, they go right to bed, they 
never spend any time with us and we hate it.
    And so I thought to myself, that was a very interesting 
observation from kids, that every hour we spend tied up in 
traffic, sitting on the Interstate, is less time that we have 
to spend with a child or spend in community efforts or the 
building of neighborhoods that are necessary to make children 
grow as a whole person. And that is kind of the message that 
you have to get across.
    Now what if that same couple could leave promptly and knew 
that they could make the same commute, because of shared 
transportation of whatever source it is, in an hour instead of 
2 hours. Would they do it? Yes, eventually. And so this idea 
that people will not move toward it, I think is short-sighted.
    We, as policy makers, all of us as policy makers, we have 
to make sure that it is competitive. What they will not do is 
sit in a train or mass transit or a bus if it takes longer to 
get there, it is not more efficient and more competitive than 
to make them have an advantage of spending more time with the 
family.
    So when we design these plans, that is the reason it has to 
be a menu of choices so that we allow a good competition that 
gets them there faster and saves time that they can spend with 
family.
    I think there is a growing realization--just a month or so 
ago, they interviewed some folks that were riding the Cobb 
County Transit, the bus system. And of course the ridership in 
mass transit is remarkably--I mean shared transit, whether it 
be bus or whatever--and one of things they found, the complaint 
was there are not enough routes, there is not enough time, we 
need more. That is what I think we cannot be short-sighted 
about. We have to make sure that we give top service, which is 
competitive time, if we are to be able to make these choices. 
Because I will tell you, we cannot as policy makers, we cannot 
force these choices on folks.
    Just today, as Mayor Ellis was talking, just to follow up 
on what he said, today we had the annual economic predictions 
that we have every year from the Terry School of Business, 
where we bring in a national leader to give the macro look and 
then Dean Benson always gives the state. One of the things he 
talked about was a slowing economy, but he says there are 
certain cities in Georgia that are going to boom because of 
this continuing growth. One of them was Macon and he said just 
like Atlanta, it is at the cross section of transportation and 
transportation is what started Atlanta and is still its 
lifeblood. Macon is the same way, particularly if the Fall Line 
Freeway ever gets finished and the rail system connects Atlanta 
and Macon.
    So this is an economic issue, it is a quality of life 
issue, it is a health issue. But you have to provide those 
multitude of choices. And to be quite frank with you, we cannot 
do it alone--that is the state. I mean, our financial 
resources--listen, last year, we gained 30,000 children in this 
school system statewide. I have got to build classrooms, hire 
teachers, and everything else. Yes, we are dedicating more and 
more resources to transportation. I am going to go to the 
General Assembly next year with a plan to try to advance fund 
some of that so that we can start some of these, but I hate to 
say this, this is one place that the federal government can 
help us.
    [Laughter.]
    Governor Barnes. There are certain things that the federal 
government cannot do to help us. This is not one of them. This 
is one that the federal government can help us. And I 
appreciate your effort in assisting us because you understand 
that very well.
    Thank you.
    [Applause.]
    Senator Cleland. Governor, significant investment is going 
to be needed to meet the capacity needs of the freight 
railroads, improving signaling, increasing grade crossing 
protection to allow speeds of up to 110 miles an hour that are 
recommended to attract passengers and create benefits for the 
state. Are there currently any dedicated state sources for 
funding commuter and intercity rail service?
    Governor Barnes. We do not have a dedicated source, but we 
are committed to providing an overall sharing of the sources. 
Now let me add one other thing, since you are on that subject. 
One of the things that we have great difficulty with and all 
the professionals in this room can tell you, is negotiating 
with the freights in order to make competitive any rail that 
goes.
    And you do have to do all of those things, you have to 
improve the grade crossings, you have to do all of those things 
that are necessary.
    So yes, we do not have a dedicated source, but we do have 
some funding schemes and some funding plans that we think would 
be sufficient, with some federal help, to be able to meet our 
match and to meet our goals in doing so.
    Senator Cleland. Well, thank you. I will say that one of 
the missions that I see for myself on the Commerce Committee 
and the Subcommittee on Surface Transportation is to be that 
point person to go after federal funding to fulfill the 
transportation plan that you have here in Georgia--rail, roads, 
commuter rail, everything that you have on the table. That is 
one of the reasons I am holding the hearing here, is for us to 
garner--me and my staff to garner some insight here as to how 
we might do that job better, how we might be a better advocate 
for what our state wants and our cities want.
    I might say that up there in Woodstock and near Woodstock, 
the great city of Canton, Georgia in Cherokee County, Mayor 
Pruett has some interesting insights on this life in the outer 
suburbs and how connecting with certain transportation means 
might make a better life for us all.
    Mr. Mayor.

                STATEMENT OF HON. CECIL PRUETT, 
                 MAYOR, CITY OF CANTON, GEORGIA

    Mayor Pruett. Thank you for letting me be a walk-on at 
today's meeting. I appreciate that, and I truly appreciate the 
opportunity of following the Governor and him referring to 
Woodstock, because I have got a solution to that problem.
    [Laughter.]
    Mayor Pruett. Those people do not need to have to go 
through that, they need to be able to get on commuter rail and 
get to Atlanta without having to go through those difficult 
times.
    The earlier panel had mentioned vision and planning, 
implementation and all that. For quite sometime now, for 3 
years, the City of Canton has evolved from a vision and it has 
put into place a plan that would incorporate commuter rail. Of 
course, we may not get that in the next year or two, but what I 
am simply suggesting that we consider is that Canton should be 
used as a demonstration project, because the rail line itself 
is privately owned and those people are very willing and 
capable and able to communicate and to agree in some kind of 
understanding whereby that track could be utilized for commuter 
rail.
    And of course, we are already working with our friends at 
Cobb County, and even though that track only goes to Marietta, 
then we could connect with CCT and make that a seamless system. 
But we could learn a lot about what it would cost, what kind of 
ridership we would get.
    Even in the City of Canton now, we already have a shuttle 
system in place that is free of charge. And I think other 
cities ought to be doing that same thing in order to--you know, 
that pay box does not create a whole lot of money, but we try 
to get people out of a bad habit into a good habit and that is 
to leave the car in the garage, because we have all got the air 
quality, the congestion problem, and we are trying to make sure 
that is solved. So that when commuter rail does come to our 
city, we will have people trained to get on that shuttle bus 
and get to the station and go to work. Sixty-five to seventy 
percent of our citizens leave our county every day. We are 
working on that too, to try to make sure that jobs are created 
in our city to cope with that issue. But without that vision, 
you do not have a plan, and without that plan, you do not have 
implementation.
    And our vision is to hopefully get Georgia Rail Passenger 
Authority and others to consider our city as a demonstration 
project. They were in our city 3 months ago for their monthly 
meeting and I think they saw what we have got planned. And we 
have planned and will continue to plan a livable cities 
initiative based strictly around commuter rail.
    Thank you for the opportunity, my friend.
    Senator Cleland. Thank you, Mr. Mayor.
    Let me see if I can get it right. There is a private rail 
line that goes from Canton to Marietta?
    Mayor Pruett. Yes, sir. it goes all the way up through 
north Georgia, but I am not particularly advocating at this 
point in time we go to Gilmer County yet with commuter rail----
    [Laughter.]
    Mayor Pruett.--but I am certainly anxious for it to come to 
Cherokee County.
    Senator Cleland. Gotcha.
    [Laughter]
    Governor Barnes. I do not mean to dominate, but Mayor 
Pruett, I want to commend--I have done this several times, I 
want to commend him publicly. They have been on the cutting 
edge of providing alternatives for this bus shuttle system that 
they have in the city and it works. It works and it is an 
example of how--just as I was speaking, if you give choices and 
it is dependable and it is faster, they will use it.
    Mayor Pruett. And Senator, we are also very actively 
involved in smart growth element, which you know, when we 
participated in your seminar over in Athens, and our city is on 
the cutting edge, and this can just simply be another project 
that we can help. You know, we need a win-win situation and I 
think this is a great opportunity. We could have one running in 
6 months if everybody decided that would be something that they 
could entertain.
    Thank you.
    Senator Cleland. Thank you very much. Fascinating 
initiative. Thank you for being willing to join our panel.
    Mayor Campbell, all roads seem to lead to Atlanta.

               STATEMENT OF HON. BILL CAMPBELL, 
                MAYOR, CITY OF ATLANTA, GEORGIA

    Mayor Campbell. Thank you very much, Senator. And I want to 
echo the comments of Governor Barnes in expressing our 
appreciation to you, not only for being a forceful advocate for 
Georgia, but for the issue of rail, and not just that, but the 
TEA-21 infrastructure funds which you also fought for and which 
have actually played a part in our continued planning for our 
multi-modal center. And I want to thank you very much for being 
so supportive. To my other colleagues here and those that are 
here, you have assembled a great group just to listen to the 
panels. Representatives from the Georgia Department of 
Transportation, I came in with Wayne Hill, Chairman of the 
Gwinnett County Commission, who also chairs ARC, and of course, 
the new head of MARTA and friends from the legislature.
    It makes a real difference for us to be able to advocate 
because we think in many ways Atlanta has seen the future and 
we have invested in it, particularly with the efforts on both 
the multi-modal center where we have invested for years in 
keeping this possibility, this very exciting possibility alive, 
but also with the help of many of our corporate friends.
    A perfect example of that--there are three examples. The 
first one comes with the Atlantic Station, formerly known as 
Atlantic Steel. This is a perfect effort that shows how we can 
blend together all these different issues where people can work 
and live, shop and play in a community that really reduces both 
air pollution and traffic congestion. As you know, because we 
have worked with you, Senator Cleland, the Environmental 
Protection Agency has adopted this project under its Project 
Excel designation as a national model for smart growth 
features. And not only that, but of course we get the added 
benefit, they repatriated the land, the polluted land that was 
there. So these features are aimed at reducing single occupant 
vehicles and we are delighted that that is the kind of 
alternative community building and smart growth that will make 
a difference.
    Another example is the $6 million Lindbergh Project which 
is currently under construction sponsored by MARTA. It is being 
developed in conjunction with BellSouth and its effort at 
consolidating the work locations of its employee base, and that 
helps us as well. Fifty acres of MARTA land are going to be 
transformed into, again, this sort of smart growth initiative 
where people live and work and shop all in the same community. 
It consists of three locations served directly by MARTA rail. 
Two of those are in the city and the third is immediately 
adjacent. A third community is historic Westside Village on the 
Martin Luther King corridor right across the street from 
Paschal's where I know you spent many of your formative years 
there enjoying the vintage fried chicken and just being a part 
of the whole community. This development project will become 
the mixed use anchor for the Atlanta University Center. It will 
have housing, office space, retail, and it is also of course 
right there on top of a MARTA station. And we are delighted to 
have that kind of initiative.
    But the most exciting of all these ``transportation-smart'' 
and ``land use-smart'' development projects is our Multi-modal 
Passenger Terminal project. It has taken awhile to come 
together. When I say that Atlanta invested in the future, we 
made certain that we assembled the land, we made certain that 
the infrastructure was in place. We look for this project to 
create for our city, our region, and our state, the surface 
transportation counterpart to Hartsfield Airport. In a 
remarkable multi-layer transportation nexus, we are looking to 
have Amtrak, MARTA, commuter rail, various means of busing, and 
of course, the Atlanta-Chattanooga Maglev--and I want to again 
thank Secretary Slater for his continued support--all together 
in one central location. The major advantage will be the 
seamless university and urban continuity that will connect 
neighborhoods to downtown to the Atlanta University Center, to 
Philips Arena, the Georgia World Congress Center, Centennial 
Olympic Park and it combines all of this working with the state 
and with the federal government under this Project Management 
Team.
    So we believe we have invested in the future, we have seen 
what is important and we hope this will go a long way towards 
overcoming some of the regional difficulties and provide all of 
us with an effort at working together. You know, Mayor 
LaGuardia said it best and that is that there is no Democratic 
or Republican way to pick up the trash, it is only whether or 
not it gets picked up. And it is the same issue with people 
sitting in traffic. People want a solution, they do not care 
about the regional difficulties, they do not care about 
transportation projects. They simply want it to work. And one 
of the best ways of doing so is through rail.
    I lived in Copenhagen, I lived in a suburb of Copenhagen, 
and they had a wonderfully seamless regional transportation 
system that was in essence commuter rail. That was 30 years 
ago. They have improved upon that now. They now have, as you 
know, having ridden the high-speed rail in Japan and of course 
the same in France, it is a wonderful opportunity for us to cut 
down on traffic, cut down on air pollution and be able to help 
these wonderful people in Woodstock and their children to spend 
more time together. I think it just goes to show you that the 
things that we think are important are not as important to the 
people that we are trying to help the most--that is our 
children. We all want to serve our children. We think we do 
that by working two jobs, getting up earlier for them. It turns 
out it is just the opposite. They would rather have us spend 
more time with them. And the best way to do that is through 
commuter rail, high-speed rail, more HOV lanes, a better mass 
transit system. I happen to believe MARTA is the best in the 
country. The best way to enhance that is by having it serve 
more of the surrounding areas. And we hope to be able to do 
that in a seamless way.
    So I want to thank you, Senator, because we think that what 
we are doing is really providing for the future. We are 
investing in these corridors, these nodes, that will help 
people to stay out of cars, cut down on the air pollution, and 
be able to get people from point A to point B.
    As you know, we are one of the few cities in the world 
where you can fly in to our airport and because of the vision 
of my predecessors and those at MARTA, you can walk only 20 
yards from where you pick up your baggage and get on the mass 
transit system in the terminal. I mean think about the vision 
that that took. They created the whole seamless corridor there 
10 years before the MARTA line ever went into the airport. It 
is now one of the great advantages of our airport and of our 
mass transit system.
    It is that same sort of vision that I think can help us. 
And I appreciate you bringing us all together and making us 
work together and providing the money which, of course, is a 
needed ingredient, so that we can all move forward together.
    [Applause.]
    [The prepared statement of Mayor Campbell follows:]

   Prepared Statement of Hon. Bill Campbell, Mayor, City of Atlanta, 
                                Georgia

    Atlanta is beginning this exciting new century with major rail 
transportation initiatives. Under Governor Barnes' leadership, 
establishment of the Georgia Regional Transportation Authority (GRTA) 
has created a new set of partnerships that we expect will rebalance 
transportation programs and priorities for our city and region. This 
rebalancing is already evident in new development initiatives and 
partnerships with private sector developers. Together, we are 
responding to the growing market for urban choices. We are responding 
to the need for mixed use, mixed income communities where effective, 
convenient and affordable transit is a central component.
    One of these communities is Atlantic Station, where over the next 
several years a ten million square foot complex will be built to help 
reduce both air pollution and traffic congestion. In fact, the 
Environmental Protection Agency has adopted this project under its 
Project XL designation as a national model of ``smart growth'' 
features. Such features are aimed at reducing Single Occupant Vehicle 
trips, providing effective transit alternatives, and creating an 
environment that helps reduces both the number and length of trips.
    Another example is the six-million-square-foot Lindbergh project 
presently under construction, sponsored by MARTA. Approximately 50 
acres of MARTA land, much of which were parking lots, are being 
transformed into a mixed use development, this time anchored by office 
space for BellSouth. The purpose is to consolidate space needed to 
accommodate nearly 13,000 employees. It will consist of three locations 
served directly by MARTA rail. Two of these are in the City, and the 
third is immediately adjacent.
    A third community is Historic Westside Village. This development 
project will become the mixed-use anchor for the Atlanta University 
Center and nearby west side neighborhoods, again providing housing, 
office and retail space. The project will total more than one-million-
square-feet right on top of a MARTA rail station. Other such 
initiatives for the Village are in the planning stages as well.
    Yet the most exciting of all our ``transportation-smart'' and 
``land use-smart'' development initiatives is the Multi-modal Passenger 
Terminal project. This project has taken awhile to come together and is 
designed to provide a comprehensive land development and multimodal 
transportation program centered in the core of downtown. We look for 
this project to create for our city, region, and state, the surface 
transportation counterpart to Hartsfield Atlanta International Airport. 
In a remarkable multi-layered transportation nexus, we are looking to 
have Amtrak, MARTA and commuter rail, various means of busing, and the 
Atlanta-Chattanooga Maglev together in one central location. One major 
advantage will be seamless urban continuity from downtown to nearby 
neighborhoods, to the Atlanta University Center and Philips Arena, the 
Georgia World Congress Center and Centennial Olympic Park.
    This project combines several entities into a state level project 
called the Project Management Team. The team is partnering with the 
City and the downtown business community, through Central Atlanta 
Progress, to sort through the project's daunting technical, financial 
and political challenges and opportunities. All parties are 
participating enthusiastically to achieve the best outcome.
    We look for this project to go a long way on both a regional and 
intercity scale. We expect it to provide the full range of travel and 
development choices that distinguish a mature and well-managed 
metropolis. It will ease rush-hour commutes. It will reduce air 
pollution and congestion. It will provide seamless connections between 
local, regional and intercity travel modes. It will concentrate 
employment and residential areas. And it will provide conventioneers, 
sports fans and entertainment seekers with a wide range of options for 
reaching their destinations pleasantly and conveniently.
    What is impressive about this project is the convergence of 
multiple parties--all vested in helping Atlanta discover even greater 
cutting-edge solutions. Atlanta is a city that has grown and succeeded 
by being on the forefront of transportation innovation. We have gone 
from rail to road, to air to rail transit, to superhighway, and now to 
multi-modal surface transportation. To take full advantage of this 
opportunity, strong and effective partnerships are needed to create and 
study policy, develop programs, devise funding strategies and implement 
projects.
    What we need is the assistance of federal, state, local and private 
entities--including their financial assistance. We need to support our 
key rail partners in managing rail operational needs in conjunction 
with commuter rail needs. This is vital to our continued growth. We 
need to strengthen partnerships that are essential to any diverse 21st 
century city. Overall, we must help Atlanta once again distinguish 
itself as a cutting edge transportation-driven city. This time, with a 
range of rail innovations. As a core city that values the diversity of 
its population and attractions, and is always looking toward the 
future, Atlanta is destined to be not just a transportation model, but 
a model city in every way.

    Senator Cleland. Thank you very much, Mr. Mayor, well said.
    Mr. Elder, we have been talking a lot about corridors. 
There is Barrow County right smack dab in the middle of a 
fascinating corridor. Share with us your view.

                STATEMENT OF HON. EDDIE ELDER, 
         CHAIRMAN, BARROW COUNTY BOARD OF COMMISSIONERS

    Mr. Elder. Thank you, sir. I too appreciate the opportunity 
to be here today to speak to the Subcommittee on behalf of 
Barrow County and also for, I guess, more rural Georgia. Unlike 
most of my counterparts here, even though we are one of the 
fastest growing counties, we still feel like there is a lot of 
rural opportunity there.
    But transportation is one of the most important ingredients 
in a county to its quality of life. And the direction that we 
will grow and plan for the future must be based on 
transportation.
    As one of the fastest growing counties in Georgia, our 
economic development, our residential growth, must be planned 
with smart growth and green space, but we must develop a 
network of transportation also.
    Growing up in Barrow County in the 1940's and 1950's, we 
had three sources of transportation at that time. I was born 
and have lived all my life just off the CSX rail line, and in 
those days, there were more passenger trains running on that 
track than freight trains. In fact, just in front of my house, 
there was a passing track built so that those freight trains 
could pull aside and wait to let those faster moving passenger 
trains pass by. There was a stop in every small town--Bogart, 
Statham, Winder, Auburn--and people used those trains. In those 
days, not everybody had an automobile and if you were going to 
Athens or Atlanta or a further distance, the train or the bus 
was your main way of traveling.
    With the congestion that we have today on the University 
Parkway and on Interstate 85, you could drive to Atlanta faster 
50 years ago on a two-lane road than you can travel it today.
    [Laughter and applause.]
    Mr. Elder. With Gwinnett County moving towards us on one 
end of University Parkway and Athens-Clarke County moving 
toward us on the other end, and with the great University 
systems that we have on both ends, we need all sorts of 
transportation. There are people in Barrow County who travel 
every day to Atlanta or Athens to work. With the number of 
students and employees that goes with all those universities 
traveling, it is indeed important that we have alternative 
transportation.
    We feel that a big part of that though is still an upgrade 
to 316 or the University Parkway, to full limited access. With 
the number of automobiles on that road, the number of accidents 
and the number of deaths that we have had, this is very 
important. But also, the proposed corridor for the rail 
paralleling with University Parkway must make it a high 
priority in this region.
    There is no doubt that the current trend of low density 
decentralized automotive-dependent development so common in our 
country for the past 50 years is a major threat to the quality 
of life in Barrow County. Not only is it expensive for local 
governments to serve, but the impact that this form of 
development has on the environment is staggering. Automobile 
emissions create toxic air pollution. Stormwater surging across 
miles of asphalt poisons our rivers and streams. Thousands of 
acres of farmland, woodland, and open space are lost to strip 
malls and parking lots.
    We in what was rural Georgia are among a growing number of 
people who are beginning to understand the link between the 
health of our environment, our economic stability and the way 
that we use our land. No county or city by itself can solve all 
the problems of air quality, water pollution, or land use. We 
must work as a region, a state and a nation to solve these 
problems.
    The presence of these transportation projects creates an 
urgent need to determine if there is a better way to manage 
growth in our area in such a way as to reduce traffic, improve 
air quality, protect our environmentally sensitive areas, have 
cost-efficient infrastructure, and in general, a more livable 
community. At the same time, this urgent need becomes a unique 
opportunity to point the way to a more sustainable future for 
Barrow County and the Atlanta region.
    At the present time, most of our new development is on 
University Parkway. Years ago, when Barrow County was built, 
all these towns were built on CSX rail lines. With this 
corridor becoming usable again, then we have the opportunity of 
revitalizing these areas that were built and so important 50-70 
years ago.
    I urge us all to go forward with the planning and the 
implementation of the Athens to Atlanta rail service and 
enhancing and upgrading University Parkway system to give us a 
model alternative transportation system for all of Georgia and 
the nation to appreciate.
    Thank you very much for the privilege of being here today 
to address this Committee, Senator.
    [Applause.]
    Senator Cleland. Thank you very much, Mr. Chairman.
    Your comments about passenger rail being on these rail 
lines bring back my own personal experience in growing up in a 
little town called Lithonia, Georgia when we were part of rural 
Georgia, where there was a passenger train that went every day, 
daily service, from Atlanta to Augusta and came through my 
little hometown of Lithonia, stopped at the depot, picked up 
passengers, all the way to Augusta and then turned right around 
and in the afternoon came right back all the way to Atlanta. 
You could ride from downtown Lithonia to Atlanta for 50 cents.
    You know, one wonders, and I have often thought, all those 
little towns over the last 100, 125, 150 years, through DeKalb, 
through Rockdale, through Newton County on out, through 
Thomson, Georgia and on to Augusta, on that one railroad, all 
those little towns that have seen a deterioration of the 
downtown area. What if somehow, some way, passenger service--
maybe not even super high-speed, but just some kind of access 
on a train--what that would do to revitalize what used to be a 
thriving part of our state, small downtown rural Georgia. And 
so I share your experience.
    I would just like to ask, we were able to get $16 million 
in the Transportation Bill, TEA-21 actually, to authorize 
construction of an Atlanta to Athens transportation corridor. 
What do the citizens out there in Barrow County think of this 
corridor, think of this possibility of rail, passenger rail 
coming their way?
    Mr. Elder. I think there are mixed emotions, as has already 
been brought out by Governor Barnes. Most people are a little 
bit skeptical. We, after World War II and because of cheap 
fuel, the mass production of the automobile, all feel like if 
there are two of us, we need three automobiles. We did not get 
in this shape overnight and we will not change that feeling 
overnight.
    I do agree though that if I had had the choice today of 
driving to Atlanta, and we were very fortunate and did not get 
tied up in traffic, but if I had had the choice of getting on a 
train at the depot where our Chamber of Commerce is located 
now, and riding it to the Capitol, I would have ridden that and 
I think most people will, but they will have to see it. I think 
just to talk about it and just to ask their opinion, they are 
going to say no, I am not giving up my car. But if they are 
spending an hour and a half or 2 hours commuting to Atlanta and 
they can do it not only cheaper but faster and dependably--I 
had the opportunity to come to the DOT office about a month 
ago. I left Winder at 11, knowing that I had to be here at 1, 
so I allowed myself an extra hour. I was fortunate that day, I 
drove it here in an hour and 5 minutes. But it could have 
easily taken me two and a half to 3 hours with just one wreck 
on Interstate 85.
    So I do feel like that it is something that will be used 
once we prove that it will happen.
    Senator Cleland. Mayor Ellis, may I say TEA-21 contains 
more than $29 million to construct an Atlanta to Griffin and 
Macon rail corridor. I would just be curious, what is the 
status of the multi-modal terminal in Macon at this point?
    Mayor Ellis. Well, with regard to the multi-modal terminal, 
we have decided through a consensus process that our historic 
Union Station would probably be the better place for the multi-
modal facility. We have made application to the state DOT and I 
am very hopeful that will be funded through some funds to make 
that happen as we acquire this facility and hope that we can 
convince Georgia Power to make the other donation of the 
facility. As you know, the City owned this facility, we bought 
it from Central of Georgia Railroad in 1976 for $200,000. The 
facility was built in 1916 at a cost of $2 million at that 
time. We were able to buy it for $200,000, but the Mayor at 
that time, felt that he would double the investment and he sold 
it for $400,000; and of course, Georgia Power bought it and put 
some money into it and now they have agreed to sell it back to 
us at a price of $2 million----
    [Laughter.]
    Mayor Ellis.--They did make some investments and Georgia 
Power is a good corporate citizen in Macon and I want to make 
sure that is very clear. So, we are working with them and the 
federal and state government to get some funds so that this can 
become a reality for our multi-modal facility.
    Senator Cleland. Thank you very much.
    I noticed that you gave me a little history of Macon and 
there was a poster promoting Macon dated 1911 and it advertised 
Macon as the center of railroads, population, schools and 
wealth.
    Mayor Ellis. Exactly. They were doing in 1911 what we are 
doing today. We are trying to convince the Governor and other 
state agencies to move some state agencies to Georgia and they 
were advertising bringing the state capitol to Macon at the 
time, and bringing other state agencies. So we are still 
working on this.
    [Laughter.]
    Senator Cleland. We are not going to get into that.
    Thank you all very, very much for coming. Let us give our 
panelists a round of applause.
    [Applause.]
    Senator Cleland. We will take a 5-minute break and our 
panelists for our last panel will be Carl Rhodenizer, Steve 
Roberts, Stephen Crosby and Craig Lewis.
    Five minute break.
    (A short recess was taken.)
    Senator Cleland. It is good to have Carl Rhodenizer, Vice 
Chair of the Georgia Rail Passenger Program Management Team, 
the inter-disciplinary team that is pulling things together 
across bureaucratic lines. Carl, we know that the Chairman 
could not be here today, but give him my best regards. We 
appreciate you taking your time and we would like to hear from 
you.

          STATEMENT HON. CARL RHODENIZER, VICE CHAIR, 
         GEORGIA RAIL PASSENGER PROGRAM MANAGEMENT TEAM

    Mr. Rhodenizer. Thank you, Senator. We appreciate you being 
here and we appreciate the opportunity to come before you to 
discuss the Georgia rail program, even though I am substituting 
for someone else.
    I am representing the Program Management Team that the 
Governor referred to earlier and I am standing in for Mr. Sonny 
Deriso, who is the Chair and is in Boston today for the Mayors 
Conference. I am also Chairman of the Georgia Rail Passenger 
Authority and a Commissioner in Clayton County. And I want to 
take advantage of this opportunity to say that in our meeting 
last evening, the Clayton County Commission approved our 
transportation contract for mass transit using the services of 
GRTA. And I am extremely proud of that.
    Senator Cleland. We were glad to get you some money for 
that.
    Mr. Rhodenizer. Thank you, we appreciate that too.
    I want to thank you for your support for the rail studies, 
the funding and the Transportation Equity Act for the 21st 
Century. Frankly, I do not believe we would be here on this 
platform today if you had not done that, by earmarking almost 
$50 million for the multi-model transportation corridors for 
which we are extremely grateful.
    I believe Secretary Slater and Administrator Molitoris have 
left, but I also want to thank them for their support and the 
designation of the high-speed corridor.
    I would like to spend most of my time just explaining how 
this organization of the Program Management Team came together. 
It has been about 1 year ago today I believe that this was put 
in place. Governor Barnes realized that the need to get the 
state transportation agencies focused on both commuter and 
intercity service for the citizens of Georgia, that we needed a 
joint effort, so he suggested a joint entity to guide this rail 
development in Georgia.
    The Program Management Team consists of two members from 
the Georgia Regional Transportation Authority, two members from 
the Georgia Rail Passenger Authority and two members from the 
Georgia Department of Transportation. I believe the Governor 
mentioned this also, that he appointed the Chairman, Mr. Sonny 
Deriso, who is representing him. Representing the Rail 
Passenger Authority are Mather Stapleton and myself. 
Representing GRTA are Sonny Deriso and Sharon Gay. And the 
Georgia Department of Transportation is represented by Brad 
Hubbert and Jimmy Lester. And I think everybody in the room 
probably knows all of those people and recognizes that they 
represent equally the metropolitan area of Atlanta as well as 
the entire State of Georgia.
    One year ago, these three agencies put into effect an 
agreement to serve as a mechanism for implementing effective 
and also efficient rail passenger service in Georgia. The first 
line of that agreement states, and I would like to quote, 
Senator, ``the parties recognize and agree that effective and 
efficient rail passenger service in Georgia can be implemented 
only through the cooperative and coordinated efforts of the 
parties.'' That means pulling together the great talent of the 
Georgia Department of Transportation, the Georgia Rail 
Passenger Authority and the Georgia Regional Transportation 
Authority. And I believe in the year since we entered into that 
agreement, I believe that we are doing just that.
    Under our agreement, the Georgia Department of 
Transportation will be primarily responsible for planning, 
designing and constructing the rail infrastructure. GRTA will 
be responsible for integrating local and state transportation 
and land use decisions, with the rail passenger program. This 
will certainly involve working with local governments to 
establish transit, bicycle, pedestrian facilities, and transit-
oriented development to enhance the rail program. The Georgia 
Rail Passenger Authority will be primarily responsible for the 
operation of passenger train service, location and design of 
rail stations, and also for local government coordination.
    All three agencies are jointly responsible for capital 
improvements such as trackage and train sets, identifying new 
service needs, making signal and control system improvements, 
developing access and operating agreements, and generally 
cooperating with other transit and planning agencies to 
contribute to a comprehensive public transportation program for 
the entire metropolitan region as well as the entire state.
    To provide the necessary technical expertise we needed, the 
Program Management Team established the Rail Program Managers 
Committee and this Committee supervises the work of the Georgia 
Rail Consultants, and my colleague, Mr. Steve Roberts, to my 
left, whom you will hear from today, is program manager for 
those consultants.
    Our consultants are using the most recent rail studies 
prepared by the Georgia Department of Transportation; also 
using the previous studies of the Atlanta multi-modal terminal. 
All of this is part of our ongoing environmental assessment of 
the Athens to Atlanta and the Macon to Atlanta rail corridors 
which we have identified as the two corridors with the highest 
promise for rail passenger service. This program also includes 
the studies of potential service to Albany, Jesup, Savannah, 
Canton, Columbus, Bremen, Madison, Augusta, Senoia, and 
Gainesville.
    A 5000-mile network of railroads crisscrossing the State of 
Georgia provides an excellent opportunity to establish a rail 
network in the state. The previous studies of passenger travel 
by mode and trip preference found that Georgians would make 
about seven to ten million trips a year if the service was 
provided at a reasonable cost and was reliable.
    But Senator, we have some very tough questions to answer 
before we are ready to recommend a passenger rail investment 
program. Whatever the Program Management Team recommends to the 
Governor, the legislature, the next administration, and the 
Georgia delegation, we believe it must be based on a very sound 
and very thorough analysis.
    Here are some principles that we think are very important:
    One, we must have a thorough, meaningful alternatives 
analysis that examines every practical alternative in these 
corridors. The selected preferred alternative will have the 
highest value returned to the state.
    Two, the preferred alternative must be competitive with 
other forms of transportation in terms of time, cost, and 
perhaps comfort as well, and convenience.
    And three, we need to keep the big picture in focus. We are 
not just talking about running commuter and intercity trains to 
Atlanta. We are part of a larger regional effort that will lead 
to the development of the high-speed passenger rail network in 
the southeast that we have talked about already today. The 
business community, led by the Metro Atlanta Chamber of 
Commerce, is very excited about the potential of the high-speed 
transportation alternative to other major cities and has been 
doing a good bit of work on that in the last few months. We are 
part of the network and we will not lose sight of this concept.
    The task before us is a heavy responsibility and we have 
all recognized that and we pledge to ourselves every day that 
we realize that is true. And I also pledge to you and to the 
entire Congressional delegation that we will do everything 
possible to implement this rail passenger program efficiently.
    Thank you.
    [Applause.]
    [The prepared statement of Mr. Rhodenizer follows:]

 Prepared Statement of Hon. Carl Rhodenizer, Vice Chair, Georgia Rail 
                   Passenger Program Management Team

    Thank you, Senator Cleland, for the opportunity to come before you 
today and talk about the Georgia Rail Passenger Program in Georgia.
    I am here today representing the Program Management Team of the 
Georgia Rail Passenger Program. Sonny Deriso, the chairman of the PMT, 
could not be here today, so I am substituting in his behalf. I also 
serve as chairman of the Georgia Rail Passenger Authority and as a 
member of the Clayton County Board of Commissioners, and I am a banker 
and former President of the Clayton County Chamber of Commerce.
    But before I go any further, let me first thank you for your 
support for rail program funding in the Transportation Equity Act for 
the 21st Century. Frankly, we would not be here today but for the help 
from you and other members of Georgia's congressional delegation in 
providing specific funding for rail in our state. You alone earmarked 
almost $50 million for multimodal transportation corridors, and we are 
grateful.
    I also want to thank Secretary Slater and Administrator Molitoris 
for responding to the PMT's request to extend the Southeast High-Speed 
Rail Corridor designation from Macon to Savannah, via Jesup, and to 
extend the Gulf Coast High-Speed Rail Corridor designation from 
Birmingham to Atlanta. Now, we have a firm foundation to build a high-
speed rail network throughout the Southeast, centered in Georgia.
    Now, let me explain the PMT. About a year ago, Governor Barnes 
realized the need to get the state's transportation agencies on the 
same track. The Governor established a joint entity to guide passenger 
rail development in Georgia. The PMT comprises two board members each 
from the State Transportation Board, the Georgia Rail Passenger 
Authority and the Georgia Regional Transportation Authority. The 
Governor appoints the Chairman, and Mr. Deriso, as the governor's 
appointee, has served with distinction and fairness during his tenure.
    Representing the State Transportation Board are Jimmy Lester and 
Brad Hubbert. Representing the Rail Passenger Authority are myself and 
Mather Stapleton. Mr. Deriso and Sharon Gay represent GRTA.
    On one year ago today--December 6th--the three agencies put into 
effect an agreement to serve as the mechanism for implementing 
effective and efficient rail passenger service in Georgia. The first 
substantive line of that agreement states, ``the Parties recognize and 
agree that effective and efficient rail passenger service in Georgia 
can be implemented only through the cooperative and coordinated effort 
of the Parties,''--meaning GDOT, the rail authority and GRTA.
    Senator Cleland, I believe in the year since we entered into this 
agreement we are doing just that.
    Under our agreement, GDOT will be primarily responsible for 
planning, designing and constructing the rail infrastructure. GRTA will 
be primarily responsible for integrating local and state transportation 
and land use decisions with the rail passenger program. This will 
involve working with local governments to establish transit, bicycle 
and pedestrian facilities and transit oriented development to enhance 
the rail program. The GRPA will be primarily responsible for the actual 
on-going operation of passenger train service and the rail station 
siting, design and local government coordination.
    All three agencies are jointly responsible for capital 
improvements, such as trackage and train sets; identifying new service 
needs; making signal and control system improvements; developing access 
and operating agreements; and generally cooperating with other transit 
and planning agencies to contribute to a comprehensive public 
transportation program for the metropolitan Atlanta Region and the 
State of Georgia.
    To provide the necessary technical expertise, the PMT established 
the Rail Program Managers Committee. This committee supervises the work 
of the Georgia Rail Consultants. Steve Roberts, who you also will be 
hearing from today, is the program manager for the Georgia Rail 
Consultants. He will be speaking in more detail about their work.
    Our consultants' work is founded upon the most recent available 
rail studies commissioned by GDOT, and the Multi-Modal Passenger 
Terminal proposed design as part of our on-going environmental 
assessment of the Athens-to-Atlanta and the Macon-to-Atlanta rail 
corridors, which we have identified as the two corridors with the 
highest promise for rail passenger service. The program also includes 
the study of potential service to Albany, Jesup, Savannah, Canton, 
Columbus, Bremen, Madison, Augusta, Senoia and Gainesville.
    A 5,000-mile network of freight railroads crisscrosses the State of 
Georgia, providing an excellent opportunity to establish a passenger 
rail network in the state. Previous exhaustive studies of passenger 
travel by mode and trip preference found that Georgians would make 
about seven to 10 million trips a year by passenger rail if it were 
provided at a reasonable cost, was reliable and provided a frequency of 
service to meet travel needs.
    Senator, we have some tough questions to answer as we prepare to 
recommend a passenger rail investment program. Whatever the PMT 
recommends to the Governor and Legislature, the next Administration and 
the Georgia Congressional delegation, it must be based on a sound and 
thorough analysis.
    Here are some principles that I think are important:
    One, corridor analysis of transportation alternatives must examine 
every practical alternative on these corridors to arrive at the highest 
value return of the preferred alternative.
    Two, the preferred alternative must be competitive with other forms 
of transportation in terms of time, cost, comfort and convenience.
    Three, we need to keep the big picture in focus. We are not just 
talking about running commuter and intercity trains to Atlanta. We are 
part of a larger regional effort that will lead to the development of a 
high-speed passenger rail network in the Southeast. We now have that 
foundation of a high-speed network that I spoke of earlier. The 
business community, led by the Metro Atlanta Chamber of Commerce, is 
excited about the potential of a high-speed transportation alternative 
to other major cities in the Southeast and the whole Eastern seaboard.
    The task before all of us is a heavy responsibility. I pledge to 
you, and the entire Georgia Congressional Delegation, that we will do 
everything possible to implement this Rail Passenger Program.
    Thank you.

    Senator Cleland. Thank you very much, Mr. Rhodenizer, we 
appreciate your service and your attention to detail. It is a 
key responsibility you and your colleagues have and we thank 
you for exercising it with such diligence.
    Let me just go to Mr. Roberts now. Mr. Roberts worked to 
establish a unique program between the State of Virginia and 
some federal authorities. Mr. Roberts, share with us a little 
bit your experience and maybe what it might mean for Georgia.

                  STATEMENT OF STEVE ROBERTS, 
           PROGRAM MANAGER, GEORGIA RAIL CONSULTANTS

    Mr. Roberts. I have prepared some remarks and provided them 
to the staff, but I thought perhaps, as you have just asked 
that question how we might focus what we are doing here in 
Georgia on the corollary that was the Virginia Railway Express, 
I unearthed my little pin that I brought along today. This is 
our 10,000 rider pin* from Virginia, it means we are 25 percent 
ahead of our passenger projections and still growing, and that 
is about 5 years ahead of the time frame that those forecast 
patronage numbers were made.
---------------------------------------------------------------------------
    * On October 3, 2000, VRE celebrated its first 10,000 daily trip 
day on a non-event day.
---------------------------------------------------------------------------
    I think that you will see from the testimony of the two 
freight railroads that this growth and this success is 
essentially dependent on the hard work of their management and 
their employees as well as Virginia Railway Express, and 
Amtrak, which was our contract operator there.
    There is just no question that all of the things that 
people have gone before us have said are the key to why people 
get on trains. They are reliable, they are dependable, they are 
safe, and with that sort of activity and with that sort of 
commitment, it is likely that we will have the same success 
here in Georgia. Absent that or absent doing the thorough job 
and making sure that everyone's train runs on time, it is 
likely that we will have the kind of problem that VRE had at 
one point in its history. I had the good fortune to survive it, 
but we had an incident in 1997 in which our ridership dropped 
about 30 percent, our on-time performance went to 39 percent 
and people basically quit riding trains. Since that time, 
having got to 10,000, there is a pretty significant pattern of 
change and it really represents recognition by all the parties 
that we had to invest in on-time performance, whatever that 
took.
    Two corridors have significant work underway to evaluate 
alternatives. Just as Mr. Rhodenizer spoke, we are not only 
looking at the market in these corridors for how rail would 
serve it, but utilizing the capacity on the highway, 
conceivably building HOV facilities, and this would apply to 
both Macon and Athens. I cannot imagine, frankly, a system in 
which only rail--as several people have spoken, this will be a 
mix, it will be a network and part of our challenge is to make 
it seamless for the consumer.
    It is good that technology has evolved in the intervening 
period. When I first started work on our train in Virginia, we 
were not just putting coins in fare boxes, but the magnet strip 
on the back of the Metro Rail fare card was a relatively new 
technology. We have now evolved the smart cards, which we have 
a lot more flexibility and a lot more interest in. I think not 
only in the technical community but also in the banking 
community, to work with us to create that kind of seamlessness.
    I think overall the kind of guidance we are going to have 
to design into the system is that this is a system where people 
with choices will make those choices. If we are not responsive, 
people will not be on trains. But if we do make it responsive 
to what they need, they will be on trains.
    I am looking forward to being a part of this, I am looking 
forward to working with Norfolk Southern and with CSX to 
examine what is needed to make sure that their freight needs 
and what is needed for reliable passenger service are all 
encompassed in the set of investments that we make, and I am 
equally confident that as these three public agencies that are 
involved in designing and implementing the service put it 
together, there are going to be trains and there are going to 
be all kinds of other things--using the highways and 
conceivably some new dedicated right-of-way initiatives as 
well.
    It is amazing to me, there are a lot of folks in this room 
that I have been in meetings with over the last two decades 
examining how best to serve metropolitan transportation needs. 
It is amazing to me that we managed in Washington and we did 
not manage it here. I am sure that I am not going to be the 
difference but I am sure that I am going to be part of what 
happens and I am looking forward to it.
    I think it is clear from all the testimony here that you 
are going to be a part of it too and I very much look forward 
to working with you.
    [Applause.]
    [The prepared statement of Mr. Roberts follows:]

         Prepared Statement of Steve Roberts, Program Manager, 
                        Georgia Rail Consultants

    Senator Cleland,
    I am Steve Roberts, project manager for the implementation of the 
Georgia Rail Passenger Program. I am formerly the Chief Operating 
Officer for the Virginia Railway Express. I have 24 years of experience 
in the development of transit and commuter rail operations. VRE's 
current success is based on the day after day hard work of the 
management and employees of CSX Transportation, Norfolk Southern and 
Amtrak.
    Georgia's Rail Passenger Program was adopted in November 1999, one 
year ago. I am an employee of SYSTRA Consulting in a joint venture with 
Moreland-Altobelli and Parsons Brinckerhoff. The joint venture known as 
Georgia Rail Consultants was created in response to an invitation from 
the Georgia Department of Transportation and now their partners in the 
Georgia Rail Passenger Program, both the Georgia Rail Passenger 
Authority and the Georgia Regional Transportation Authority. Just as 
the engineering community has formed a joint venture, so the state 
agencies have signed a memorandum of agreement distributing the 
responsibilities in the program implementation under the guidance of 
the Program Management Team. PMT Vice Chairman Carl Rodenizer has 
outlined those in some detail.
    During this first year significant activities were initiated and 
advanced:

  <bullet> Much work has gone into assembling a phased implementation 
        concept for the Multi-Modal Passenger Terminal [MMPT] adjacent 
        to the Five Points MARTA station and many of the federal 
        agencies with Atlanta offices. In early October the City of 
        Atlanta, Central Atlanta Progress and the Program Management 
        Team hosted a planning charette of community leaders to discuss 
        the MMPT and to ensure that the needs of the Intermodal 
        partners: MARTA, Amtrak, commuter rail, Amtrak, regional bus 
        service and Greyhound are fulfilled. Following the charette 
        serious discussions have begun with adjoining property owners--
        in particular Turner and Cousins interests--to knit this 
        important facility into the redevelopment of the downtown core 
        area.

  <bullet> We have just concluded a major milestone in the evaluation 
        of transportation alternatives to serve--Macon and Athens 
        corridors., what may become the first two commuter lines of 
        seven recommended in earlier work completed by GDOT. We met 
        with the public in May and again in October to examine a number 
        of routes to serve those corridors. These public meetings have 
        been well attended and reflect a keen interest in the problems 
        to be addressed and solved. Meetings were held in Athens, 
        Winder, Lawrenceville, Decatur, Atlanta, Forsyth, Jonesboro, 
        Griffin, and Macon. By this time next year we expect to have 
        advanced each of these corridors to a single preferred 
        alignment, to have completed an environmental analysis, made 
        application for and received grants of the federal funds either 
        appropriated by the Congress for High Priority Projects or 
        flexed from highway funds and to have ordered locomotives, 
        coaches and buses and begun the critical problem solving 
        process of preliminary engineering.

  <bullet> In addition to the substantial appropriations [HPP 
        $68,350,000] for the rail passenger program that accompanied 
        the enactment of TEA-21, the State Transportation Board has 
        within its 2001-2003 Transportation Improvement Program [TIP] 
        $169,175,000 for a total of $237,525,000 toward the initial 
        capital investment for track capacity, facilities and rolling 
        stock. This is an unprecedented investment of flexed funds, and 
        a precedent we hope to engage throughout the twelve-year 
        implementation of the rail passenger program. As a result the 
        federal transportation agencies play a critical role in our 
        program. Secretary Slater's ``One DOT'' initiatives must be 
        fully realized if we are to knit together the administrative 
        processes of Federal Highway, Railroad and Transit 
        Administrations.

  <bullet> We have begun the important process of creating partnerships 
        with both CSX Transportation and Norfolk Southern. As VRE 
        demonstrated, a most important attribute of commuter rail 
        service is public use of existing railroad rights of way. In 
        Georgia these freight railroads are vital to the growth and 
        health of a vibrant state economy that is the envy of many. We 
        expect negotiations to lead to a ``win-win-win'' outcome. 
        Overall the concept of customer service represents a core value 
        in our ``win-win-win'' strategy. We have to be safe, dependable 
        and reliable. The railroads have each outlined a number of core 
        principles for our relationship that will be important to the 
        rail passenger program as well:

      1. Capacity: Another term for this is ``transparency,'' the 
railroads need sufficient capacity to ensure that both freight and 
passenger trains run on time, in this case we are working with the 
freight railroads to develop both an overall program requirement as 
well as a phased program of improvements and service. Senior officials 
of both companies are pointing toward a much greater investment in rail 
capacity to handle expanding freight markets as well.

      2. Compensation: The Georgia Rail Passenger Program is intended 
to be a valuable customer for the railroad companies. Payments made by 
other commuter rail systems for passenger train access to tracks 
represents extremely high leverage for the railroads. Measured against 
return on investment the railroads' returns on passenger operations are 
well above their cost of capital.

      3. Indemnification: The freight railroads supported the creation 
of Amtrak and several major commuter railroads in order to be relieved 
on the risk of liability in the operation of passenger service. This 
will be a difficult and costly process to resolve. In the main the 
freight railroads have indicated that they are totally unwilling to 
assume the risk for passengers.

      4. Safety: knowing your many years of service to the state you 
are aware of the significant number of grade crossings in the Macon 
Atlanta and Athens Atlanta corridors. We would anticipate the 
installation of significant protection and warning devices along with 
an extensive program of grade separations in these two corridors.

    Commuter and intercity rail passenger service in Georgia 
contributes to the smart growth strategies that you continue to 
champion, rail is an important tool to enhance mobility in the Atlanta 
region and intercity rail is an important link for the commercial and 
international travel hub that is Atlanta. Passenger rail in the 
southeast is an untapped resource in this high growth region of our 
nation. It will provide a new trip choice to travelers dealing with 
already congested roadway and airport facilities.
    On behalf of the Georgia Rail Consultants team, we are pleased to 
be a part of this effort and look forward to extensive opportunities 
for passenger train travel in Georgia.

    Senator Cleland. Thank you very much, Mr. Roberts. We 
appreciate your service and we need your expertise here in 
Georgia.
    Mr. Stephen Crosby, tell us how life looks from your side 
of the tracks.

                STATEMENT OF STEPHEN A. CROSBY, 
               PRESIDENT, CSX REAL PROPERTY, INC.

    Mr. Crosby. I will be glad to do that. Thank you, Senator. 
I will give you a little perspective from the view of the owner 
of the existing rail infrastructure as well as the corridor, or 
at least one of the corridors being considered. So I will get 
started with that.
    Just by means of contrast, our company operates rail lines 
on roughly 30,000 miles of right-of-way across the United 
States and Canada. It is nice to have an opportunity to talk to 
you at an early stage, a relatively early stage, in the 
evolution of your passenger operation here in Atlanta.
    With increasing congestion on America's highways and 
concerns over air quality, we see more and more communities 
across the country looking to rail as an environmentally 
friendly and fuel efficient means to move people and freight.
    CSX does its best across the country to work with 
communities and agencies to provide both technical expertise 
and operations analysis in order to help local planners and 
policy makers, just as we have heard today, make the well-
reasoned transportation decisions that are necessary. Where 
feasible, we also attempt to make our right-of-way available at 
fair market value for the construction of commuter rail 
systems. We currently have six commuter operations on our 
network and at least 28 others are being studied. Our recent 
experience with proposed new starts in Orlando and New Jersey 
has shown that, as Administrator Molitoris said earlier today, 
there is no one size that fits all solutions to these problems.
    In Atlanta, my colleagues and I have worked for several 
years with the various agencies that have an interest in 
furthering the concept of commuter rail. We have worked with 
many people in this room. As you have heard today, we are now 
working jointly with both Norfolk Southern and GRTA to study 
the combined freight network in order to evaluate the 
feasibility of introducing commuter rail service into this 
corridor.
    Atlanta is an extremely complex situation from a rail 
perspective, given the convergence of many lines and the high 
volume of freight that moves through the metropolitan area. The 
issues presented by adding commuter rail service to a mainline 
freight network are extremely challenging. A poorly planned 
implementation will degrade existing freight service while 
providing a level of passenger service that will not meet 
public expectations. Steve Roberts alluded to that in his 
comments, that on-time service is critical for everybody, 
whether it be freight or passenger.
    We are committed to working cooperatively to determine 
whether there are answers in fact that will work for everybody.
    You have already heard about issues that communities around 
the metropolitan area and public officials look at. So I will 
spend a little more time and share with you four key principles 
that guide our thinking as we go through these analyses in 
various communities that we work in.
    First and foremost is the safety of our employees and the 
public. It is a preeminent consideration. CSX is committed to 
operating with the highest degree of safety. Put simply, the 
risks to our employees and the public must be no greater after 
passenger rail systems are implemented than they are today.
    Among the critical issues we examine are train operations, 
integration between freight and passenger rail, grade crossing 
safety, passenger and pedestrian safety at station stops, and 
train-to-train safety.
    Second, any relationship with passenger rail services must 
give CSX the opportunity to effectively serve current customers 
and just as importantly, meet our future demands as our 
customers grow. This capacity issue is particularly critical in 
the Atlanta region, which is our busiest hub in the southeast. 
CSX serves more than 200 Atlanta-area companies and moves over 
one million carloads of freight into and out of the region each 
year. Our lines in the region are at our near capacity today 
and our Atlanta terminal handles over 120 trains daily.
    Commuter rail could further limit our capacity and force 
some of the freight we move back onto the highways, increasing 
the number of trucks on metropolitan roadways. This has the 
potential to be more harmful to the environment because 
railroads have a clear environmental advantage over trucks. 
When passenger trains squeeze freight trains off the tracks, 
more trucks are added to the highways, more pollutants are 
added to the atmosphere in addition to the traffic congestion 
that is created. Certainly that is not a situation that any of 
us want to have occur as a result of introducing commuter rail.
    Capacity studies are an important first step and they are 
critical to our ability to analyze a particular proposal. We 
need to understand current and future use. We need to know 
whether specific lines are able to accommodate regular 
passenger service. If they are not, we need to determine if 
those lines can be expanded or improved to meet the potential 
commuter needs. In some cases, such improvements and additions 
can be achieved and passenger rail can be accommodated. In 
other situations, it cannot.
    The third point I would like to make is that CSX does not 
have a role in funding commuter rail operations. We are an 
investor-owned company, we operate on private property that we 
maintain. We are not a public utility, and as a result, we 
simply cannot ask our shareholders and our freight customers to 
subsidize the cost of commuter rail operations.
    The commuter agencies need to pay the costs associated with 
determining project feasibility, obtaining operating and 
property rights, as well as building and maintaining the 
infrastructure associated with a passenger service.
    Communities must realize and be realistic about funding 
needs when they set forth to develop a passenger rail system. A 
proposed 16-mile system that we were associated with in 
Orlando, Florida, for example, would have cost in excess of 
$600 million. A 30-mile system in Bordentown, New Jersey that 
we were recently involved in with with Norfolk Southern will 
cost approximately $700 million.
    These are very different systems than envisioned for 
Atlanta but I use them as examples simply to illustrate two 
things. First of all, that these systems are expensive; and 
second, that we have demonstrated an ability to successfully 
work with agencies and communities in introducing commuter 
rail.
    In both these cases, it took a great deal of work and 
ultimately safety, capacity, and funding were all worked out. 
Actually, in the Orlando case, funding is still being worked 
out. One of the cautions I would like to add is that time frame 
considerations are crucial. In both those situations, the time 
frame for actual implementation of the service took longer than 
originally projected.
    We are working closely currently with GRTA to ensure that 
they have access to all the information that we have generated 
through our experience in these various communities, that they 
can benefit from the lessons learned by ourselves and the other 
commuter agencies that we have worked with, and that we are 
able to provide the resources and flexibility necessary for 
them to arrive at a workable solution.
    The final matter that I would like to address on our four 
point scale is the matter of liability. Although the likelihood 
of a catastrophic derailment is low, the potential does exist 
for a freight accident to occur simultaneously with a passing 
commuter train. The imposition of thousands of people, rail 
passengers and those who would work around the stations, into a 
freight corridor creates a certain level of risk that does not 
exist today.
    Consistent with sound business practices in states that do 
not have liability limits, we currently require a minimum of 
$500 million of insurance coverage as a condition to any new 
use of our properties for passenger purposes.
    In conclusion, I would like to simply restate that we 
remain actively engaged with communities across our system and 
of course in Atlanta in a fact-based approach to explore 
passenger and transportation options. Here, we are committed to 
continuing our involvement in the studies and the dialogue that 
have been initiated and that we have been involved with over 
the years.
    We, like Mr. Warrington and others commenting earlier 
today, are committed to an honest partnership.
    I thank you for the opportunity to share our opinions.
    [Applause.]
    [The prepared statement of Mr. Crosby follows:]

          Prepared Statement of Stephen A. Crosby, President, 
                        CSX Real Property, Inc.

    Thank you Senator Cleland. I am Steve Crosby, President of CSX Real 
Property, Inc., a subsidiary of CSX Corporation. I represent CSX in 
discussions concerning the introduction of commuter rail onto CSX's 
rights-of-way in metropolitan Atlanta. These lines are part of the 
30,000 mile rail freight network CSX operates in 23 states, two 
Canadian Provinces and the District of Columbia. I appreciate the 
opportunity afforded us today to explain our approach to potential 
passenger operations on our freight lines in Atlanta and elsewhere.
    With increasing congestion on American highways and concerns over 
air quality, more communities than ever before are looking to rail as 
an environmentally friendly, fuel-efficient means to move people. CSX 
works with communities, including Atlanta, to provide technical 
expertise and operations analysis to local planners and policy makers. 
Where feasible, we also attempt to make our right-of-way available at 
fair market value for the construction of commuter rail systems. We 
currently have six commuter operations on our network and 28 others 
being studied. Our experience has shown that there is no ``one size 
fits all'' solution.
    In Atlanta, my colleagues and I have worked for several years with 
various agencies that have an interest in furthering the concept of 
commuter rail. We are now working jointly with Norfolk Southern and the 
Georgia Regional Transportation Authority (GRTA) to study the combined 
freight network in order to evaluate the impact of the potential 
imposition of commuter service. The results of this study will yield 
important feasibility and cost analysis of alternative proposals and 
will provide a greatly needed decision tool. While Atlanta is an 
extremely complex situation given the convergence of rail lines and the 
volume of freight trains moving through, it also can be an exciting 
model if creativity is used in addressing these challenges.
    The issues presented by adding commuter rail services to a main 
line freight network are extremely challenging. Poorly planned 
implementation will degrade existing freight service while providing a 
level of passenger service that does not meet public expectations 
either. We are committed to working cooperatively to determine whether 
there are answers that work for everyone. To that end, we have guiding 
principles we use when working through this process with communities on 
our system, including Atlanta. You already have heard about issues 
communities and public officials look at, so I would like to share with 
you these principles which guide our thinking and analysis.
    First, safety must be the pre-eminent consideration. CSXT is 
committed to operating with the highest degree of safety for both our 
employees and the public. Put simply, the risks to our employees and 
the public must be no greater after a passenger rail system is put in 
place than the risks are today.
    Since 1989, CSX has reduced train accidents by 40 percent and 
employee injuries by 63 percent. Despite this record, the possibility 
of an accident cannot be dismissed. The Federal Railroad Administration 
has authority over the introduction of rail passenger operations onto 
the freight network. CSX also undertakes its own review and in some 
cases our policy may be more stringent and restrictive than federal 
guidelines. Among the critical issues we examine are train operations; 
integration between freight and passenger rail; grade crossing safety; 
passenger/pedestrian safety at station stops; and, derailment risk and 
intrusion detection.
    Second, any relationship with passenger rail services must give CSX 
the ability to effectively serve current customers and to meet the 
future demands of new and growing customers. This capacity issue is 
particularly critical in the Atlanta region, which is our busiest hub 
in the Southeast. CSX serves more than 200 Atlanta-area companies and 
moves over one million carloads of freight into and out of the region 
each year. Our primarily single-track lines in the region are at or 
near capacity today with our Atlanta terminal handling up to 120 trains 
daily. Commuter rail could further limit our capacity and force some of 
the freight we move back to the highways increasing the number of 
trucks on metropolitan roadways. This has the potential to be more 
harmful to the environment because railroads have a clear environmental 
advantage over trucks. Locomotives emit one-tenth the hydrocarbons and 
diesel particulates as trucks do, and each rail car carries the 
equivalent of approximately three trucks. When passenger trains squeeze 
out freight trains, more trucks are added to the highways and more 
pollutants are added to the atmosphere--an extremely important matter 
for regions such as this that are not in compliance with federal clean 
air standards.
    Capacity studies are critical to our ability to analyze a 
particular proposal. We need to understand current and future use, and 
we need to know whether specific lines are able to accommodate regular 
passenger service. If not, can those lines be expanded and improved to 
meet commuter needs. In some cases, such improvements and additions can 
be achieved and passenger rail can be accommodated. Studies, property 
acquisition (if needed) and construction have a high cost.
    CSX does not play a role in funding commuter operations. We are an 
investor-owned company, operating on private property that is 
maintained by private investment. We are not a public utility. As a 
result, we simply cannot ask our shareholders and freight customers to 
subsidize the cost of commuter rail operations. The commuter agency 
needs to pay the costs associated with obtaining operating and property 
rights as well as building and maintaining infrastructure associated 
with the passenger service. So putting a realistic estimate and funding 
package together is a critical early step. With advanced engineering 
almost anything is possible. The question becomes quite simply: How 
much does it cost and how much is it worth to those who will use it? 
Building and maintaining additional rail infrastructure--even assuming 
an existing right-of-way has room--can cost hundreds of millions of 
dollars. Communities must be realistic about funding needs when they 
set out to develop a passenger rail system. A proposed 16 mile-system 
in Orlando that we worked on recently, for example, would have cost in 
excess of $600 million. A 30-mile system in Bordentown, New Jersey that 
we were involved in is budgeted at approximately $700 million. In both 
of these cases we worked closely with the local, state and federal 
agencies to ensure safe, and compatible operations.
    These were very different systems than envisioned for Atlanta, but 
I use them as examples simply to illustrate that we can work 
successfully together to design solutions that meet the needs of all 
parties. However, as we found in both cases, unless safety, capacity, 
funding and timeframe expectations are realistic, a positive outcome 
cannot be achieved. We are working closely with GRTA to ensure they 
have access to information generated by our experience in these and 
other communities. The lessons learned are that commuter operations 
require considerable resources, cooperation and flexibility to achieve 
productive and workable solutions.
    The final matter that must be considered in a new passenger 
proposal from the railroad's perspective is liability. Although the 
likelihood of a catastrophic derailment is low, the potential does 
exist for a freight accident to occur simultaneously with the passing 
of a commuter train. The imposition of thousands of passengers into a 
freight rail corridor creates risks that do not exist today. Consistent 
with sound business practices, CSXT currently requires a minimum of $ 
500 million insurance coverage as a condition to any new use of its 
properties for passenger purposes.
    On another front, I understand that high-speed rail and possibly 
mag-lev are being considered in Georgia in addition to commuter rail 
options. My colleague Paul Reistrup, Vice President, Passenger 
Services, has been actively involved in discussions with Amtrak and 
other entities concerning these types of operations. As with commuter 
initiatives, we take a fact-based, analytical approach to high-speed 
rail, which presents some unique challenges of its own.
    Importantly, the greater the difference in the speed of trains, the 
more capacity is used up on a railroad. To illustrate the point, we all 
know what the term Sunday driving is all about and the havoc that a 
slow driver can cause on a busy road. Traffic always moves more 
smoothly if everyone is generally going the same speed. Freight lines 
are generally analogous to two lane state roads while high-speed lines 
need to be like super highways. We know that you can't turn a state 
road into an interstate by simply raising the speed limit.
    The super-elevation needed for high-speed passenger trains requires 
different engineering and significantly more maintenance than the track 
structures freight trains use. In addition, in the interest of public 
safety, all grade crossings need to be eliminated over tracks where 
trains operate above a designated speed threshold, as has been done on 
the Northeast Corridor. As a result, while every situation is unique, 
our basic proposition is that high-speed trains travelling above 90 MPH 
should be on separate tracks that are grade separated.
    In conclusion, we remain actively engaged with communities across 
our system in a fact-based approach to explore transportation options. 
Locally, we are committed to continuing our involvement in the studies 
and dialogue that have been initiated in Atlanta. I will be pleased to 
answer any questions you may have.

    Senator Cleland. Thank you very much, Mr. Crosby.
    Just a comment or two. Could you tell us a little bit about 
your experience with existing commuter operations on your 
network and whether they actually satisfy your core concerns of 
safety, capacity, indemnification and compensation?
    What is your experience with some existing systems that in 
your opinion work well?
    Mr. Crosby. As I said, we have recently worked with two 
startups and I assume your question really relates to the six 
other or the four other systems that we have up and running. 
Most of the systems that we have on our railroad other than the 
two I mentioned in Orlando and New Jersey were inherited 
systems. And by that, I mean they were systems that came to us 
from predecessor railroads or as a result of the time when our 
predecessor companies were involved in the passenger rail 
business.
    We are currently, quite honestly, playing catch up with 
many of those agencies in an effort to bring our relationships 
with those organizations to our current standard.
    I might use as an example Tri-Rail in south Florida, which 
is not--which was not a pre-existing situation. That is a 
situation where we actually sold our right-of-way and our track 
structure to the State of Florida. It was at the end of our 
line, it was a declining business base for us and it offered an 
opportunity for the state to match its needs for commuter 
operations with our declining business base and it seemed to be 
a good fit. And it has been a good fit. However, what has 
happened over time is that our freight business has grown 
unexpectedly, and the passenger business has flourished. And 
so, the State of Florida is today in the process of adding a 
third mainline to that track structure that they bought from us 
to accommodate both the freight needs of the state as well as 
the passenger needs.
    So to answer your question, we can get there, but it does 
take a great deal of work.
    Senator Cleland. Well, thank you very, very much.
    May I just introduce Craig Lewis. Craig, nice of you to 
come--Vice President of Corporate Affairs for Norfolk Southern. 
Thank you very much for coming.

        STATEMENT OF H. CRAIG LEWIS, VICE PRESIDENT OF 
        CORPORATE AFFAIRS, NORFOLK SOUTHERN CORPORATION

    Mr. Lewis. Senator, thank you, it is a pleasure to be here.
    Let me commend you for pulling us all together today. I 
think that the information that has been exchanged, the 
opportunity to interact with the people who are going to be the 
key players as things move forward in the Atlanta area has been 
extremely important and will be the keystone from which the 
relationships will be developed that will be crucial as we move 
forward in the next couple of months and years. So thank you 
for giving us this jump start to make this work.
    Senator Cleland. Thank you for being part of it.
    Mr. Lewis. We are also pleased to be here, of course, 
because Norfolk Southern and Georgia mean a great deal to each 
other, as I am sure you know. Our collection of lines touches 
virtually all of the corners of this state and the riches of 
Georgia's forests and your fields and mines and the factories 
literally fill dozens of our trains every day.
    Atlanta is one of the most important junctions in the 
21,000 miles of the Norfolk Southern system. As the hub of five 
of the important mainlines, it anchors the southern quadrant of 
our railroad. And the freight that comes from Atlanta and the 
state of Georgia is a meaningful part of the business of our 
company. And a comparable statement might also be made about 
what we think Norfolk Southern means to Georgia and to Atlanta, 
because every year, well over a million freight cars pass 
through the state on our rails. In Atlanta alone, half a 
million cars of freight begin or end their journey in the metro 
area. And in terms of our highways, this is the equivalent of 
two million or more trucks that are not on I-20 or I-85 or I-75 
every year.
    The 5,000 Norfolk Southern men and women who keep the 
trains rolling in Georgia add hundreds of millions of dollars 
to the state's economy. And, of course, the purchases that we 
make and the industrial development activities in which we are 
engaged, again, have a very substantial impact upon the tax 
base and the economy of the municipalities and of the state 
itself.
    Our fastest growing business, interestingly, is intermodal 
freight. This is the transportation of truck trailers and 
containers on trains over long distances. This business segment 
generates more revenue for our income statement now than any 
other commodity in Atlanta. Interestingly, our biggest customer 
for this our biggest business segment is Atlanta's own United 
Parcel Service. And I do not know what the new lanes to China 
are likely to mean to our railroad business, Senator, but I can 
tell you that we are certainly prepared to help you get to 
Jesup.
    [Applause.]
    Mr. Lewis. The public benefits of a vibrant rail system are 
enormous and all too often, we have been the quiet, unseen, 
unknown part of the consumer delivery service and that is why I 
want to take just a moment to focus on this point. Our freight 
trains, both the Norfolk Southern and the CSX, perform behind-
the-scenes deliveries of virtually all types of consumer 
products from new cars and trucks to food to California wines, 
building materials, packages, parcels, and the coal that is 
used to make the electricity in our power plants. Without us, 
the good life would not only be a lot more expensive, but the 
Interstates would be a lot more crowded.
    Despite the volume of freight moving in and around Atlanta 
and the critical importance of the heavy duty mainlines to our 
collective well-being though, there are possibilities that 
routes can be developed for passenger service and some very 
quickly. We are willing to pursue win-win partnerships with 
public agencies, with Steve and with the discussion with you 
and the other public officials in trying to identify where we 
can move forward in these regards.
    We subscribe to the same ground rules that you heard Steve 
articulate on behalf of CSX and these really are the principal 
components that we will look to measure as we move forward in 
our discussions with the public agencies.
    Passenger service on the heavily used mainlines, as Steve 
has said, can be problematic at times. But, passenger trains 
can be accommodated in certain instances after a great deal of 
study, work and hard analysis. It is important to appreciate, 
however, that new passenger rail proposals are not a low-cost, 
snap-of-the-fingers, overnight solution to commuter traffic 
congestion.
    As a practical matter, however, we know that freight and 
passenger service can co-exist because it has recently been 
done elsewhere in the United States. In the Pacific Northwest, 
in California, in Virginia, and as Steve mentioned, recently in 
New Jersey. And we believe that it may be quite possible to do 
it here in Atlanta as well.
    The key, as we see it, and the goal, is to commit ourselves 
a new partnership. Where public interests promote not only the 
movement of people, but the goods they use as well. A 
partnership in which each of us can see a better day, and we at 
Norfolk Southern are committed to working in that spirit with 
all of you here in Atlanta and in Georgia.
    [Applause.]
    [The prepared statement of Mr. Lewis follows:]

   Prepared Statement of H. Craig Lewis, Vice President of Corporate 
                 Affairs, Norfolk Southern Corporation

    I am Craig Lewis, Vice President, Corporate Affairs for Norfolk 
Southern Corporation. Our group takes principal responsibility for new 
passenger service proposals within our geographical territory.
    We appreciate the opportunity to participate in this hearing 
because Norfolk Southern and Georgia mean a lot to each other. Our 
spider web of lines touches virtually every corner of the state. The 
riches of Georgia's forests, fields, mines and factories fill dozens of 
our trains headed in all directions everyday.
    Atlanta is one of the most important junctions in the 21,000 mile 
Norfolk Southern system. As the hub of five important mainlines, it 
anchors the southern quadrant of our railroad. The freight that comes 
from Atlanta's manufacturing, distribution and consuming markets 
constitute a meaningful part of Norfolk Southern's business.
    A comparable statement may be made about what Norfolk Southern 
means to Georgia and to Atlanta. Every year well over a million freight 
cars pass through the state on our rails. In Atlanta alone, a half-
million cars of freight begin or end their journey in the metro area. 
That's the equivalent of two million or more trucks that aren't on I-20 
or I-85 or I-75.
    The 5000 Norfolk Southern men and women who keep the trains rolling 
in Georgia add hundreds of millions of dollars to the state's economy 
each year. And NS spends hundreds of millions more on goods and 
services in the Peach State, including construction of new facilities 
to handle our growing freight business and maintenance of our track to 
keep it safe and in good repair.
    Further, our industrial development group helps industries--freight 
generating, tax paying, job-providing industries--to expand their 
factories or build new ones. This is an activity that pumps hundreds 
more millions into the Georgia economy.
    Our fastest growing business is intermodal freight--the transport 
of truck trailers and containers on trains over long distances. This 
freight generates more revenue for our income statement than any other 
commodity in Atlanta. Our biggest customer of this, our biggest 
business segment, is Atlanta's own United Parcel Service.
    The public benefits of a vibrant rail freight system are enormous. 
Freight trains perform behind-the-scenes delivery of new cars and 
trucks, food and drink, building materials, packages, and parcels and 
coal to make electricity. Without us, the good life would be a lot more 
expensive and the Interstates would be a lot more crowded.
    Despite the volume of freight moving in and around Atlanta, and the 
critical importance of the heavy-duty main lines to our collective well 
being, there are possibilities that routes can be developed for 
passenger service fairly quickly. We are willing to pursue win-win 
partnerships with public agencies on these lines.
    There are certain ground rules we need to follow where new 
passenger service is concerned:
    Safety--must be enhanced
    Liability and Indemnity--NS cannot be exposed to any new or 
additional liability by the presence of passenger trains.
    Capacity--the presence of passenger trains cannot diminish the 
capacity of a line to handle its existing freight service and must 
provide for anticipated freight growth.
    Compensation--NS expects to be fairly compensated for the use of 
its track and right-of-way.
    Passenger service on the heavily-used mainlines is problematic and 
figuring out how, if at all, passenger trains can be accommodated 
requires a great deal of work and analysis. It is important to 
appreciate that new passenger rail proposals are not a low cost, snap 
your fingers, overnight solution to commuter traffic congestion. As a 
practical matter, however, we know that freight and new passenger 
service can co-exist because it's recently been done elsewhere in the 
U.S.--in the Pacific Northwest, California, Virginia, New Jersey. It 
may be possible to do it here in the Atlanta area as well.
    Regardless of the route used, starting new passenger service is a 
difficult and expensive proposition (although not nearly as expensive 
as new highway construction). If the resources are available, and if 
the right routes can be identified, Norfolk Southern is prepared to 
move forward.
    The key, and the goal, is to commit ourselves to a new partnership. 
Where public interests promote the movement of people, and the goods 
they use, each of us can see a better day ahead.

    Senator Cleland. Thank you very much for a very positive 
and encouraging statement. Both of you, thank you so much.
    I might say, Mr. Lewis, I was fascinated by your statements 
for some successes. Do you have an example of something you 
would like to articulate as the essence of success in this 
regard? Is it out in the Pacific Northwest or somewhere else?
    Mr. Lewis. Well, there is a great example out in the 
Pacific Northwest that I think we all need to look to, in which 
there was a partnership among the two freight railroads and 
Amtrak and the commuter agencies.
    But let me talk about one in which we have some personal 
experience within just the last year and a half. And that is 
the Bordentown transaction to which Steve Crosby alluded. This 
is in New Jersey. This is a recent endeavor in which the New 
Jersey transit agency sought to institute new rail service 
where none had existed before, and it appeared as if after 
years of work and planning and the investment of a great deal 
of time and money, that they had come to an absolute dead end 
and that the project was not possible of fulfillment.
    We went back--and we as CSX and Norfolk Southern--went back 
to the drawing board with the transportation commissioner and 
with a little bit of creativity and with a recognition that the 
impacts on freight rail in terms of moving goods would be 
affected beyond just the corridors of this 31-mile passenger 
project, we put together a program that not only enabled the 
New Jersey Transportation Commission to move forward with its 
new passenger start, but to provide a public/private 
partnership for the improvement of rail freight infrastructure 
in other areas of the state.
    So I think that there is a model there that we can all 
learn from and build upon that really reflects a new attitude 
toward the need and the opportunities that can arise from a 
public/private interaction.
    Senator Cleland. Thank you very much.
    I would just like to say if we proceed with expanding rail 
service in Georgia, I want you both to know that I am committed 
to ensuring that such a partnership is mutually beneficial for 
passengers and for freight railroads. Norfolk Southern and CSX 
have indicated--both of you have indicated--a willingness to 
negotiate with our state officials and for that, I am very, 
very grateful.
    In the future as you look at this, what areas do you think 
might be major challenge areas for reaching agreement? What are 
the big challenges you see in this?
    Mr. Lewis. So much of this is new for all of us, Senator, 
not only for those of us in the freight railroad business, but 
for everyone concerned with the development of the movement of 
passengers and commuters in urban areas. We need, first, to 
commit ourselves to open, candid communication. I think one of 
the biggest concerns that I have encountered is the fear that 
one side or another is not being honest, is trying to gain an 
advantage somehow or another, and our first challenge is really 
in a professional commitment to improving circumstances for all 
who are affected in moving ahead with that kind of openness and 
commitment for the future.
    The rest of these things can fall in place. We heard George 
Warrington say that it is a matter of money. This is expensive, 
we need to appreciate that. There will be instances in which 
the capacity requirements of the freight railroads simply 
cannot accommodate a desired passenger opportunity, but if we 
have trust and confidence in each other, we will accept those 
circumstances for the reality that they are, and then find ways 
to solve them.
    And I do not think--I have not seen any situation that 
cannot lend itself to a solution somewhere, somehow, if we are 
prepared to understand that each of us has obligations that 
have to be met in terms of the objectives from our commitment.
    Senator Cleland. Well, I want to thank you both for being 
here and for your forthcoming, positive attitude and 
willingness to cooperate. It means an awful lot to all of us 
because this potential that we have here could never be done 
without you.
    Thank you very much.
    Mr. Roberts, just a question. The cost of the Athens to 
Atlanta line along I-85 and Georgia 316, some have estimated 
the cost as over $1.5 billion and that express buses running 
along a similar route would cost about $164 million, or about 
one-tenth the cost of trains. Considering the cost, what is 
your take on rail? Do you still like rail in that regard? You 
saw this probably in Virginia.
    Mr. Roberts. That is a rather dramatic difference. First of 
all, let me say, you cannot have too many Steves in a program. 
The difference that you have mentioned is something that we are 
going to work hard to minimize. That $1.5 billion expense 
actually is an alternative that shares the median of 316 and I-
85. We have several other options that depend on some new 
alignment and some that are entirely expected to encompass 
investments in the existing rail right-of-way that are 
substantially less.
    I think that part of what we have been examining in our 
alternatives analysis does speak to markets that trains do not 
serve. And so, as has been mentioned earlier, I think there is 
a very high likelihood that there will be buses running and 
there will be trains running where we can accomplish it, as I 
think Craig Lewis just spoke to.
    Going to Chattanooga on a train is going to be the toughest 
possible investment to accomplish. But perhaps most of these 
other corridors, there will be opportunities and going to 
Athens, I am confident that--the Chairman of the Barrow County 
Board made a point that is going to make rail much more 
attractive, which is that the revitalization of all these 
communities along the railroad to serve the smart-growth 
initiatives, I know you have been a part of, is going to make 
this the most likely success.
    I favor rail as an option, I am here because I am a rail 
guy, but I do have a history of riding buses and I do know that 
they can succeed and succeed quite well where they are provided 
express service opportunities.
    Senator Cleland. Well, thank you very much.
    I want to thank all of our panelists for a marvelous 
discussion today. Let us give them all a round of applause.
    [Applause.]
    Senator Cleland. The hearing is adjourned. Thank you.
    [Whereupon, at 4:49 p.m., the Committee was adjourned.]

                                Appendix

      Response to Written Questions Submitted by Hon. Max Cleland 
                          to Rodney E. Slater

    Question 1. I was very pleased when you recently designated 
extensions to the Gulf Coast and Southeast High-Speed Rail Corridors 
which directly impact my state of Georgia. Specifically you announced a 
new route between Birmingham and Atlanta that links the Gulf Coast and 
Southeast Corridors and another new route from Atlanta and Macon to 
Savannah and Jacksonville. In terms of federal funding, what do these 
designations mean for Georgia?
    Answer. Corridors designated as high-speed under Section 1103(c) of 
TEA-21 are eligible for funding authorized under that section--
specifically $5.25 million annually in contract authority from the 
Highway Trust Fund and $15 million authorized to be appropriated 
annually from the General Fund of the Treasury for the elimination of 
hazards of railroad-highway crossings. These corridors would also be 
eligible for funding under the proposed High-Speed Rail Investment Act, 
which would make $1 billion per year available for capital investments 
in high-speed corridors.
    Question 2. Could you please tell us the status of the rail 
projects authorized in TEA-21, specifically the Athens to Atlanta 
transportation corridor, the Atlanta-Griffin-Macon corridor, and the 
multi-modal passenger terminal in Atlanta?
    Answer.
  <bullet> Three projects were authorized in TEA-21: Atlanta-Athens 
        commuter rail, Atlanta-Griffin-Macon commuter rail, and the 
        South Dekalb-Lindbergh corridor. Since each of these proposed 
        projects have not yet completed local planning studies, they 
        have not yet been evaluated and rated based on the New Starts 
        criteria. The status of the Atlanta-Athens commuter rail, the 
        Atlanta-Griffin-Macon Line, and the multimodal passenger 
        terminal is described below:

  <bullet> Atlanta-Athens Commuter Rail: The Georgia Rail Passenger 
        Authority (GRPA) is conducting a Major Investment Study (MIS) 
        to examine the feasibility of various transportation 
        improvements in the 70-mile transportation corridor between 
        downtown Atlanta and downtown Athens, Georgia. The alternatives 
        under evaluation include the no-build option, Transportation 
        Systems Management (TSM) options, including commuter bus 
        service on existing roads, commuter rail service on the 
        existing CSX line between Athens and Atlanta, as well as 
        potential rail alignments outside the CSX corridor. The GRPA 
        has submitted a preliminary draft of the MIS for review by the 
        federal agencies, the Georgia Department of Transportation 
        (GDOT), the Atlanta Regional Commission (ARC), the Athens-
        Clarke Metropolitan Planning Organization, and the transit 
        operators in the Atlanta and Athens areas. Both the MIS and the 
        Draft Environmental Impact Study (EIS) are scheduled for 
        completion in June. An additional analysis of ridership, 
        capital and operating costs and financing will be conducted as 
        part of the MIS. In addition, study sponsors are working with 
        CSX to address unresolved issues on the use of CSX right-of-way 
        in the proposed corridor.

  <bullet> Atlanta-Griffin-Macon line: GRPA, in coordination with the 
        Georgia Department of Transportation (GDOT), is advancing the 
        Statewide Transportation Plan with its program of combined 
        intercity/commuter rail service in Georgia. The plan calls for 
        commuter rail service to Griffin and intercity services beyond 
        to Macon, Georgia. The proposed line will serve numerous 
        communities in seven counties (Bibb, Monroe, Lamar, Spalding, 
        Henry, Clayton, and Fulton). The GRPA has undertaken a study to 
        update the Statewide Transportation Plan in preparation for 
        completing a Major Investment Study (MIS) in the corridor. Both 
        the MIS and the Draft EIS are scheduled for completion in June. 
        Plans for the initial service outline the utilization of over 
        102 miles of an existing Norfolk Southern commercial freight 
        line. Total capital cost for the initial service from Atlanta-
        Griffin-Macon is estimated at $163.12 million. The Georgia 
        General Assembly has appropriated approximately $4 million to 
        continue with the MIS and follow-up activities.

  <bullet> Multi-Modal Passenger Terminal: The original Environmental 
        Assessment has been updated to reflect changing conditions in 
        conjunction with the study of the Atlanta-Griffin-Macon line 
        and the update has been cleared through FTA. The Multi-Modal 
        Passenger Terminal will be the downtown terminus station of the 
        proposed Atlanta-Griffin-Macon line.

    Question 3. In your testimony you mentioned TEA-21's Maglev 
Deployment Program. This is a good program and one that the region is 
interested in. Can you tell us where DOT is in the process and what 
your projections are for the future of the program?
    Answer. In January 2001, I selected the projects proposed for the 
Pittsburgh metropolitan area and between Baltimore and Washington to 
proceed to the next level of this program. This was a difficult 
decision because each of the corridors had proposed projects that met 
important transportation needs. FRA will make available to each of the 
corridors not selected, approximately $900,000 in 2001 to further 
refine their plans and to help advance the project definitions to the 
point they might be funded under other transportation programs.
    Question 4. It is my understanding that the state may use federal 
funds provided through Federal Transit Administration and Federal 
Highway Administration formula grants to Georgia to continue to study 
the possibility of new rail service. Can you discuss the money provided 
through these programs and what it may be used for?
    Answer.
  <bullet> Federal Transit Administration (FTA) funds include 
        Metropolitan and Statewide Planning grants, as well as 
        Urbanized Area Formula program funds.

  <bullet> Federal Highway Administration (FHWA) funds include 
        Metropolitan Planning (PL) and State Planning and Research 
        (SPR) funds.

  <bullet> These funds can be used for planning, environmental studies, 
        and other preparatory analyses.

  <bullet> Funds are programmed through the local Metropolitan Planning 
        Organization (Atlanta Regional Commission) and the State DOT 
        (Georgia DOT).

  <bullet> Funds are apportioned by formula in each of these programs, 
        and are allocated at local option to whatever planning studies 
        are desired, although the metropolitan planning funds from FHWA 
        and FTA generally go to support the basic process of developing 
        the region's Long Range Transportation Plan and Transportation 
        Improvement Program, and the SPR funds are limited to planning 
        activities that are performed within the context of the 
        statewide transportation planning process. Individual model 
        plans are not eligible unless they are developed as part of the 
        statewide transportation planning process.

    Question 5. While the formula funds are flexible and can be used 
for study and planning purposes, at what point will the state need to 
go back to the federal DOT and receive approval for a large commuter 
rail project? Can you describe the process and what types of funds 
would be available at that stage of the project?
    Answer.
  <bullet> The Federal Transit Administration (FTA) program that could 
        provide funding for a large commuter rail system is the Capital 
        Investment Program (commonly known as New Starts Program) 
        authorized under 49 U.S.C. 5309. Other federal funding sources, 
        such as FHWA flexible funds, may also be used for construction 
        of a large commuter rail project. All projects must have NEPA 
        approval and all appropriate environmental studies completed 
        and adopted by the regional MPO into the region's Long Range 
        Plan prior to approval for funding. If New Starts funds are 
        requested, the process outlined below applies to project 
        approvals for funding:

  <bullet> TEA-21 requires that FTA rate each candidate New Starts 
        project as either Highly Recommended, Recommended, or Not 
        Recommended in the Annual New Starts Report submitted to 
        Congress and at several key milestones in the project's 
        development. These overall project ratings are based on the 
        following criteria prescribed by TEA-21:
Project Justification:
    --Mobility Improvements
    --Environmental Benefits
    --Operating Efficiencies
    --Cost Effectiveness
    --Other Factors
    --Transit Supportive Existing Land Use and Future Patterns
Local Financial Commitment:
    --Local Financial Commitment (measuring the strength of the 
project's capital and operating financial plans)

  <bullet> FTA analyzes the information submitted by project sponsors 
        and assigns a rating of high, medium, or low to individual 
        measures, then produces summary justification and finance 
        ratings for each project.

  <bullet> Project justification and finance ratings are considered to 
        determine overall project ratings according to the following 
        decision rule:

    Highly Recommended--Projects must be rated at least medium-high for 
both project justification and finance;
    Recommended--Projects must be rated at least medium for both 
project justification and finance;
    Not Recommended--Projects not rated at least medium in both 
justification and finance will be rated as not recommended.

  <bullet> Projects are not approved to initiate key milestones in 
        project development (preliminary engineering, final design) nor 
        approved to execute a full funding grant agreement unless the 
        project has been rated Highly Recommended or Recommended by 
        FTA.

    Question 6. Already there are more transit expansions and additions 
authorized for funding in the so-called New Starts program than there 
are guaranteed federal funds to pay for them. Do you think new commuter 
rail programs will all have to be financed by ``flexing'' highway 
program funds, or is there any room at all to pay for commuter rail 
from the New Starts program? Do you think the next Administration will 
have to address the problem in New Starts funding when TEA-21 is re-
authorized?
    Answer.
  <bullet> High Demand for New Starts Funds: FTA's New Starts program 
        currently includes 28 projects with executed or pending Full 
        Funding Grant Agreements and 42 projects in either Final Design 
        or Preliminary Engineering (PE). Note that 14 of the 42 
        projects (33 percent) in Final Design and PE are commuter rail 
        projects. In addition, FTA is tracking nearly 100 local 
        planning studies that are seriously considering potential new 
        starts transit investments.

  <bullet> Commuter Rail Can Pursue Federal Flexible Funds as well as 
        New Starts Funds: Local project sponsors can consider a variety 
        of local, state and federal funding sources for design and 
        construction of proposed commuter rail projects. In fact, the 
        most successful New Starts projects typically are funded 
        through a mix of federal flexible, New Starts, and non-federal 
        funds. New Starts projects now average approximately 50 percent 
        of total cost funded from the New Starts program, even though 
        the statute allows a federal share as high as 80 percent.

  <bullet> New Starts Funding Will Likely be Addressed in the Next 
        Reauthorization: Given the continued high demand and limited 
        supply of New Starts funding available, it is likely that the 
        need for additional funding will be considered in the next 
        reauthorization.

    Question 7. Please discuss some of your experiences with the 
development of large commuter rail projects. Specifically, what are the 
most important issues that metropolitan Atlanta should focus on as the 
community considers options for future transportation alternatives?
    Answer.

  <bullet> The Federal Transit Administration (FTA) has provided 
        technical support and funded the construction of commuter rail 
        projects in cities throughout the United States. Based upon our 
        experience with major capital investments, FTA encourages 
        detailed project planning to identify and resolve environmental 
        and institutional issues early in the project development 
        process, and insure that there is local financial support for 
        both construction of the proposed system as well as long-term 
        operations. Additionally, the project planning and public 
        outreach efforts should be used to build support for the 
        project from local elected officials, citizens, and the 
        business community. Below is a summary of outreach activities 
        and guidance provided by FTA to assist project sponsors 
        undertaking major capital investments:

  <bullet> Use the best information available to determine a preferred 
        investment strategy: FTA provides guidance for local project 
        sponsors on the New Starts rating process in the Technical 
        Guidance on the Section 5309 New Starts Criteria, last updated 
        by the FTA Office of Planning in July 2000. In addition, FTA 
        offers numerous training Workshops throughout the year, and 
        shares information with local project sponsors through the New 
        Starts Roundtable.

  <bullet> Develop a Good Financial Plan: In June 2000, FTA published 
        and distributed Guidance for Transit Financial Plans in order 
        to provide local project sponsors with a consistent framework 
        for developing and reporting financial plans. FTA also provides 
        constructive feedback to local project sponsors on what can be 
        done to improve project justification and finance ratings.

  <bullet> Gain Local Financial Commitment: One of the key lessons 
        learned is the significance of demonstrating local financial 
        commitment. FTA requires firm commitment of local funding 
        sources, particularly in the later stages of project 
        development. FTA expects to see local actions, such as 
        referenda or state legislative action completed before a 
        project enters final design.

  <bullet> Demonstrate Project Readiness and Technical Capability: 
        Another lesson learned is that project readiness and technical 
        capability must be ensured before FTA can propose projects for 
        full funding grant agreements. In addition to achieving a 
        rating of Highly Recommended or Recommended, local project 
        sponsors must demonstrate to FTA that there are no outstanding 
        issues related to completion of environmental requirements, 
        project design and firm cost estimates, right of way or real 
        estate, project management and technical capability, local 
        political or institutional issues, and compliance with other 
        federal requirements.

  <bullet> Develop Good Cost Estimates with Adequate Contingency: Full 
        funding grant agreements represent a commitment by the federal 
        government. But they also commit the recipient to complete a 
        specified project on schedule and within budget, and the 
        agreement places a cap on federal funds committed to the New 
        Starts project. Increases in project cost or delays in the 
        schedule are the responsibility of the local project sponsor. 
        Therefore, it is in the recipients best interest to develop 
        firm cost estimates and schedules, solid local financial 
        commitments, and comprehensive project management plans before 
        pursuing a full funding grant agreement.

    Question 8. It appears that commuter rail programs are seen as 
transit operations and fall under the guidance of the Federal Transit 
Administration, while regional intercity service is the responsibility 
of the Federal Railroad Administration. However, there appears to be 
many operational and efficiency benefits of operating both of these 
entities as a single program. What do you think can or should be done 
to improve coordination between the FTA and FRA? Do you think there 
would be a benefit to establishing a single office of commuter and 
intercity passenger rail within either the FRA or FTA?
    Answer.

  <bullet> FTA and FRA already work quite closely together. For 
        example, they recently issued a joint policy statement on 
        shared use of track for the situation where local light rail 
        service is provided in or on railroad rights of way. In 
        addition, our Departmental efforts continue to look for further 
        opportunities for FTA and FRA to work together on common 
        issues. Further, the Federal Highway Administration (FHWA) is 
        also an important partner within the Department for light rail 
        and commuter rail operations.

  <bullet> FRA's primary role is safety involving rail operations, 
        while FTA's role is financial assistance. Thus, FRA is 
        responsible for rail safety issues, even for commuter rail 
        systems operated with FTA capital assistance. In addition, FRA 
        has limited financial resources to assist these agencies. FHWA 
        is responsible for funding and approval of highway/rail grade 
        crossing safety improvements, such as signs, flashing light 
        signals, and other grade crossing infrastructure improvements.

  <bullet> To date, there are no state or local agencies operating both 
        commuter and intercity regional rail. Further, Congress has not 
        provided any funding for state or local agencies to establish 
        intercity operations. The present arrangement, however, would 
        not prohibit a single state or local agency from operating both 
        types of service. For example, a state or states could 
        establish an authority to do both commuter and intercity 
        service. It would be governed by FRA for safety purposes, and 
        could receive FTA financial assistance for its commuter 
        operations, while financing any non-commuter operations 
        locally. In fact, this is the arrangement for all of the very 
        successful commuter agencies in operation today.

    Question 9. In your view, how can the Congress assist the U.S. 
Department of Transportation in expediting the development of regional 
passenger rail service?
    Answer. Through TEA-21, Congress has enhanced the states' 
flexibility to invest federal transportation funds in ways that best 
meet their individual transportation needs. The Clinton Administration 
believes that providing Amtrak with the capital it needs, enacting the 
High-Speed Rail Investment Act, and continuing to support FRA and FHWA 
initiatives to address next generation high-speed technology, train 
control, and grade crossing safety in designated high-speed rail 
corridors will further expedite the development of regional passenger 
rail service.
    Question 10. What do you think the Congress should do to assist the 
states in developing viable commuter and intercity passenger rail 
service?
    Answer.

  <bullet> Continued support of the existing funding sources will 
        assist the states in developing commuter and intercity 
        passenger rail services. The FTA New Starts program is likely 
        to be the largest source of potential discretionary funding for 
        new commuter rail systems. Support for the New Starts program 
        includes continuing to support the New Starts project 
        development process, which includes a requirement for 
        evaluation of potential projects for their justification, and 
        especially for the local financial commitment to the projects.

    In my view, Congress could consider expanding the eligibility of 
flexible Federal Aid Highway program funds to include intercity rail 
passenger service.

      Response to Written Questions Submitted by Hon. Max Cleland 
                          to Jolene Molitoris

    Question 1. What do you see as the Federal Railroad 
Administration's role in assisting the development of regional commuter 
and intercity passenger rail service?
    Answer. FRA sees its role as partner with the state and regional 
authorities and Amtrak in the development of safe, efficient and cost-
effective passenger rail service. FRA has been the lead agency for 
planning and conducting environmental studies for high-speed rail and 
commuter rail systems on the existing rail system from Boston to 
Charlotte. FRA will assure that the efforts south of Charlotte will 
benefit from the expertise that FRA has developed and assure the 
coordination and consistency of these efforts. FRA will also serve as a 
resource for planners in Georgia in areas of safety, operations, and 
program implementation.
    Question 2. I worked to get funding in the Transportation 
Appropriations bill to extend the Southeast High-Speed Rail Corridor 
study from its terminus in Charlotte, North Carolina to Atlanta and 
Macon. I'm pleased to say that the conference report provides $200,000 
to the Federal Railroad Administration for this purpose. Please tell us 
what kinds of information we can expect from this study. When can we 
expect to have this information? In addition, I have heard that there 
is a 50-50 match requirement for this earmark. This study extension 
will benefit three states--Georgia, South Carolina and North Carolina. 
Am I correct that Georgia will be required to contribute only a part of 
the match? Can Georgia use non-federal funds allocated to a similar 
project for its part of the match?
    Answer. Developing improved passenger rail service on existing 
railroad infrastructure is about building partnerships. FRA has found 
that the development of detailed transportation plans for the corridor 
in question is an important aid to the development of these 
partnerships. The studies will analyze existing rail operations, 
project future rail operations, identify the infrastructure necessary 
to meet all future rail users needs, identify priorities for 
investments, and estimate costs and benefits.
    Given the detail and the many partners that are involved, these 
studies often take about one year to complete. With regard to the match 
requirement, FRA believes that Georgia and its state partners in the 
development of the Southeast High-Speed Rail Corridor must consult on 
the ways to allocate the non-federal share of this and other planning 
efforts. Non-federal funds that the states plan to spend in this area 
for planning and engineering this rail corridor may be used for 
matching purposes, and I understand that when considered in combination 
with non-federal funds for a commuter rail study, there are sufficient 
funds for the match.
    Question 3. In your testimony you talked about the new railroad 
loan guarantee program at the FRA, the Railroad Rehabilitation and 
Improvement Financing Program. Would you be able to tell us what 
Georgia rail projects might be eligible?
    Answer. The Railroad Rehabilitation and Improvement Financing 
Program (RRIF) could be an important tool in developing an innovative 
financing package to improve rail passenger service in Georgia. FRA's 
Office of Railroad Development is prepared to meet with appropriate 
officials from Georgia to discuss the opportunities created by this 
program.
    Under RRIF, the Secretary may provide direct loans and loan 
guarantees for terms of up to 25 years. Eligible applicants include 
state and local governments, government sponsored authorities and 
corporations, railroads, and joint ventures that include at least one 
railroad. RRIF funding may be used to acquire, improve, or rehabilitate 
intermodal or rail equipment or facilities, including track, components 
of track, bridges, yards, buildings, and shops; to refinance existing 
debt incurred for the previous purposes; and to develop and establish 
new intermodal or railroad facilities. There is a statutory maximum 
amount of outstanding unpaid principal at any point in time of $3.5 
billion. Of this, $2.5 billion is available for projects such as we are 
discussing today.
    Question 4. There is a fundamental demand of the general public 
when it comes to transportation, whether it be by road, air or rail and 
that is that it has to be safe, efficient and reliable. Where in the 
U.S. do you believe there is a good model for Georgia to go to in order 
to fashion a rail corridor that delivers on the all-important 
requirement of safety? Also, by virtue of the fact that rail stops 
within and travels through several municipal areas on its way to its 
final destination, it has an impact on communities' land use and 
redevelopment. I don't have to tell you that individual states and 
cities have their own definition of what success is within their own 
boundaries. Given that intercity rail service must be a seamless 
operation that integrates many states, counties and cities, how have 
you dealt with this multi-jurisdictional dynamic in the past? Utilizing 
the knowledge gained from lessons learned, what strategies or efforts 
in this regard are you going to pursue in the future? Do you have any 
specific advice for Georgia in this regard?
    Answer. The important thing is to develop a good plan for each rail 
corridor to determine what improvements are required to meet all 
intercity, commuter and freight needs. FRA has found that states such 
as Virginia, have successfully used such plans to develop 
implementation strategies and funding partnerships that make improved 
passenger rail service a reality. FRA, working with the other modes of 
the Department, is prepared to help the transportation planning 
agencies in Georgia undertake this effort.
    Question 5. Does the FRA have the resources needed to properly 
support the development of regional commuter and intercity passenger 
rail service? If not, what additional resources or tools do you need?
    Answer. FRA, working with the other agencies of the Department of 
Transportation, is prepared to actively support the development of 
passenger rail service, both commuter and intercity, in Georgia today. 
Future events, such as the hoped-for enactment of the High-Speed Rail 
Investment Act, may require additional resources.
    Question 6. What do you believe the Congress should do to assist 
the states in developing viable commuter and intercity passenger rail 
service?
    Answer. Continued support of the existing funding sources will 
assist the states in developing commuter and intercity passenger rail 
services. The FTA New Starts program is likely to be the largest source 
of potential discretionary funding for new commuter rail systems. 
Support for the New Starts program includes continuing to support the 
New Starts project development process, which includes a requirement 
for evaluation of potential projects for their justification, and 
especially for the local financial commitment to the projects.
    In my view, Congress could consider expanding the eligibility of 
flexible Federal Aid Highway program funds to include intercity rail 
passenger service.

      Response to Written Questions Submitted by Hon. Max Cleland 
                          to George Warrington

    Question 1. What do you believe the State of Georgia needs to be 
doing at this time to improve or increase intercity rail passenger 
service?
    Answer. Three critical steps are required to progress the state's 
ambitious passenger rail program. First, of course, is funding. The 
state's $1.9 billion intercity and commuter rail plan depends on a 
significant funding commitment by the federal government. To date, that 
commitment does not exist. It is for this reason that Amtrak, Georgia, 
and so many public officials around this country are supporting 
enactment of the High-Speed Rail Investment Act, which would create an 
80:20 Amtrak/state matching program to develop new high-speed rail 
corridors.
    Second, there must be a commitment from the freight railroad 
owners--in this case the Norfolk Southern Railroad and CSX 
Transportation--to work with the state and with Amtrak to upgrade the 
speeds and capacity of the rail lines to facilitate growth in passenger 
rail service. This can be a win/win for the freights, with significant 
public investment in their lines to improve both freight and passenger 
rail service.
    Third, on a practical level, the state needs to commit to 
construction of the new Multimodal Passenger Terminal in Atlanta. This 
facility is the lynchpin for new intercity passenger and commuter rail 
service. A commitment to build the facility will be a clear signal that 
Georgia plans a long-term commitment to passenger rail.
    Question 2. What is the timetable for the completion of the 
ridership studies now underway? What is the timetable for new service 
if merited by the ridership studies?
    Answer. Amtrak, as a subcontractor to Georgia Rail Consultants and 
the Department of Transportation, expects to complete its 
infrastructure and ridership analyses of the Atlanta-Macon-Jesup-
Jacksonville during the summer of 2001. Georgia DOT is undertaking 
additional state-wide analyses.
    Question 3. What do you see as the biggest obstacle to a viable 
passenger rail system in this country?
    Answer. The long and simple answer is funding. There is very strong 
nation-wide support for upgrading existing rail lines to permit fast, 
competitive, safe and reliable passenger rail service. Indeed, the 
HSRIA, which would fund these upgrades, has been endorsed by the 
National Governors Association, major environmental organizations, the 
American Road & Transportation Builders Association, and dozens of 
other planning and urban development organizations. Without a federal 
(or Amtrak) funding partner, passenger rail service will not grow 
significantly or achieve its vast potential in helping to address the 
nation's transportation and congestion challenges.
    Question 4. What do you see as the Federal Railroad 
Administration's role in assisting the development of regional commuter 
and intercity passenger rail service?
    Answer. The FRA can play a leadership role in several areas. First, 
it has been the nation's advocate on improving rail safety, 
particularly regarding at-grade crossings. Some 500 people lose their 
lives each year at grade crossings. There must be a concerted federal 
effort to improving the safety of these crossings. Second, FRA should 
continue to fund high-speed rail planning efforts. Lastly, FRA should 
continue to take the lead in technology developments, which include new 
signal systems and new-technology locomotives.
    Question 5. Across the country, automobile use has been growing at 
a rate four times faster than the driving-age population. Trips are 
getting more frequent and longer, while vehicle occupancy is going 
down. Today's hearing is looking at rail as one alternative to the 
auto. What do you believe motivates a person to give up driving and 
take the train?
    Answer. Travelers will change modes only if they are not overly 
inconvenienced. To replace a car with public transportation, there must 
be frequent, trip-time competitive, and reliable alternatives. For a 
high-speed rail corridor, this means multiple daily round-trip trains, 
high on-time-performance, and a comfortable ride. In addition, there 
must be seamless connectivity at train stations. It does no good to 
arrive at the station and then have no way to get to the final 
destination. This is one reason that the proposed Multimodal Passenger 
Terminal in Atlanta is so important. It will bring together intercity 
and commuter rail, bus, taxis and MARTA all at a single location. With 
this in place to make access to a traveler's final destination easy, 
travelers will embrace Georgia's planned commuter and intercity rail 
systems.
    Question 6. Rail seems to be in the midst of a renaissance. More 
and more Americans seem to be leaving their cars and opting not to fly 
in order to once again ride the rails. Do you have an explanation for 
this recent return to the rails?
    Answer. Passenger rail can provide a reliable and safe alternative 
to the congestion that is clogging the highways and airports. With 
travelers spending more and more hours each week stuck in traffic, 
transportation has become a major quality-of-life issue. Passenger rail 
can significantly enhance quality-of-life and this is a major reason it 
is being embraced around the nation. Amtrak ridership is at record 
levels, as is ridership on the nation's commuter rail systems.
    Question 7. Amtrak's Acela Express is the nation's first high-speed 
``bullet train'' and operates in the Northeast. Is Amtrak's high-speed 
service going to be limited to cities along the Northeast or will other 
parts of the country, including the Southeast, be able to look forward 
to similar alternative forms of transportation?
    Answer. Amtrak is working with some 36 states to develop new 
passenger rail service at both conventional and high-speeds. Major 
efforts are underway to develop high-speed rail along the Atlantic and 
Gulf Coast states, in Florida, along corridors in the nine-state 
Midwest Regional Rail Initiative, California and in the Pacific 
Northwest.
    For example, Amtrak, the states of Washington and Oregon, and their 
freight partners have committed more than $590 million in track and 
signal upgrades, train equipment, and station improvements on the 
Pacific Northwest Rail Corridor. In addition, Amtrak rebranded the 
service as Amtrak Cascades, featuring new custom-built Talgo trains 
with tilt technology and improved customer service and amenities. The 
new Talgo trainsets replaced the older and slower trains that Amtrak 
had been running. In California, Amtrak has embarked upon a major 
community-based planning initiative in cooperation with local elected 
officials, Caltrans, the owners of the infrastructure (freight 
railroads) and the federal railroad administration. This effort will 
establish corridor goals for each existing and potential corridor in 
California. It will also identify and prioritize specific projects to 
increase train service, reliability and speed on existing and potential 
intercity corridors in California.
    Construction work is underway in several other areas of the country 
on new high-speed regional systems. Amtrak is in the process of 
procuring non-electric high-speed trains that would operate in the 
Midwest, and is refurbishing additional turbine powered trains to 
operate in upstate New York.
    Amtrak submits a quarterly update to Congress that summarizes the 
exciting work underway around the nation in high-speed rail and I would 
ask that the most recent update be included in the record.
    [See attachments titled America's High-Speed Rail Program, dated 
July 15, 2000 and January 15, 2001]*
---------------------------------------------------------------------------
    * The attachments referred to were not available at time this 
hearing went to press.
---------------------------------------------------------------------------
    Question 8. Mr. Warrington, it is my understanding that you have 
been Amtrak's President and CEO for just over two years. While the 
nation just witnessed the launch of Amtrak's new high-speed train, 
Acela Express, what other progress has been made since you have taken 
over control of the company?
    Answer. Amtrak is using high-speed rail to move more than people. 
In the last two years since I have become CEO Amtrak has engaged in new 
and exciting businesses like Mail and Express and Smartsend, the 
fastest most reliable way to send packages between major northeast 
cities. Last summer, Amtrak introduced its new brand identity and the 
unconditional Satisfaction Guarantee. No other national transportation 
provider offers this kind of no-questions-asked guarantee. Amtrak 
promises all guests a safe, comfortable and enjoyable experience. Those 
who feel their experience fell short of expectations are compensated 
with future free travel.

    --Acela Express, America's first high-speed train, began revenue 
service in December. The new service is competitive with the airline 
shuttles in travel time and fares, but far exceeds the competition in 
amenities. Serving guests between Boston, New York and Washington, 
Acela Express is the answer for business travelers in search of comfort 
and productivity.

    --For fiscal year 2000, Amtrak's ridership (22.5 million) and 
ticket revenue ($1.1 billion) were both all-time highs, and it was the 
fourth consecutive year of growth for Amtrak.

    --The company introduced Amtrak Guest Rewards, the travel 
industry's most flexible rewards program. It is a huge success, with 
nearly 40,000 guests now registered. Rewarding the most loyal guests, 
and luring new ones, the program gives members two points for every 
dollar spent on Amtrak travel. Points may be redeemed nationwide for 
future travel and other fantastic rewards.

    --Acela Regional made a historical debut in January by being the 
first fully electrified train to run between Washington and Boston. 
Amtrak's Northeast Corridor employees made all-electric service 
possible by completing the final link of the corridor's overhead 
electrification system--a 156-mile section between New Haven and 
Boston.

    --Amtrak announced a major plan early this year to expand its 
national network. The Network Growth Strategy will eventually expand or 
improve service in 21 states, add service to 975 new station pairs, add 
11 route segments, and grow ridership by 7 percent. It will also double 
the number of shipping lanes available to Mail and Express.

    --Amtrak continued to maximize new business opportunities. The 
company is increasingly becoming a key provider of Mail and Express 
services. In fiscal year 2000, the company earned $122 million moving 
goods across America-a 24-percent boost from the previous year-and has 
plans to increase this to more than $350 million in the next few years.

    --The new Pacific Surfliner service debuted along the San Diego-
Los Angeles-San Luis Obispo rail corridor. The Pacific Surfliner, which 
has replaced the San Diegans, will feature nine modern trains by next 
spring, with enhanced amenities and upgraded stations along the route. 
By introducing all new trains throughout the entire corridor, guests 
can expect the same world-class service on board every train, every 
time.

    Question 9. Let me ask you the same question I asked Ms. Molitoris. 
Given that Amtrak runs intercity rail service through many states, 
counties and cities, and given the fact that this rail service impacts 
land use in the communities it serves, how have you dealt with this 
multi-jurisdictional dynamic in the past? What specific advice do you 
have for Georgia in this regard?
    Answer. One of the great benefits of upgrading existing rail lines 
for new high-speed rail service is that this minimizes impacts to the 
communities through which the trains operate. In many cases, the 
railroads operated on a larger physical plant in the past, with second 
or third tracks that have since been removed. Implementation of new 
high-speed rail will only require, in any cases, that these tracks be 
re-installed to provide the additional capacity for new passenger and 
future freight rail service. For example, in the case of the recent 
high-speed rail improvements between New York and Boston, all work to 
upgrade the railroad was undertaken on existing railroad property. This 
minimized adverse land-use issues. Moreover, adding additional rail 
service along existing rail corridors minimizes noise issues.
    State leadership, as the advocate for the public interest in the 
state, also is critical. Where one community may object to certain 
work, the state can best work with the community to address those 
issues without undermining the enormous state-wide benefits from the 
rail upgrade program.

      Response to Written Questions Submitted by Hon. Max Cleland 
                            to Bill Campbell

    Question 1. Atlanta's population explosion has been coupled with an 
increase in the percentage of people who live a fair distance from 
their job. In fact, more than half of the area's employees now live in 
one county and work in another. What effect do you believe passenger 
trains will have on your city? Do you believe a significant number of 
people will abandon their cars for rail?
    Answer. The overall objective is to shorten the length of time 
people must spend travelling to and from work. I believe the key to 
reducing traffic congestion, increasing the use of rail, and improving 
transit options is to expand housing opportunities within the City.
    The City of Atlanta's strategy is to take the necessary steps to 
provide access to housing within the City for a cross-section of people 
with incomes ranging from very low to very high. By creating housing 
affordability closer to the City, where the jobs are located, we are 
providing incentive for people to get out of their cars and on to rail.
    In Atlanta, we have enacted a number of zoning and funding 
initiatives that will increase the housing affordability in the City to 
allow for more development of mixed-use and mixed income communities. 
We expect that our neighboring jurisdictions will promote similar 
community-focused options.
    Question 2. In your testimony you focused on transit-oriented 
developments featuring mixed-use villages of office, retail space, 
apartments, and condominiums around MARTA stations. You cited, for 
example, the redevelopment of the old Atlantic Steel site and efforts 
by Bell south to consolidate dozens of suburban offices into three 
locations served by MARTA. What more do you think can be done to 
encourage people to change from an automobile-centered commute to a 
commute centered on rail?
    Answer. We believe we should stay on course with our current 
strategy, because the culture is changing. Each day more people are 
embracing the concept of commuting by rail rather than automobile.
    Citizens of Atlanta are making lifestyle adjustments to improve the 
environment and their quality of life. In fact, just last month, 
citizens voted overwhelmingly to support a City bond initiative geared 
at enhancing city livability by investing in more streetscaping, 
sidewalks and bicycle trails. This speaks to people's strong desire to 
get out of their cars and into alternative modes of transportation that 
reduce traffic congestion.
    The public's desire can be reinforced by public and private efforts 
to build residential developments near commercial centers. This will 
provide residents easy access to all that they need without having to 
rely on their automobile to get there.
    Question 3. Plans have been in the works for several years to build 
a multi-modal passenger station in downtown Atlanta, which, as you say, 
would link Amtrak, commuter trains and regional buses to MARTA. In 
fact, TEA-21 contains over $20 million in authorization money for the 
station.
    Where do plans for the terminal stand now?
    Answer. I am pleased to say that significant progress has been made 
on the terminal.
    First let me say that we appreciate Congress' support in TEA-21 for 
the multi-modal terminal. We look forward to working closely with you 
as this project proceeds.
    We appreciate also the renewed partnership we have with the 
Governor, who recently created and directed a management team to 
coordinate the efforts of GRTA, GDOT and various transportation bodies 
on the project development.
    Along with the state, we have a working partnership with Amtrak, 
Greyhound, MARTA, and Norfolk Southern. It is vital that we continue to 
strengthen and maintain this coalition, which has brought the project 
to where it is today.
    Our vision is to have the multi-modal terminal serve as a hub of 
transportation, residential and commercial activity in downtown 
Atlanta. It will be the central location for commuter rail and bus 
transportation, as well as commercial and residential development that 
will link with important regional commuter, as well as commercial 
transportation centers.
    Cousins' Properties and Turner Properties are key partners in the 
vision of co-planning the multi-modal site. They are developing the 
mixed use, commercial and residential activity on and around the site. 
This will further strengthen the downtown, and provide a concentration 
of activity around the terminal.
    The site permits are moving forward. A detailed schedule has been 
worked out for the development and implementation of the project. We 
want to have trains running from the terminal by 2004.
    In the City, we are considering a dedicated source of funds from 
the car rental tax surplus to support the mixed-use joint development 
transportation connections of the terminal. Likewise, we hope that the 
state will commit more funds, along with our private, local and federal 
partners. We hope we can count on the Congress continued support as a 
federal partner.

    Response to Written Questions Submitted by Hon. Max Cleland to 
                              Eddie Elder

    Question 1. How do you believe rail service would affect traffic 
congestion in your city? What effect do you believe it would have on 
the creation of a high tech business corridor between Lawrenceville and 
Athens?
    Answer. The Athens-Atlanta corridor is anchored by four of the 
states research universities. In Atlanta, Georgia Tech, Emory 
University, and Georgia State University; in Athens the University of 
Georgia, which is quickly gaining national recognition with 
Biotechnology research. The seeds of a high tech business corridor 
already exists. The linkage between them however is now only with a 
congested highway. Commuter rail would facilitate easier travel between 
Athens and Atlanta, especially during peak travel times.
    Question 2. TEA-21 contains over $16 million in authorization money 
to construct an Athens to Atlanta transportation corridor. What do the 
citizens of Athens think of such a project? What is the status of the 
Athens-Atlanta line?
    Answer. The citizens from Athens have been very supportive. Quite 
literally putting their money where their mouth is, by allocating $11 
million of local sales tax monies for the development and building of 
the Athens Multi-Modal Terminal. This terminal will bring together 
commuter rail, intercity bus service, local bus service, and connect 
with the University of Georgia's Campus Bus System.
    Question 3. What is the expected ridership for the Athens-Atlanta 
line? Do you believe the cost to begin rail service justifies the 
number of riders the trains are projected to carry?
    Answer. Expected ridership in 2010 is projected to be over 12,000 
weekday riders. The cost to begin service is justifiable on many 
levels. Commuter rail will help the regions air quality, help the 
localities where it stops focus development, and help ease the burden 
on our highways.
    Question 4. What do you believe Congress should do to assist the 
states in developing viable commuter and intercity passenger rail 
service?
    Answer. I would like to see the federal government place the same 
emphasis in dollars in commuter rail as it has on other modes of 
transportation in the recent history of our country. i.e. aviation 
during the 1960s and interstate highways during the 1950s.
    Question 5. Do you foresee a day when people will be doing a 
reverse commute, traveling from Atlanta to Athens for job 
opportunities?
    Answer. With the University of Georgia in Athens, reverse commute 
of students from the Atlanta area is almost assured. Also, a number of 
faculty and staff of the University live in the Atlanta area, commuting 
to Athens daily. With the emerging Biotech research base that is 
already developing in Athens due to the University, a market for 
reverse commuting by rail is already developing.

    Response to Written Questions Submitted by Hon. Max Cleland to 
                             Jack C. Ellis

    Question 1. There has been much discussion, as well as 
disagreement, over whether people will leave their cars behind to ride 
the trains. What do you expect from your constituents in Macon on this 
issue? What incentives do they have to prefer rail over roads?
    Answer. Senator, I welcome this public interest, because an 
undertaking of the magnitude of passenger rail travel must bear intense 
scrutiny and solicit the input of all its stakeholders. Will people 
leave their cars to ride the trains? Yes, indeed, if the trip cost, 
travel time, and convenience of the train trip compare favorably with 
the automobile trip.
    People tend to like what is convenient. We are now used to our 
cars, and habit is convenient. So, it is no surprise that the bold plan 
to re-introduce passenger rail service to Macon has stimulated a lot of 
discussion and, yes, initial disagreement.
    Yet the people of Macon also recognize that traffic congestion and 
poor air quality, the products of sprawl, are very inconvenient. Our 
leaders of business and industry recognize that non-attainment and 
highways clogged with unhappy employees stuck in traffic will be 
extremely inconvenient. Faulty infrastructure can cause layoffs or 
business closures, inconveniences everyone understands and no one 
likes. We do not want this to become our future, and there is no 
disagreement there.
    My constituents recognize that we must devote top priority to 
maintaining the attractiveness of our location to domestic and 
international companies. If Middle Georgia is to continue to grow as a 
highly desirable place to live and do business, we must offer 
convenient, clean, and cost-effective transportation choices.
    The Selig Center for Economic Growth predicts a healthy 2.1 percent 
job growth in the Macon MSA for 2001 that in part reflects our 
extensive surface transportation system. Macon is located strategically 
at the intersection of I-75 and I-16. When the Fall Line Freeway is 
completed, we will have multi-lane highway connections to the other 
major metropolitan statistical areas of Augusta and Columbus. Macon has 
two major freight railroad lines, and excellent general aviation 
facilities that are used by local residents as well as businesses and 
travelers from throughout much of South Georgia.
    However, the University of Georgia economic experts warn that an 
overburdened transportation infrastructure will hamper growth and 
diminish the high quality of life which the greater Macon area is 
blessed with. Moreover, the midstate economy has a ripple effect in 
rural south and west Georgia. My office and our numerous community 
partners are solidly engaged in educating the public on the benefits of 
transportation alternatives to the single-occupancy, gasoline-powered 
automobile.
    We will benefit from the lively discussion about future passenger 
rail travel, because I fully believe that my constituents will support 
the concept widely once they have had the chance to examine the 
arguments on both sides. We must remember that an entire generation of 
adults here has never even experienced train travel since the last 
train departed Macon in 1971. Those who have had the opportunity to 
ride modern trains in the United States or abroad understand the 
tremendous potential of this mode of transportation.
    I expect my constituents to use passenger rail enthusiastically. As 
Georgia Governor Roy Barnes points out, this is about providing more 
transportation choices. Riding the train provides a safe, clean, and 
relaxing alternative to driving an automobile.

    Question 2.
    (a) TEA-21 contains more than $29 million to construct an Atlanta-
Griffin-Macon rail corridor. What is the status of this project?
    (b) What is the status of the multi-modal terminal in Macon?
    Answer.
    (a) The Georgia Rail Consultants (GRC) have prepared a Screening 
Report of Alternatives--Athens and Macon Corridors that will be 
presented to the Project Management Team (PMT) Thursday, Dec. 7, 2000. 
The purpose of this report is to present a preliminary analysis of the 
rail passenger alternates and to eliminate the ones with fatal flaws.

         If the PMT concurs with the GRC report, a more detailed 
        analysis of the GRC-preferred three S-line alternatives as well 
        as the bus rapid transit TSM alternative will follow. (Federal 
        law mandates that a Transportation Solution Management, i.e. 
        low-cost alternative must also be considered). The ``H-
        family,'' the alternatives east of I-75, would be more 
        expensive to upgrade, would conflict with Norfolk Southern 
        freight traffic, and would serve fewer passengers. New 
        construction along I-75 would be vastly more expensive as well 
        as producing lower ridership.
         LThe remaining alternatives will be recommended for detailed 
        study in order to determine the best alternative. The detailed 
        study will take another 5 or 6 months.
    (b) The City of Macon plans to acquire the historic Terminal Union 
Station from its current owner, Georgia Power, and so lay the 
groundwork for this tremendously important icon to become the focal 
point of the future multi-modal terminal. The City has already received 
a $15,000 pre-construction grant from the Great American Station 
Foundation, as well as a 2002-2003 TEA-21 Transportation Enhancement 
for $1 million to assist with the acquisition.

    At this time, an Intermodal Passenger Terminal Facilities Plan is 
under preparation. The Plan will study other locations for the multi-
modal terminal besides the Terminal Station and identify a preferred 
location. The Plan will also recommend operating functions and space 
requirements for the future operating years of 2005, 2010, and 2020. 
The final report will be delivered in June, 2001.
    Question 3. (a) What is the expected ridership for the Atlanta to 
Macon line? (b) Do you believe the cost to begin rail service justifies 
the number of riders the trains are projected to carry?
    Answer.
    (a) S-lines: 8,800 passengers per day, H-lines and I-75: 5,200 
passengers daily, Bus rapid transit: 6,000 passengers daily.
    Yes, I believe the initial cost is well worth the benefits, and in 
this I concur wholeheartedly with my fellow mayors across the nation 
who are represented by the U.S. Conference of Mayors. The President and 
Congress must make passenger rail service a top priority in order to 
address the congestion problems that are strangling economic growth and 
diminishing our quality of life.
    There is no getting around it that constructing the passenger rail 
infrastructure will be expensive. We have invested many billions of 
dollars in air travel and highways, and it is clear from the present 
air and traffic congestion that we need more solutions. We must take 
the appropriate steps to make passenger rail just as strong a 
transportation option in this country as road and air travel.
    Question 4. What do you believe Congress should do to assist the 
states in developing viable commuter and intercity passenger rail 
service?
    Answer. I urge Congress to enact the following measures:
    Commit $12 billion in bonds to support investment by Amtrak and the 
states in intercity high-speed passenger rail systems, earmark portions 
of the federal gas tax for rail projects, enable the states to provide 
tax incentives for the upgrading of all existing rail lines, and 
require rail freight carriers to work with the state Departments of 
Transportation to utilize and upgrade existing tracks.
    Senator Cleland, I thank you very much indeed for your devotion to 
identifying viable solutions to our state's and our nation's 
transportation problems. I am honored by this opportunity to assist you 
through my testimony.

    Response to Written Questions Submitted by Hon. Max Cleland to 
                             Steve Roberts

    Question 1. Before becoming the project director of Georgia Rail 
Consultants here in Atlanta and agreeing to assist Georgia with its 
congestion concerns, you successfully promoted a passenger rail program 
in Virginia and headed the Virginia Railway Express (VRE). How did 
commuters in Northern Virginia adapt to commuter rail?
    Answer. Northern Virginia commuters have responded to VRE in 
several ways:
    During 1997 and 1998 there was a substantial decline in ridership 
as VRE struggled to overcome a CSX Transportation failure to provide 
on-time performance for VRE trains.
    Since that time, CSXT and NS commitment to on-time performance has 
provided a base for VRE to not only recover, but surpass projections 
for the mature system. VRE was initially forecast to carry 8,000 daily 
trips, moving to 10,000 in 2005 after the construction of lengthened 
HOVlanes and Metrorail extension to Springfield. VRE is already 
carrying in excess of 10,000 daily trips, four years ahead of the 
original schedule.
    Commuters/customers have been encouraged to consider VRE as 
``their'' railroad and to ask for those qualities that are important to 
them. VRE now provides service guarantees, a safety net for customers 
with day care, mid-day options, transfers to other systems, cross-
honoring with Amtrak in the VRE service corridors, GPS-based train 
information for real time checks, varied communications with customers 
e-mail, an on-board newspaper, and an active web site, a performance 
based incentive compensation for both Amtrak corporate and employees 
based on customer satisfaction.
    Question 2. How does your experience in running Virginia's commuter 
trains compare to the situation in Georgia? How is it different?
    Answer. Northern Virginia's commuter rail experience has been 
largely a local initiative, with the cooperation of the Commonwealth; 
in Georgia the initiative is principally by the state through the 
several agencies that have agreed to form the Program Management Team. 
The opportunities in Georgia are more immediate in that the rail 
infrastructure is both more robust and more ubiquitous. The rail 
opportunities are also more immediate in that there is little existing 
service from the region's transit supplier--MARTA; and currently only 
one operating suburban bus system.
    There are similarities, in that the cities are of similar size, 
traffic congestion is significant; the suburban residential markets are 
similar to those in Virginia. The Atlanta region is in a similar 
position to Northern Virginia in the 1980s, beginning to make a choice 
to strengthen the core employment areas and improve access to them 
using other means than the single passenger car.
    Question 3. What do you think can be done to encourage people to 
change from an automobile-centered commute to a commute centered on 
rail?
    Answer. The most effective marketing is the quality and character 
of the service. The satisfactions that others gain on the 18 operating 
commuter rail systems in North America will reinforce the continued 
patronage of Georgians. The commitment to redevelopment the region 
along the routes of existing infrastructure are a foundation to work 
with developers and employers in supporting a business climate that 
supports the quality of life and productivity elements of a move away 
from the single occupant automobile for commuting.
    Question 4. Some have estimated that the cost of the Athens to 
Atlanta line along I-85 and GA 316 would cost over $1.5 billion and 
that express buses running along a similar route would cost $164 
million, or about one-tenth the cost of the trains. Considering the 
costs, do you support rail over buses and if so, why?
    Answer. We have looked at seven alternatives for providing service 
in the Athens-Atlanta corridor. The most expensive option requires the 
reconstruction of the 316 and I-85 rights of way to accommodate rail in 
the median, that option was estimated to be in the range of $1.5 
billion. We have several others that rely on the expansion of capacity 
on the existing CSXT right of way between Athens and Emory, with 
options for reaching downtown and the proposed multi-modal passenger 
terminal. Those alternatives that use existing rights of way vary in 
cost between $315 and $460 million. The bus option is less expensive 
but it is also less productive, carrying only 53 percent of the 
passenger forecast for the best rail option.
    The Program Management Team has directed our work to examine those 
remaining alternatives to recommend a preferred alternative that may 
well include buses and trains as each mode responds more effectively to 
certain elements of the market. We expect to make recommendations in 
Spring 2001. Athens trains are forecast to carry between 10 and 12 
thousand daily trips in 2010 and we will examine a 2025 forecast in 
assessing a recommendation or a selected alternative.
    Question 5. What is the expected ridership for the Atlanta to 
Athens line? The Atlanta to Macon line? Do you believe the cost to 
begin rail service justifies the numbers of riders the trains are 
projected to carry?
    Answer. As in the Athens corridor we have been directed by the PMT 
to narrow the studied options to those using existing rights of way and 
to evaluate the manner in which a selected alternative may incorporate 
the most effective response to the market. The elimination of the more 
heavily used Norfolk Southern ``H'' Line will strengthen the 
consideration of bus service, especially in areas east of I-75. Macon 
trains on NS's former Central of Georgia ``S'' Line are forecast to 
carry approximately 8,700 daily passengers in 2010. We will examine a 
2025 forecast in assessing a recommendation for a selected alternative.
    Question 6. What do you say to transportation planners who say it's 
best to demonstrate demand with a bus service first before investing 
hundreds of millions of dollars in rail?
    Answer. The demonstration of demand with bus service would only be 
as successful as the manner in which the proposed bus service can 
provide the qualities of rail service: timeliness, reliability, and 
safety. The full express bus service costs over a hundred million 
dollars itself and generated half the ridership, and thus only half of 
the benefits of rail. If only a fraction of the service is provided, 
smaller benefits will be generated, and there will be less incentive to 
create the patterns of land uses that encourage peak hour transit use.
    There is no doubt in my mind that if you make a significant 
commitment to public transportation and support it with complimentary 
land uses, the ridership will be there. We know from the dozen or so 
start-ups in the last decade that new commuter rail lines attract 
plenty of trips in cities formed by the auto, and we know the kinds of 
things that are necessary u reliability, parking at the home end, mid-
day guaranteed trips back, good connectivity with the transit systems, 
and so forth. There is no reason to believe that Atlanta is radically 
different from Los Angeles or Dallas or Chicago in that respect.
    The absence of truly exclusive bus-ways, as for instance in Houston 
and portions of Northern Virginia, will adversely influence the 
reliability of express bus service for the roadway network now in place 
inside the Perimeter.
    Question 7. How would you describe the public meetings that your 
organization has held since October 14th to present the seven 
alternatives for each of the proposed lines linking Atlanta and Athens 
and Atlanta and Macon?
    Answer. There are two overriding qualities to the public response 
in our meetings:
    Why is this taking so long?
    ``We had no idea this was under consideration.''
    Clearly there are those who are aware of the significant work that 
has preceded this current effort and wonder why it is still in the 
talking stage; and, there is a second group, many of whom are new to 
the region, which are uninformed of any real efforts to address the 
issues of mobility and patterns of development.
    There was general support of using the existing rail lines rather 
than spending much more on new alignments, there were a few suggestions 
that bus service be tried first, and there was only one meeting in 
which there was significant community concern. Much of that concern was 
based on the mistaken belief that the proposed service was like earlier 
MARTA heavy rail proposals that would have had major takings of 
property along the line as well as closings of key streets crossing the 
lines.
    As part of the public involvement process that accompanies our work 
on the Georgia Rail Passenger Program we have continued to meet with 
the localities, neighborhood groups, and other interested parties to 
clarify the understanding about the proposed services and answer 
questions. The public involvement process will be enhanced as we move 
toward our Spring 2001 recommendations.
    Question 8. How are important community issues like air quality, 
wetlands, parking, historic properties, parkiands, community disruption 
and safety being addressed?
    Answer. We are following the processes established in the National 
Environmental Policy Act [NEPA] and federal transportation planning 
legislation and the associated agency regulations implementing that 
legislation. We have been engaged in are now engaged in the detailed 
study of air quality, wetlands, parking, historic properties, 
parklands, community disruption, safety and environmental justice. In 
our recommendation of selected alternatives we will be recommending any 
necessary mitigation should we find adverse effects on these valuable 
community resources.

    Response to Written Questions Submitted by Hon. Max Cleland to 
                           Stephen A. Crosby

    Question 1. In order for passenger rail service to become a 
reality, viable partnerships must be reached between the state and 
federal governments and the freight railroads. This partnership will 
have to include sacrifices and concessions to ensure that freight 
railroads continue to be able to perform at or above current operating 
levels, including improvements to tracks and rail alignments. If we 
proceed with expanding rail service in Georgia, I want you to know that 
I am committed to ensuring that such a partnership is mutually 
beneficial for both passengers and freight.
    In your negotiations with the state, what specific kinds of 
financial and operational issues do freight railroads believe must be 
addressed? What kinds of concessions are freight railroad operators 
willing to make to advance passenger rail service, both in the short 
term and long term?
    CSX and Norfolk Southern have indicated a willingness to negotiate 
with state officials. However, an agreement has not yet been reached. 
What do you believe are the major challenges to reaching such an 
agreement?
    Answer. We are currently working with GRTA to negotiate the details 
of the first major freight and passenger rail study ever initiated in 
Georgia by all relevant parties. Given the complexity of Georgia's rail 
network and the number of organizations that need to be involved, this 
is a challenging, but necessary, task. We are continuing to meet and 
work on this study agreement. While the negotiations are not complete, 
we are very close to a final agreement. And CSX is making every effort 
to resolve the issues as quickly as possible.
    Question 2. In your testimony, you refer to experiences with two 
``new start'' commuter systems that have been proposed. Could you tell 
us about your experience with existing commuter operations on your 
network and whether they satisfy your core concerns of safety, 
capacity, indemnification, and compensation?
    Answer. Every commuter system on CSX's network is different no 
system in one city can be replicated in another. Given the complex 
demands of our freight rail customers and the needs of individual 
commuter systems, we must develop unique systems that meet localized 
requirements. Therefore, I cannot point to a model in another city that 
would work in Atlanta.Our experience, however, with the six commuter 
systems running on CSX. leads to the following observations.

  <bullet> First, it is in the public's interest to ensure that freight 
        capacity is maintained and protected for future growth in order 
        to keep trucks off the highway. CSX moves one million freight 
        cars through Atlanta each year, with each car roughly the 
        equivalent of three trucks. So, put simply, failure to protect 
        freight capacity in this area could mean as many as three 
        million new trucks on the highways of Atlanta and surrounding 
        areas. As a result, the goal of reduced highway congestion is 
        defeated and road wear and tear increases significantly.

  <bullet> Second, it is important to build the new infrastructure 
        required by or additional passenger operations on the freight 
        network before such service begins. While that may lengthen the 
        time in which new or expanded passenger service can start, it 
        will pay far better dividends over the long-term. For example, 
        in the case of VRE, CSX is in discussion with state and 
        commuter authorities about the need for additional 
        infrastructure capacity prior to any expansion of existing VRE 
        service. Be it Virginia, Massachusetts, Georgia or any other 
        state in which officials are looking to railroads as an 
        alternative to chronically congested roadways, rail service 
        will not be reliable for freight or commuter customers without 
        the proper infrastructure in place. And by frustrating our 
        respective customers with unreliable service, freight shippers 
        will switch to trucks and commuters will stay in their cars.

  <bullet> Third, the best solution is building and operating commuter 
        systems on separate track structures. By operating commuter 
        trains on dedicated commuter tracks and freight trains on 
        dedicated freight tracks, we can provide optimum service to all 
        users. The United States has, in terms of performance and 
        productivity, the best freight rail system in the world. But we 
        will never approach world-class status for passenger rail 
        systems if each is forced to work within the confines of the 
        other. This is the model used on Amtrak's Northeast Corridor 
        between New York and Washington.

  <bullet> Fourth, safety and liability concerns are addressed best 
        when rail systems are completely separated from vehicular 
        systems. Grade crossing closure and over/underpass programs are 
        important infrastructure considerations in any increased use of 
        the rail right-of-way.

  <bullet> Fifth, liability concerns are best addressed through state 
        legislation, similar in form to the Amtrak Reform and 
        Accountability Act and a Massachusetts statute. Such 
        legislation would provide a cap on tort liability and establish 
        insurance requirements for the protection of the freight 
        railroad providing access to passenger trains.

    Question 3. Does CSX see the development of commuter and intercity 
passenger rail service as a help or hindrance in meeting the 
infrastructure needs of your company?
    Answer. Our goal in working with commuter operations is to ensure 
that there is no negative impact on our rail operations. That is why in 
working with both new starts and currently operating commuter systems, 
we require the necessary infrastructure to be in place prior to the 
commencement of service. Our experience has demonstrated that when 
commuter service begins before such infrastructure is in place, three 
things happen--the needs of freight rail customers are not met, more 
trucks appear on the highway as customers shift away from rail 
transportation and commuters get frustrated by unreliable service.
    By forcing passenger service on freight lines or in adjoining 
rights-of-way without proper planning and funding, the needs of neither 
freight nor public transportation will be met. Schedules will become 
unreliable, quality service will diminish and capacity will not be 
available to fully meet the needs of either constituency. The result 
will be the antithesis of the state's goal--highway congestion will 
increase as millions of new trucks are forced onto the highways and 
people remain in their automobiles. Therefore, it is in the best 
interest of all parties to develop and implement the right 
infrastructure plan, consistent with the judgement of operating 
professionals, before beginning commuter operations.
    Question 4. Assuming liability and safety issues could be addressed 
adequately and assuming that there was no impact--or a net positive 
impact--on freight rail capacity, what other issues are there that must 
be addressed in order to gain the freight operators' support for 
passenger rail operation?
    Answer. Assuming liability, safety, and capacity are addressed, the 
remaining outstanding issue is fair compensation. The freight railroads 
are not public utilities. We are publicly held companies, operating on 
private property that has been purchased and maintained by private 
investment. For that reason, we simply cannot ask our shareholders and 
customers to subsidize the cost of commuter rail and rail transit 
operations. As freight rail capacity, or our property is consumed by 
passenger rail systems, CSXT must seek the fair market value of the 
assets being used.

    Response to Written Questions Submitted by Hon. Max Cleland to 
                             H. Craig Lewis

    Question 1. Let me reiterate what I said to Mr. Crosby: If we 
proceed with expanding rail service in Georgia, I want you to know that 
I am committed to ensuring that such a partnership is mutually 
beneficial for both passengers and freight. Do you believe there can be 
mutually beneficial outcomes that could be derived from passenger rail 
development? If so, what are some examples?
    Answer. We believe, based upon experience in other parts of the 
country, that mutually beneficial outcomes for freight and passenger 
rail interests can be achieved as part of new passenger rail 
development.
    The most common scenario is one in which a passenger rail project 
is accommodated on existing freight tracks or right-of-way in return 
for infrastructure improvements that assure the freight railroad that 
capacity required for present or future freight service will not be 
reduced or constricted. Further, the freight railroad would expect to 
be able to use much of the passenger infrastructure in non-peak 
periods, if desired. These mutually beneficial partnerships can occur 
only with public support and public funding so your support, Senator, 
will be crucial in achieving these goals.
    Question 2. In the state of Georgia the CSX and Norfolk Southern 
railroads own and operate eighty percent of the total state systems of 
railroads, consisting of approximately 5,000 route miles. This is very 
impressive. Are there peak times that these tracks experience heavier 
traffic than at other times? How difficult do you believe it is to 
schedule additional trains on these existing tracks?
    Answer. Many of the issues that need to be addressed in 
negotiations are common to CSX and Norfolk Southern. However, the 
principal railroad segments under discussion are separately owned. We 
believe the major challenges to reaching an agreement are:

    a. Separating the discussion about Atlanta/Athens from the 
discussions about Atlanta/Macon.
    b. Helping to inform elected officials and the public that there 
are no simple or inexpensive solutions.
    c. Identifying sources of funding so discussions have a context of 
reality.

    Question 3. Where do you currently have commuter service that 
satisfies the core concerns of safety, capacity, indemnification, and 
compensation?
    Answer. All areas in which commuter and freight service are 
conducted fulfill the core concerns you identified. However, most of 
these areas have had joint operations for long periods of time. The 
challenge arises with regard to core concerns when new or expanded 
passenger service is proposed for existing freight lines. Our most 
recent experience with these circumstances has been in New Jersey. We 
are actively engaged in discussions in New York, Philadelphia, Chicago, 
Charlotte and Cleveland.
    Question 4. Norfolk Southern and CSX have indicated a willingness 
to negotiate with state officials. However, an agreement has not yet 
been reached. What areas do you believe are the major challenges to 
reaching such an agreement?
    Answer. There are peak traffic periods that vary more by day of the 
week, line segment and commodity type than time-of-day. The real 
challenge with introducing passenger service to a freight line is 
frequency and speed of the passenger trains. Passenger trains typically 
run at much faster speeds than freight trains so there is a constant 
problem of passenger overtaking freight--think of it like a pac-man 
dynamic. And so, without track and infrastructure improvements, 
passenger service tends to shut out, or severely curtail freight 
service during much of the typical passenger operating period (6 a.m.-
10p.m.), creating the unacceptable situation of relegating freights to 
a very limited night-time window. The challenge is to find the right 
balance in which each rail operation can meet its requirements with 
transparency to the other. Technology does not solve the problems; more 
tracks and intelligently designed stations usually will.
    Question 5. Would you support appointing a senior member of your 
operations staff to be the point of contact in rail negotiations with 
the state in order to help explore all realistic options for developing 
passenger rail service in Georgia?
    Answer. Yes
    Question 6. Could you please tell us about your experience in 
Virginia in regard to commuter rail and the lessons Norfolk Southern 
learned in that state?
    Answer. We learned that, when working together with a commitment to 
promoting the interests of both parties, government and the private 
sector can construct relationships that can get things done. Most 
importantly from our perspective, the State of New Jersey understands 
and accepts the value of keeping NS commercially viable whenever new 
passenger service is imposed. Where most passenger authorities are seen 
as having an entitlement mentality, New Jersey Transit has shown 
genuine sensitivity to the effects of passenger trains operating over 
freight railroads.
    Question 7. Does Norfolk Southern see the development of commuter 
and intercity passenger rail service as a help or hindrance in meeting 
the infrastructure needs of your company?
    Answer. Either. Historical attitudes have typically cast new 
passenger rail proposals as a hindrance to freight operations. The 
potential for a new paradigm, the development of public/private 
partnerships centered around preservation of freight competitiveness, 
can be constructive and helpful for all parties.

                                 ______
                                 
     Prepared Statement of Atlanta Regional Commission, Atlanta, GA

    As the Metropolitan Planning Organization (MPO) for the Atlanta 
Metropolitan Region, we want to take this opportunity to emphasize the 
importance that passenger rail implementation plays in the future of 
transportation in our region. The Atlanta Region is classified as a 
non-attainment area under the Clean Air Act of 1990 and thus has been 
required to implement an intensive regional transportation and land use 
planning effort in order to demonstrate conformity with the emission 
targets established by the state and federal environmental agencies. 
The recent adoption and approval of a new long range Regional 
Transportation Plan (RTP) demonstrates our commitment to this process 
and clearly sets a new direction for transportation infrastructure 
investment for the Region.
    Passenger rail implementation plays a significant role in this 
plan. Commuter rail projects are programmed for early implementation. 
The commuter rail projects are:


                  Atlanta--Athens         2003-2005
                  Atlanta--Griffin--Maco  2003-2005
                   n
                  Atlanta--Senoia         2010
                  Atlanta--Bremen         2010



    We expect the population of the Atlanta Region to grow by 
approximately 1.1 million people over the next 25 years. It is 
essential that we invest now in transportation infrastructure that will 
meet the mobility needs of the future without compounding our air 
quality problems. These commuter rail projects will enhance regional 
mobility for our citizens and will provide the much needed alternative 
to the automobile.
    We have recognized that future development and land use go hand in 
hand with transportation infrastructure investment. We have adopted a 
Regional Development Plan (RDP) that recognizes the importance of land 
use decisions to the regional transportation system. The RDP provides a 
guide for the future that encourages land use decisions which will 
create higher density development around available rail and transit 
systems. This change in development patterns will decrease our 
dependency on the automobile and promote utilization of alternative 
transportation modes.
    The Atlanta Regional Commission also supports statewide efforts to 
implement intercity high-speed rail. Atlanta has always been the major 
transportation hub of the Southeast and this will certainly continue. 
The Atlanta-Hartsfield International Airport is now the busiest airport 
in the world and will quickly reach its maximum capacity. Our 
interstate highway system becomes more congested every day. It is clear 
that intercity passenger rail service is needed as a viable alternative 
to these other modes. The original designation of national high-speed 
rail corridors included the route from Charlotte through Atlanta to 
Macon and from Savannah to Jacksonville. With the additional 
designation this year of the continuation from Macon to Jesup, a 
complete tie in through the state will be available. We believe that 
the designation of additional corridors such as Atlanta-Chattanooga and 
Macon-Albany-Tallahassee should be considered as future enhancements to 
the high-speed corridor system.
    The Atlanta Regional Commission has been an active participant in 
developing rail programs that have the potential to significantly 
change our mobility options. In partnership with the Georgia Department 
of Transportation, the Georgia Rail Passenger Authority, the Georgia 
Regional Transportation Authority and other local government agencies 
in both Georgia and Tennessee, we are participating in the National 
Maglev Deployment Program. We have done a tremendous amount of work on 
this project and believe that Maglev is not only feasible, but will 
provide a modern, safe and comfortable mode of transportation that will 
be financially supportable over the long term.
    In summary, we are committed to the implementation of commuter rail 
in the Atlanta Region and fully support the early development of 
intercity high-speed rail programs. We hope that this Committee will 
work to provide the investment necessary to bring these rail options to 
reality.


</pre></body></html>
